<html>
<title> - [H.A.S.C. No. 115-98]NATIONAL DEFENSE AUTHORIZATION ACT  FOR FISCAL YEAR 2019</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 115-98]
_________________________________________________________________

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                     THE FISCAL YEAR 2019 NATIONAL

                      DEFENSE AUTHORIZATION BUDGET

                      REQUEST FROM THE DEPARTMENT

                               OF DEFENSE

                               __________

                              HEARING HELD

                             APRIL 12, 2018

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
30-572                 WASHINGTON : 2018      



                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
BILL SHUSTER, Pennsylvania           MADELEINE Z. BORDALLO, Guam
K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROBERT J. WITTMAN, Virginia          JOHN GARAMENDI, California
DUNCAN HUNTER, California            JACKIE SPEIER, California
MIKE COFFMAN, Colorado               MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
PAUL COOK, California                RUBEN GALLEGO, Arizona
JIM BRIDENSTINE, Oklahoma            SETH MOULTON, Massachusetts
BRAD R. WENSTRUP, Ohio               COLLEEN HANABUSA, Hawaii
BRADLEY BYRNE, Alabama               CAROL SHEA-PORTER, New Hampshire
SAM GRAVES, Missouri                 JACKY ROSEN, Nevada
ELISE M. STEFANIK, New York          A. DONALD McEACHIN, Virginia
MARTHA McSALLY, Arizona              SALUD O. CARBAJAL, California
STEPHEN KNIGHT, California           ANTHONY G. BROWN, Maryland
STEVE RUSSELL, Oklahoma              STEPHANIE N. MURPHY, Florida
SCOTT DesJARLAIS, Tennessee          RO KHANNA, California
RALPH LEE ABRAHAM, Louisiana         TOM O'HALLERAN, Arizona
TRENT KELLY, Mississippi             THOMAS R. SUOZZI, New York
MIKE GALLAGHER, Wisconsin            JIMMY PANETTA, California
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming
JODY B. HICE, Georgia

                      Jen Stewart, Staff Director
                         Tim Morrison, Counsel
                      William S. Johnson, Counsel
                          Justin Lynch, Clerk
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Dunford, Gen Joseph F., Jr., USMC, Chairman, Joint Chiefs of 
  Staff..........................................................     7
Mattis, Hon. James N., Secretary of Defense, United States 
  Department of Defense..........................................     3

                                APPENDIX

Prepared Statements:

    Dunford, Gen Joseph F., Jr...................................   110
    Mattis, Hon. James N.........................................    86
    Smith, Hon. Adam.............................................    84
    Thornberry, Hon. William M. ``Mac''..........................    83

Documents Submitted for the Record:

    Letter to the Secretary of Defense from the World 
      Professional Association for Transgender Health............   125
    Letter to the Secretary of Defense from the American Medical 
      Association................................................   126

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mrs. Hartzler................................................   130
    Ms. Speier...................................................   129
    Mr. Turner...................................................   129
    
    
THE FISCAL YEAR 2019 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM 
                       THE DEPARTMENT OF DEFENSE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Thursday, April 12, 2018.
    The committee met, pursuant to notice, at 10:00 a.m. in 
room 2118, Rayburn House Office Building, Hon. William M. 
``Mac'' Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. The 
committee is pleased to welcome back the Secretary of Defense 
and the Chairman of the Joint Chiefs of Staff to discuss the 
administration's fiscal year 2019 budget request for the 
Department of Defense. We are also pleased to have the 
Comptroller available to answer any questions.
    We meet under rather different circumstances than last 
year. Congress and the administration have worked together to 
provide to the military the resources they need to begin to 
reverse the erosion of our military strength. There is 
agreement on the funding levels for defense for fiscal year 
2019. We know how much we have to work with.
    The challenge, as we work through the details, is that some 
of the consequences of years of cuts and neglect are becoming 
more apparent. A study published this weekend by Military Times 
found that aviation mishaps have risen about 40 percent since 
the Budget Control Act took effect. The alarming number of 
aviation accidents in just the past three and a half weeks 
reveals how deep the damage goes, and the magnitude of the task 
of repairing and rebuilding our capabilities.
    Meanwhile, as events in Syria remind us, the world does not 
slow down and wait on us to rebuild.
    This committee has had a number of hearings and briefings 
this year to examine more closely the challenges we face, from 
readiness to space and cyber. We have studied what adversaries 
are doing. We have heard from combatant commanders, service 
chiefs, and outside experts.
    The issue today is how well the administration's budget 
request meets our national security needs under the parameters 
set in the Bipartisan Budget Act. We also want to examine how 
this budget request implements the new National Defense 
Strategy, about which the Secretary testified in February.
    I am committed to working with the Department to achieve 
reforms that enable our military to be more agile and more 
efficient in facing the threats which confront us. The 
challenges are great, but if Congress and the Department work 
together, we can ensure that the military has what it needs to 
meet those challenges.
    I would yield to the ranking member for any comments he 
would like to make.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 83.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. And thank you, 
Secretary Mattis, General Dunford, Comptroller Norquist. We 
appreciate you being here, and we appreciate your leadership in 
the Pentagon. And the chairman, I think, is quite correct in 
that it is better this year that we have a budget for 2018. We 
have the framework of an agreement for 2019, going forward. And 
certainly, some degree of predictability is going to be 
enormously helpful.
    And without question, we have a readiness crisis within the 
military. The chairman has cited a number of the examples of 
that. We are better now than we were a year or two ago, but 
still a long way to go to make up for 15 years of war and, 
frankly, for spending money in other places and not on 
readiness.
    So, as we look at the 2018-2019 budget, one of my top 
priorities is to make sure that that money goes to make sure 
that our force is ready, that we address that problem, because 
there will be other needs, there will be other pressures. I 
hope we don't give in to those, I hope we remember that the 
troops should come first. Having them ready for the fights that 
they are saying they need to be ready for is our number one 
priority, going forward.
    I will also point out that, while 2018 to 2019 are great, I 
hope you are also planning for a lean future, because we are 
looking at an over $1 trillion deficit this year. We just cut 
taxes by almost $2 trillion, increased spending by somewhere in 
the neighborhood of $500 billion in the face of a now nearly 
$22 trillion debt.
    So, going forward in the next decade, certainly for the 
country as a whole, but for your purposes, for the military, 
understanding our fiscal restraints and dealing with them is 
going to be a critically important part of making sure that our 
military is ready to do what it can do. So we do need to get 
the budget under control.
    On a couple other matters, just quickly, in North Korea I 
just want to emphasize that we should find a peaceful solution. 
It is a very, very difficult situation. But going to war on the 
Korean Peninsula would have catastrophic consequences. So I 
hope that we figure out a way to contain and control the very 
real threat of North Korea, but at the same time prevent going 
to war.
    The last two things I will say is, one, on Syria, it is a 
very, very difficult situation. You know, two Presidents have 
struggled with how to deal with it. I am not going to pretend I 
have an easy answer. But until we have a more long-term 
strategy, until we have some idea of where we are going in 
Syria and the Middle East, it seems unwise to me to start 
launching missiles. We need to know where that is going, what 
the purpose of it is, before we take that act.
    I think it is also worth pointing out it is hard to find a 
legal justification for that military strike in Syria, absent 
congressional approval. So, whatever you decide to do, I would 
hope that you would include the legislative branch.
    And then, lastly, we have heard a lot--and I agree with 
this--that we have shifted our focus in the last few years. We 
are now back into an era of great power struggles because of 
what Russia and China are doing, and how aggressive they are in 
pushing their agendas and their ideas across the world. And I 
agree with that.
    I just hope that we don't see a great power struggle as 
simply an excuse for another arms race, and that we understand 
that a great power struggle involves all the elements of our 
government: diplomacy; I think, most critically, allies, 
finding partners in the world to advance our agenda and thwart 
those aspects of the Russia and Chinese agenda that are against 
the interests, not just of the United States, but I think of 
the world. So we work with partners, and we use diplomacy, and 
we use development, that we don't simply use the excuse of the 
rise of Russia and China to build more and more weapons.
    There has to be a much more comprehensive approach, if we 
are going to be successful in creating a peaceful and 
prosperous world, which certainly is in our best interests, but 
it is in the best interests of the entire world, as a whole.
    Thank you, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 84.]
    The Chairman. Mr. Secretary and Chairman, welcome. Without 
objection, any written statements you would like to make will 
be made part of our record.
    And Mr. Secretary, you are recognized for any comments you 
would like to make.

STATEMENT OF HON. JAMES N. MATTIS, SECRETARY OF DEFENSE, UNITED 
                  STATES DEPARTMENT OF DEFENSE

    Secretary Mattis. Well, thank you, Chairman Thornberry, 
Ranking Member Smith, and distinguished members of the 
committee. I do appreciate the opportunity to testify in 
support of the President's budget request for fiscal year 2019. 
I am joined by the Chairman of the Joint Chiefs, General 
Dunford, who will discuss military factors, and the 
Department's Comptroller/Chief Financial Officer, Mr. David 
Norquist, who is superintending the first full financial audit 
in most of our lifetimes, since it is the first of the 
Department of Defense history.
    I am now in my second year as Secretary of Defense. And 
with your help we have made steady progress during the past 14 
months. In January, the Department published a 2018 National 
Defense Strategy to which I testified previously. It is the 
first in a decade.
    Framed within President Trump's National Security Strategy, 
our National Defense Strategy provides clear direction for 
America's military to restore its competitive edge in an era of 
re-emerging, long-term, great power competition.
    The Department next released the 2018 Nuclear Posture 
Review, which calls for America's military to provide a safe, 
secure, and effective nuclear deterrent, one that is modern, 
robust, flexible, resilient, ready, and appropriately tailored 
to deter 21st century threats, and to reassure our allies.
    In South Asia and Afghanistan, uncertainty in the region 
has been replaced by the certainty of President Trump's South 
Asia strategy. Concurrently, in the Middle East, we have 
dramatically reduced ISIS's [Islamic State of Iraq and Syria's] 
physical caliphate, using a coordinated, whole-of-government 
approach that works by, with, and through our allies and 
partners to crush ISIS's claim of invincibility, and deny them 
a geographic haven from which to plot murder.
    Last month, thanks to the bipartisan support and political 
courage of Congress, President Trump signed an omnibus spending 
bill that funds the government for the remainder of the fiscal 
year. This law, along with the 2-year budget agreement passed 
as part of February's Bipartisan Budget Act, finally freed us 
from the inefficient and damaging continuing resolution funding 
process, and is now providing the predictable and sufficient 
funding needed to continue implementing the 2018 National 
Defense Strategy.
    Our fiscal year 2019 budget requests the resources 
necessary to fulfill the Department's enduring mission to 
provide the combat-credible forces needed to deter war and, if 
deterrence fail, to win in the event of conflict. These forces 
reinforce America's traditional tools of diplomacy, ensuring 
that the President and our diplomats negotiate from a position 
of strength.
    To restore our Nation's competitive military edge, the 
fiscal year 2019 budget funds our National Defense Strategy's 
three overarching lines of effort: first, to build a more 
lethal force; second, to strengthen traditional alliances while 
building new partnerships; and third, to reform the 
Department's business practices for better performance and 
affordability.
    Our first line of effort is to build a more lethal force. 
All our Department's policies, expenditures, and training must 
contribute to the lethality of our military. We cannot expect 
success fighting tomorrow's conflicts with yesterday's 
thinking, yesterday's weapons, or yesterday's equipment. As 
President Washington said during his first State of the Union 
Address, ``To be prepared for war is one of the most effectual 
means of preserving peace.'' And today, ladies and gentlemen, 
our lethal military arm will enhance our diplomats' 
persuasiveness.
    The paradox of war is that an adversary will always move 
against any perceived weakness. So we cannot adopt a single 
preclusive form of warfare. We must be able to fight across the 
entire spectrum of combat. The Nation must field sufficient, 
capable forces to deter conflict. And if deterrence fails, we 
must win.
    Following this logic, we must maintain a credible nuclear 
deterrent so these weapons are never used, and a decisive 
conventional force that can also wage irregular warfare. 
Preserving the full range of our Nation's deterrent options 
requires the recapitalization of our Cold War legacy nuclear 
deterrent forces, as initiated during the previous 
administration. Modernizing the Nation's nuclear deterrent 
delivery systems, including our nuclear command and control, is 
the Department's top priority, and these programs are fully 
funded in the fiscal year 2019 budget.
    The fiscal year 2019 budget also funds enhancements to the 
U.S. missile defense capabilities to defend the homeland, our 
deployed forces, allies, and partners against an increasingly 
complex ballistic missile threat. In accordance with the soon-
to-be-released 2018 Missile Defense Review, this budget request 
continued robust support for missile defense capability and 
capacity to keep pace with the advancing threats.
    The proposed budget will modestly increase end strength of 
the Army, Navy, Air Force, and Marine Corps to restore 
readiness, adding 25,900 to the Active and Reserve Force. The 
budget will also continue to invest in the military's most 
important assets, its warfighters, with a 2.6 percent military 
pay increase.
    The 2019 budget continues increased procurement of 
preferred and advanced munitions, a necessity due to ongoing 
operations in the Middle East, and the need for war reserves.
    Ten combat ships and eight support ships are funded, 
arresting the downward trajectory of our Navy's size and 
lethality. We will continue production of 77 F-35 and 24 F-18 
aircraft, evaluating the performance of both to determine the 
most appropriate mix, moving forward.
    This budget request funds systems to enhance communications 
and resiliency in space, addressing overhead persistent 
infrared capabilities; positioning, navigation, and timing; 
plus space launch systems.
    Our 2018 National Defense Strategy also prioritizes 
investing in technological innovation to increase lethality. 
Cyber advanced computing, big-data analytics, artificial 
intelligence, autonomy, robotics, miniaturization, additive 
manufacturing, directed energy, and hypersonics are the very 
technologies that we need to fight and win wars of the future.
    Every investment in the strategy-driven fiscal year 2019 
budget is designed to contribute to the lethality of our 
military and ensuring that subsequent Secretaries of Defense 
inherit a military force that is fit for its time. Those 
seeking to threaten America's experiment in democracy should 
know if you challenge us, it will be your longest and worst 
day.
    Our 2018 National Defense Strategy's second line of effort 
is to strengthen traditional alliances, while building new 
partnerships. In the past, I had the privilege of fighting many 
times in defense of the United States, but I never fought in a 
solely American formation. It was always alongside foreign 
troops.
    Easier said than done. Winston Churchill noted that the 
only thing harder than fighting with allies is fighting without 
them. History proves that we are stronger when we stand united 
with others. And accordingly, our military will be designed, 
trained, and ready to fight alongside allies.
    Working by, with, and through allies and partners who carry 
their fair share remains a source of strength of the United 
States. Since the costly victory in World War II, Americans 
have carried a disproportionate share of the global defense 
burden, while others recovered. Today the growing economic 
strength of allies and partners has enabled them to step up, as 
demonstrated by the 74 nations and international organizations 
participating in the Defeat ISIS campaign, and again in the 41 
nations standing shoulder-to-shoulder in NATO's [North Atlantic 
Treaty Organization's] Resolute Support mission in Afghanistan.
    To date, 15 NATO allies are also increasing their defense 
budget as a share of the gross domestic product, giving 
credence to the value of democracies standing together. 
Further, our Pacific partners are strengthening their defenses.
    Our third line of effort is the urgent reform of the 
Department's business practices to provide both solvency and 
security. We will continue to establish a culture of 
performance where results and accountability matter on every 
expenditure to gain full benefit from every single taxpayer 
dollar spent on defense.
    We are committed to exercising the utmost degree of 
financial stewardship and budget discipline within the 
Department. In this regard, this year we will deliver our 
Department's first full financial audit in history. We will 
find the problems and take swift action to correct our 
deficiencies, thereby earning the trust of Congress and the 
American people.
    I am confident we have the right leaders in place to make 
meaningful reform a reality: Pat Shanahan, as Deputy Secretary 
of Defense; Jay Gibson, as Chief Management Officer; Ellen 
Lord, as our Under Secretary of Defense for Acquisition and 
Sustainment; Michael Griffin, as Under Secretary of Defense for 
Research and Engineering; Bob Daigle, as Director of Cost 
Assessment and Program Evaluation; and David Norquist, as the 
Department's Comptroller/Chief Financial Officer. Each brings 
the intellect and the energy and the experience required to 
implement and sustain meaningful reform, ensuring the 
Department provides performance and affordability for the 
American taxpayer.
    The Department is transitioning to a culture of performance 
and affordability that operates at the speed of relevance. We 
will prioritize speed of delivery, continuous adaptation, and 
frequent modular upgrades. With your continued critical 
support, we will shed outdated management and acquisition 
processes, while adopting American industry's best practices. 
Our management structure and processes are not engraved in 
stone, they are a means to an end. If current structures 
inhibit our pursuit of lethality, I have directed service 
secretaries and agency heads to consolidate, eliminate, or 
restructure to achieve their mission.
    The 2018 National Defense Strategy three primary lines of 
effort--building a more lethal force, strengthening our 
traditional alliances and building new partnerships, and 
reforming the Department's business practices for performance 
and affordability--will restore our competitive military 
advantage, ensuring we are prepared to fight across the full 
spectrum of combat, now and into the future.
    I want to thank this committee for your strong spirit of 
bipartisan collaboration. While our trajectory is going in the 
right direction, our work has just begun. This is a year of 
opportunity and a chance to continue to work together, building 
on a strong start as we turn the 2018 National Defense Strategy 
into action.
    The points I need to emphasize in today's hearing is that 
this budget, which is designed to execute the National Defense 
Strategy, is building a more lethal force by restoring current 
and future readiness, modernizing our nuclear deterrent forces 
and their command and control systems, building for the future 
by improving our military's technological competitive edge, and 
reforming the Department's business processes to establish a 
culture of performance and affordability to ensure security and 
solvency. This strategy is the guidepost for all our actions, 
including this year's strategy-driven budget request, driving 
meaningful reform to establish an enduring culture of 
performance, affordability, and agility.
    I cannot appear before you without expressing my gratitude 
to the men and women of the Department of Defense. They are the 
ones that must ultimately turn the National Defense Strategy 
into action. Every day more than 2 million service members and 
nearly 1 million civilians do their duty, honoring previous 
generations of veterans and civil servants who have sacrificed 
for their country. It is my privilege to serve alongside them, 
and I thank them for their tireless efforts and unyielding 
standards in defense of our Nation.
    [The prepared statement of Secretary Mattis can be found in 
the Appendix on page 86.]
    Secretary Mattis. General Dunford is prepared to discuss 
the military dimensions of our budget request.
    The Chairman. General Dunford.

STATEMENT OF GEN JOSEPH F. DUNFORD, JR., USMC, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Dunford. Chairman Thornberry, Ranking Member Smith, 
distinguished members of the committee, thank you for the 
opportunity to join Secretary Mattis and Under Secretary 
Norquist here today. It is an honor to represent your men and 
women in uniform. And while we all recognize the challenges 
that the chairman outlined and the ranking member outlined in 
their opening remarks, I want to begin by assuring you that the 
U.S. military has a competitive advantage over any potential 
adversary today. I am confident we can defend the homeland, 
meet our alliance commitments, and prevail in any conflict.
    But as I testified last summer, after years of sustained 
operational commitments, budgetary instability, and advances by 
our adversaries, our competitive advantage has eroded, and our 
readiness has been degraded. Driven by the National Defense 
Strategy that the Secretary outlined, and building on the 
fiscal year 2017 and 2018 appropriations, the fiscal year 2019 
budget submission supports rebuilding the lethal and ready 
joint force that the Nation needs.
    Our defense strategy recognizes the central challenge to 
U.S. prosperity and security is the re-emergence of long-term 
strategic competition by revisionist powers. With Russia and 
China as the priority, we also have to meet the challenges of 
North Korea, Iran, and violent extremist organizations.
    China and Russia continue to invest across the full range 
of nuclear, cyber, space, and conventional capabilities. Both 
states are focused on limiting our ability to project power and 
undermine the credibility of our alliances. They are also 
increasingly adept at advancing their interests through 
coercive, competitive activity below the threshold of armed 
conflict.
    North Korea has been on a relentless pursuit to develop 
their nuclear and missile capability. They have been clear that 
these capabilities are intended to threaten the United States 
and our allies in the region.
    Iran continues to spread malign influence and create 
instability across the Middle East. And while we have made a 
great deal of progress over the past year, we are still 
grappling with the challenges of violent extremism, including 
ISIS, al-Qaida, and associated movements.
    Defending our homeland, our allies, and advancing our 
interests in the context of these and many other challenges 
requires us to maintain a balanced inventory of ready, lethal, 
and flexible forces that are relevant across the range of 
military operations. Fortunately, with your support, we have 
begun to arrest the erosion of our competitive advantage, and 
we are on the path to developing the force we need to meet our 
current and future challenges.
    This year's budget builds on the readiness recovery that we 
started in 2017, and reinforces our effort to develop the 
capabilities we need, both today and tomorrow.
    In requesting your support for this year's budget 
submission, I, and all the senior leaders in the Department, 
are making a commitment to you that we will make every dollar 
count. We will fully support the auditing initiative led by 
Secretary Norquist, and we will maintain an ongoing dialogue 
with you on our progress toward addressing our current 
readiness challenges in building the capabilities we will need 
tomorrow.
    To restore our competitive advantage and assure our men and 
women never find themselves in a fair fight, the U.S. military 
requires sustained, sufficient, and predictable funding. The 
funding in this budget is sufficient. I look forward to working 
with Congress to make it sustained and predictable.
    Thank you again for your support and the opportunity to 
appear before you today.
    [The prepared statement of General Dunford can be found in 
the Appendix on page 110.]
    The Chairman. Mr. Norquist, my understanding is you did not 
have an oral statement. Is that correct?
    Mr. Norquist. That is correct, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Secretary, a lot of members want to ask questions. Let 
me just pose one question for you. I made reference to the 
study that came out this weekend that showed a 40 percent 
increase in aviation mishaps since the Budget Control Act took 
effect. And yet, over the past 3 weeks there have been some 
criticism about the amount in the omnibus funding bill, which 
Congress passed and the President signed.
    I think it is important for this committee and for the 
country to hear from you about the significance of the funding 
bill that was passed and the 2-year agreement that most of us 
voted for in February to raise the Budget Control Act. How does 
that affect the men and women who serve our Nation, and our 
national security?
    Secretary Mattis. Chairman, thank you. I believe that this 
committee is probably keenly aware of the readiness challenges 
we have faced. And for--ever since I got into this job, you 
have been part of the solution. All of you have been part of 
the solution.
    Right now we cannot repair our way out of the situation we 
are in. We are actually going to have to buy, in some cases, 
the capabilities that we have simply worn out and had to set 
aside that can't even be repaired, whether it be aircraft or 
squadrons do not have enough; or it be ships that cannot go 
back to sea on time because when we open them up, long overdue 
for their maintenance period, we find things wrong inside that 
lengthen their time in the shipyard.
    When you put all this together, this is why you can have 
young officers getting promoted to major, for example, that 
have not had the same flight hours that you have expected 
during your tenure on this committee, that a lieutenant or 
captain would have had. They have not had the opportunity 
because we have not funded for it, the aircraft are not 
available, the spare parts and the maintainers have not been 
there.
    This is not pointing a finger at anyone in particular; it 
is where we are at, and we deal with it. I will let the 
historians deal with how did we get here. But with your help, 
we are now going to be able to come out from underneath this 
and put our readiness back to where you expect it to be when 
you put out billions of taxpayer dollars for various parts of 
the military, yet when we put it all together, due to the 
continuing resolutions, it did not have the kind of budget 
support it needed for a balanced force.
    The bottom line is we can spend every dollar. The audit is 
going to find problems, Chairman, and we will correct those 
problems. But we will be working with you, and we are keenly 
aware that we have got to deliver a more ready force, 
objectively, quantitatively, a more ready force that we can lay 
out to you. It is absolutely necessary, what you have given us. 
Now it is up to us to spend every dollar where you expect it to 
be spent.
    The Chairman. General Dunford, do you want to add anything 
to the effects of this budget agreement?
    General Dunford. The only thing I would say, Chairman 
Thornberry, is it is an agreement that allows us to balance 
both the needs of today and tomorrow.
    And to emphasize the Secretary's point, I think we used to 
look at operations and maintenance money as associated with 
readiness, and then modernization money as associated with the 
future. And to the Secretary's point, I really do believe today 
there is a distinction without a difference when you talk about 
readiness and modernization. We actually have to modernize the 
force in order for us to be ready against the challenges that 
are outlined in the National Defense Strategy.
    And I think, as a result of the 15 years of erosion, I 
don't think we can collectively think about these as discreet 
tasks. In other words, today is tomorrow, and the investments 
that we make in maintaining a competitive advantage in the 
context of the National Defense Strategy are the same ones we 
need to make sure our squadrons, our battalions, our brigades 
are up and running today.
    The Chairman. Thank you.
    Ranking Member.
    Mr. Smith. Thank you, Mr. Chairman.
    And I--on the budget, just out of curiosity, I wonder what 
your response is. For fiscal year 2019, the agreement that we 
reached that the chairman just alluded to, I believe had a--if 
you count the DOE [Department of Energy] portion of what we do 
in this committee--$647 billion. That is not counting OCO 
[overseas contingency operations] in there, and its $716 
billion.
    The budget cap number for 2020 is, I believe, $567 billion. 
So it would be, gosh, about an $80 billion cut in what we did 
in fiscal year 2019. Are you planning on having to absorb that 
cut, or are you hoping that there will be some way to avoid the 
Budget Control Act come 2020 and 2021?
    Secretary Mattis. Sir, we will lay out the requirement for 
2020 and 2021. However, our internal reforms, we are looking to 
accrue savings there.
    At the same time, we are going to have to have a budget fit 
for its time, and I can't tell you what the threat specifically 
will be. I can tell you we are trying to put ourselves in a 
position to have a shock absorber, where we can take those 
threats on board, maintain budget predictability that includes 
requests from us.
    But for right now, I would just suggest that, in light of 
the percent of the GDP [gross domestic product] we are putting 
out for military security, for defense, America can afford 
survival, and our job is to make certain what we bring to you 
is only what is required. And that is--I don't want to lock 
myself into the future, since I don't have----
    Mr. Smith. I am sorry, but if I may interpret that, 
basically what you are saying is you believe that if we go back 
to the budget caps in 2020 and 2021, we will be putting the 
country at risk, and you do not accept that number, and you are 
not planning on that number.
    Secretary Mattis. Sir, I owe you my best advice----
    Mr. Smith. Yes. No, I just want your honest opinion, so----
    Secretary Mattis. Right. I mean I would love to see the 
budget go down. In the world that we are looking at out there, 
I don't think that is going to be the case.
    Mr. Smith. Right. Well, you don't think that that would put 
us in a position to provide for the national security, if the 
budget went back to the cap numbers in fiscal year 2020 and 
2021.
    Secretary Mattis. I do not, sir.
    Mr. Smith. Okay, that--and the problem with that, of 
course, is the debt and deficit that I talked about. And I 
would just say, from my colleagues, that, you know, whatever 
disagreements we may have on exactly what the number for the 
defense budget should be, we are headed towards an enormous 
problem, unless we can continue to borrow north of $1 trillion 
every year, basically forever.
    So there are some big-picture budget things that we need to 
deal with, even if we disagree on the exact number for the 
defense budget, going forward. It is going to create--we are 
going to be right back in the uncertainty about a year from now 
if we don't come up with some comprehensive approach to our 
budget challenge.
    Last thing I will say is, you know, I think, given the 
budget that we face, we have to try to find ways to save money 
as much as possible. And we have had this discussion before. I 
just want to put it on the record. I don't think we need to 
spend $1.2 trillion on modernizing our nuclear weapons. We 
certainly need to modernize them.
    But again, I will emphasize--I have said this before in 
hearings--China has 275 nuclear weapons, that is it. We have 
15, 20 times as many. They have set up a deterrence, a very, 
very credible deterrence, because a lot of people don't know, 
but nuclear weapons these days are, I think, roughly 1,000 
times more powerful than the one that dropped on Hiroshima.
    We ought to be able to come up with a nuclear deterrence 
strategy that costs us a lot less money. And also, if there are 
fewer nuclear weapons out there, not just on our side, granted, 
but on all sides, there is less risk of stumbling into a 
nuclear war.
    So I am deeply concerned about the nuclear modification 
plan, both in terms of what it really does for our national 
security, the risks it places for a nuclear conflict, and also 
just for the budget, because I am--I will say this. I am 100 
percent with the chairman on the readiness crisis and the way 
you described it. We are not providing the equipment or the 
training for our troops that we should right now to make sure 
that they are ready. I want to find money wherever I can to 
make sure that we are. And that is one big area that I am going 
to be looking at.
    If it is okay, I will just--you know, you can send me your 
comments for the record. I want to let other people get in, but 
I just wanted to put that on the record.
    I yield back.
    The Chairman. As all members were notified, we are going to 
pick up the questioning today where we left off when the 
Secretary was with us in February. And so, Mr. Lamborn is 
recognized.
    Mr. Lamborn. Thank you, Mr. Chairman. And I want to thank 
you both for your service to our country.
    So for either or both of you, everyone knows that Russia is 
in violation of the INF [Intermediate-Range Nuclear Forces] 
Treaty. Do you expect the Russians to return any time soon to 
full and verifiable compliance with that treaty?
    Secretary Mattis. Right now, Congressman, we have very 
modest expectations that they would return to compliance as a 
result. In the Nuclear Posture Review we are looking for a way, 
at the lowest possible cost, to checkmate them and make it in 
their best interest to return to compliance.
    Mr. Lamborn. General Dunford, do you have anything to add 
to that?
    General Dunford. All I would say, Congressman, is that one 
of the things we are doing in this budget that we have 
submitted is there is research and development for non-
compliant weapons that is allowed by the treaty, and that is in 
the budget for fiscal year 2019. So we are not only looking for 
operational concepts and ways to deal with the Russian 
violation, but we are also at least posturing ourselves to 
develop weapons, should they be required.
    Mr. Lamborn. And I think we should stress the point that, 
even as we stay in the treaty--although I am skeptical that 
they are going to come back into compliance, and we are kind of 
unilaterally tying our hands behind our back--we are 
legitimately allowed to do research for non-compliant systems. 
Is that not correct?
    Secretary Mattis. That is correct, and we are doing that. 
It is in the budget, Congressman. We--as we modernize this 
nuclear deterrent, our effort will also be matched at State 
Department by movement on arms control and non-proliferation. 
There are two thrusts to our nuclear strategy.
    And so, as a result, we have got to do something that would 
make it in Russia's best interest to return to compliance, and 
that is why those funds have been requested.
    Mr. Lamborn. Well, I am glad they are being requested. And 
how important is it to have additional options in our nuclear 
stockpile to address possible threats in the future?
    Secretary Mattis. In order to keep a deterrent fit for its 
time, it has got to be one that adjusts to any changes that we 
see an adversary or potential adversary making. And in this 
case you will notice that there are several adaptations. One of 
them is to return possibly the nuclear cruise missiles to the 
Navy ships. We had them there before. A second one is to put a 
small number of low-yield weapons onboard Navy submarines, 
ballistic missile submarines. This is because we have 
uncovered--and Russia has been rather out front with the idea 
that they could escalate to de-escalate.
    What that means is you use a low-yield nuclear weapon in a 
conventional war to compel surrender, basically. And our point 
is to say you can't do that, we are going to have a low-yield 
weapon, we are not confronted only by using a high yield, which 
they believe we would not do. In order to make certain that the 
deterrent works, they must know that we don't have a choice 
only between surrender or suicide. So that is why we are doing 
these kind of adaptations to stay fit for our time.
    Mr. Lamborn. I am really glad to hear that because, as we 
go into the budget, some folks may argue that having additional 
options is destabilizing. We all want as much stability as 
possible when it comes to these powerful weapons.
    So it is your belief that it is stabilizing to have more 
options. Is that not correct?
    Secretary Mattis. The entire point of that nuclear 
modernization is to maintain a nuclear deterrent that 
stabilizes and deters any use of the weapon. Then that is why 
we have looked at the research and development as authorized 
under the treaty, for one. It is why we are looking at the low-
yield weapon, as well. It actually raises the deterrent effect 
of what we have, and actually reduces the chance of nuclear 
war.
    Mr. Lamborn. Thank you so much. I appreciate what you do 
for our country.
    Mr. Chairman, I yield back.
    The Chairman. And I appreciate the gentleman keeping all 
questions and answers within 5 minutes. Let me encourage 
everybody to do that, so--because--so we can get to as many 
people as possible.
    Mr. Courtney is recognized for 5 minutes.
    Mr. Courtney. Thank you, Mr. Chairman, and thank you to 
both witnesses.
    I appreciate the remarks regarding passage of the omnibus 
on March 21st. Again, Secretary Mattis, you noted the fact that 
it was a bipartisan effort. I think it is important to note 
that, not only was it bipartisan, but neither caucus by itself 
was able to deliver the votes to actually pass it by itself. So 
it truly took a coalition of people who, again, I think have 
heeded your repeated testimony over the last 2 or 3 years about 
the harm that the sequestration caps were causing, in terms of 
readiness and other issues.
    So again, you were a big part of the external effort to get 
us to that point and, obviously, to create a 2-year horizon 
with the bipartisan budget agreement.
    Secretary Mattis, on page 3 of your testimony it states 
that the 2018 National Defense Strategy provides clear 
strategic direction for America's military to reclaim an era of 
strategic purpose, which is, I think, a very, you know--has a, 
you know, high aspirational goal for our country, to get sort 
of a clear picture that budgets are tied to a stable strategy.
    Unfortunately, you know, just the events of the last 2 
weeks, you know, we have comments coming out of the White House 
that--regarding Syria, which I think really are sort of 
disconnected to that goal. On March 28 the President was giving 
a speech on infrastructure where he--again, without any 
prompting--talked about wanting to leave Syria ``very soon.'' 
Again, when the Pentagon was asked about that, they referred 
the media to the White House to get an explanation.
    On April 3rd, at a joint appearance with the presidents of 
Estonia, Latvia, and Lithuania, again he doubled down, saying 
that they want to get out, that the U.S. wants to get out. On 
the 4th, said it would be within a few months, and then on 
April 7th we had, obviously, the chemical attack, which, again, 
resulted in a gyration of comments coming out of the White 
House, talking about missile attacks.
    And then, yesterday morning, Russia vows to shoot down any 
and all missiles fired at Syria. ``Get ready, Russia, because 
they will be coming nice and new and smart.''
    Again, in terms of, you know, trying to align those 
messages with a clear, strategic direction for our country, I 
am not asking you to answer any questions about operational 
decisions that you are considering right now, but what is the 
policy of the Department of Defense regarding--and strategy 
regarding the Assad regime, its future, and the Syrian civil 
war? Or is there a strategy?
    Secretary Mattis. Yes, sir. Well--and thank you for your 
comments about my role in the bipartisan omnibus, sir. But I 
would tell you that without this committee's bipartisanship 
that you have right in this room, I think my comments would 
have been whistling in the dark. I think it was the example you 
set. On Syria, sir--both the last administration and this one 
made very clear that our role in Syria is the defeat of ISIS. 
We are not going to engage in the civil war, itself.
    Now, you can look back to a year ago, when we did fire 
missiles into Syria, unrelated to ISIS. And that was, of 
course, the use of chemical weapons. And some things are simply 
inexcusable, beyond the pale, and in the worst interest of not 
just the Chemical Weapons Convention, but of civilization 
itself.
    And so the recognition of that means at times you are going 
to see contrary impulses. You saw President Obama try to deal 
with those chemical weapons when he was in, and enlisting the 
Russians, who now it shows were complicit in Syria retaining 
those weapons, Assad retaining them. And the only reason Assad 
is still in power is because of the Russians' regrettable 
vetoes in the U.N. [United Nations), and the Russian and 
Iranian military.
    So how do we deal with this very complex situation? First 
of all, we are committed to ending that war through the Geneva 
process and a U.N.-orchestrated effort. It has been unfulfilled 
because, again, Russia has continually blocked the efforts. But 
that doesn't mean we give up. We work with the international 
community, the United Nations, to get the Geneva process 
underway, and make certain that we don't allow this war to go 
on.
    I have seen refugees from Asia to Europe, Kosovo to Africa. 
I have never seen refugees as traumatized as coming out of 
Syria. It has got to end, and our strategy remains the same as 
a year ago. It is to drive this to a U.N.-brokered peace, but 
at the same time keep our foot on the neck of ISIS until we 
suffocate it.
    The Chairman. I thank the gentleman.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman and Secretary Mattis, 
General Dunford, Mr. Norquist. Thanks so much for joining us, 
and thanks for your service.
    Secretary Mattis, I want to begin by going to your words in 
your statement when you talked about the downward trajectory of 
our Navy inventory and of Navy lethality. In response to that 
last year, this committee authorized $26.2 billion and 13 
warships. I think many of us were bitterly disappointed when 
the appropriators cut that number to $23.7 billion and 10 
warships.
    And I know that our effort now this year is to be to 
continue the path of rebuilding the readiness and capability 
within our Navy. And obviously, the Navy-Marine Corps team 
needs that on the mission, going forward.
    In your testimony you state, ``The fleet will continue to 
grow to meet capabilities needed in the future and maintain an 
industrial base healthy enough to adapt and evolve in a dynamic 
environment.''
    I am still concerned, though. As you saw last year, we 
authorized $26 billion, essentially; appropriated $24 billion, 
essentially. This year the fiscal year 2019 request was for $21 
billion for shipbuilding. And I expected more because we had 
lifted the caps last year. So I thought there may be, as you 
talked about, a response to that downward trajectory.
    Mr. Secretary, let me ask this. If, given the resources, 
does our military have the need for additional submarines? Do 
we have a more efficient and effective way to purchase aircraft 
carriers? And could we build amphibious ships for our Marines 
on a more cost-effective timeline?
    Secretary Mattis. We--sir, we always need more submarines, 
we always need more ships. And in a perfect world, I would 
have--I would tell you right now that I would have a 350-ship 
Navy. But I have to deal with where the ball lies, not where I 
want it to be.
    I think that, as you looked at the tradeoffs and the 
balance as we tried to go forward with current capability, with 
the future capability, with the growing challenges in space and 
cyberspace that have got to be accommodated, we probably did 
very well on shipbuilding.
    Now, can we get more affordable aircraft carriers? We not 
only can, we will. You will not see another one that goes 
through what you all experienced as you went down to Norfolk 
and saw that beautiful ship. But it is too late, it is over 
budget, and there are ways to prevent that in the future.
    So we are going to make better use of the dollars, and make 
a more affordable Navy. There are some strategic decisions to 
be made about how we do that to include what we do in 
cyberspace and space so each ship is more capable. But also, I 
would just tell you that this is part of an integrated force, 
and nobody can integrate their forces in the world better than 
we can right now.
    Mr. Wittman. Very good. Thank you, Mr. Secretary. I want to 
talk a little bit about the Ready Reserve Force.
    It is projected that our Ready Reserve Force would carry 
over 90 percent of readiness lift, if called upon. And our 
Ready Reserve Force today, 46 ships averages 43 years old. In 
fact, we maintain some of the only steam plants left in the 
world onboard ships. They are essentially floating Smithsonian 
Institute displays.
    Some have speculated that, in a conflict, the limiting 
factors are going to be sealift. General Dunford, I know you 
had talked a little bit about that, about where we are with 
that. What steps is the Department pursuing to address this--
what I believe is a strategic deficiency?
    Secretary Mattis. I want to take that for the record, sir. 
I have met with the commander of Military Sealift Command.
    It--there is a way to make some of the ships more capable 
right now: simply modernize them at relatively cheap price. And 
we are also going to have to buy certain types of ships in the 
future. I believe that, right now, we have got a pretty good 
plan for it, the prioritization of it.
    And what does the Army really need to bring? You know, the 
Army is trying to adapt, as well, and that has significant 
impact on what is the requirement. And I want to make certain I 
get the requirement right, so I don't come in and tell you that 
I built something I didn't need, and 5 years from now I need to 
beach it.
    I will get back to you with something on that, sir.
    [The information referred to was not available at the time 
of printing.]
    Mr. Wittman. Very good. Thanks, Secretary Mattis.
    Mr. Chairman, I yield back.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. And welcome to you 
both, I appreciate your being here before us.
    I too would like to focus on Syria. The chemical weapons 
attack against innocent civilians in Syria over the weekend is 
but the latest tragic atrocity in that country.
    Secretary Mattis, you referenced a refugee crisis. Human 
Rights Watch has reported at least 86 verified chemical weapons 
attacks there. So we know what a terrible situation exists 
there.
    But in response to the most recent attack, the President 
has signaled that the administration is reviewing possible 
military action. There are compelling uncertainties surrounding 
renewed strikes in Syria. Just to name a few: how these actions 
fit into a broader Syria strategy, which you have tried to 
address in some form; the nature of the support from the 
international partners who share our condemnation of Assad's 
atrocities; and how any renewed action in Syria, particularly 
should it escalate into a broader conflict, would impact our 
ability to engage in other areas of concern around the world, 
not the least of which also--what it might require of us in 
that part of the world, as well, in Syria.
    So these concerns are not de minimis or passing. And I hope 
that you would agree that it is clearly time for Congress to 
review existing authorizations for use of military force, and 
to engage in the considered debate these times require. But as 
we speak, the administration is reviewing possible military 
courses of action. So I appreciate the timing of your 
appearance here today.
    So, as you are considering possible steps forward, military 
actions you might take, what do you hope to achieve by any 
military action that the administration might eventually decide 
to take?
    Secretary Mattis. Congresswoman, I don't want to get--as 
you will understand--into the details of a potential decision 
by the Commander in Chief, due to this latest attack, which is 
absolutely inexcusable. There have been a number of these 
attacks. In many cases, you know, we don't have troops, we are 
not engaged on--in the ground--on the ground there, so I cannot 
tell you that we had evidence, even though we certainly had a 
lot of media and social media indicators that either chlorine 
or sarin were used.
    As far as our current situation, if, like last time, we 
decide we have to take military action in regard to this 
chemical weapons attack, then like last time we will be 
reporting to Congress, just as we did when we fired a little 
over a year ago, slightly over a year ago.
    As far as the counter-violent extremist, counter-ISIS----
    Ms. Tsongas. So let me go back to this. So before taking 
any action, you would report to Congress as to the nature of 
what that action might be?
    Secretary Mattis. I will speak only to the fact that we 
will report to Congress, we will keep open lines of 
communication. There will be notification to leadership, of 
course, prior to the attack. But we will give a full report to 
the Congress itself, probably as rapidly as possible.
    On the counter-violent----
    Ms. Tsongas. And so I--let's just stick with this.
    Secretary Mattis. Okay.
    Ms. Tsongas. I would also then like to know, would you take 
action absent support from our allies? I know that the 
administration is engaged in talks with France and the U.K. 
[United Kingdom]. Would you seek to have them involved in any 
action we might take?
    Secretary Mattis. As you know, ma'am, or Congresswoman, 
our----
    Ms. Tsongas. Would that be a pre-condition, I should say.
    Secretary Mattis. Our strategy is to engage by, with, and 
through allies in all things we do. I do not want to discuss 
the current situation, because I owe confidentiality to our 
allies, due to the sensitive nature of military operations and 
the need to keep those secret. But I think you will find 
nothing inconsistent with your view in what we are doing, 
without going into any details.
    On the----
    Ms. Tsongas. And what worries you most about any military 
action we might take, given the highly complex landscape in 
Syria, the many, many actors that are engaged there?
    Secretary Mattis. There is a tactical concern, ma'am, that 
innocent people--we don't add any civilian deaths, and do 
everything humanly possible to avoid that. We are trying to 
stop the murder of innocent people.
    But on a strategic level, it is how do we keep this from 
escalating out of control, if you get my drift on that.
    Ms. Tsongas. I get your drift. Thank you.
    I yield back.
    Secretary Mattis. Okay.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. Secretary Mattis, 
General Dunford, thank you so much for your years of dedicated 
service to the United States.
    Secretary Mattis, you mentioned that--in previous testimony 
today that we don't have confirmation yet whether or not there 
was a chemical attack. Don't we reasonably have enough evidence 
to--certainly to believe that there was an attack, and the fact 
that they didn't--the Russians and the Syrian Assad government 
did not grant immediate access, I believe, that was requested? 
Could you speak to that?
    Secretary Mattis. I can, Congressman. I believe there was a 
chemical attack, and we are looking for the actual evidence. 
The OPCW--that is the organization for the Chemical Weapons 
Convention--we are trying to get those inspectors in, probably 
within the week.
    You know the challenges we face, where Russia has six times 
in the U.N. rejected and made certain that we could not get 
investigators in. We will not know from this investigating team 
that goes in, if we get them in, if the regime will let them 
in, we will not know who did it. They can only say that they 
found evidence or did not. And as each day goes by, as you 
know, it is a non-persistent gas, so it becomes more and more 
difficult to confirm it.
    So that is where we are at right now, sir.
    Mr. Coffman. Okay, thank you. Just a question on the light 
attack aircraft.
    Secretary Mattis and General Dunford, the Air Force is 
currently testing light attack--a light attack aircraft that 
may be acquired by the Department for use as a cost-effective 
way to provide close air support of counterinsurgency, armed 
reconnaissance, and other combat operations in a more--when in 
a more permissive threat environment.
    The--I think an F-22 was recently used to attack a Taliban 
drug lab. I think that is $70,000 an hour, in terms of the 
operational cost. And a light attack aircraft, I think, is 
approximately about $1,000, in terms of its operational cost an 
hour.
    I wonder if you could speak to having them in our 
inventory, as we are, again, in a low-threat environment, where 
we don't have air-to-air threat, where we have a limited 
ground-to-air threat. And the--and also be able to sell those, 
in terms of foreign military sales, to our allies that can't 
afford an F-35 aircraft, and that--to foster a better military-
to-military relationship with many of our allies. Could you 
speak to that, please?
    Secretary Mattis. Yes, sir, Congressman. You hit on all the 
right points, sir. We are looking for affordability. And where 
we don't need an aircraft that costs 17-, 20-, $70,000 per 
flight hour, we need to look at it as a way to deliver 
readiness and combat capability on an affordable basis. And we 
are looking at it.
    As you know, the Chief of Staff Air Force personally flew 
in one to check it out. And I think you hit on all the right 
points there about why we are looking at this, sir.
    Mr. Coffman. Okay. General Dunford.
    General Dunford. Congressman, the role I play is to 
identify the capability that the force needs. What you have 
described is the capability that we need, and the Chief of 
Staff of the Air Force I know is committed to delivering that 
low-end capability at the most cost-effective way possible, and 
that is really why these trials are ongoing,
    So we support his attempt to get that capability at the 
best cost we can, meeting the criteria you outlined.
    Mr. Coffman. Right. Mr. Chairman, I yield back.
    The Chairman. Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman. Thank you both for 
your service.
    Mr. Secretary, approximately how many transgender troops 
are currently deployed?
    Secretary Mattis. I do not know, Congresswoman.
    Ms. Speier. Could you provide that to us, subsequently?
    Secretary Mattis. I think I can. I will give you the best 
data I can come up with on it, yes.
    [The information referred to was not available at the time 
of printing.]
    Ms. Speier. Do you believe that the currently serving 
transgender troops are weakening readiness or reducing 
lethality?
    Secretary Mattis. Congresswoman, on this one I submitted my 
recommendation and put it out publicly, my recommendation to 
the President. It is a highly charged issue from some people's 
perspective, and it is under litigation right now. So out of 
respect for the courts, I will just tell you the current policy 
stays in effect, the last administration's policy, as directed 
by the courts. And I have submitted to the President what I 
think is the best military advice.
    Ms. Speier. So, Mr. Secretary, I want to introduce you to 
Staff Sergeant Logan Ireland. He was a noncommissioned Officer 
of the Quarter when he was deployed to Afghanistan. He is also 
transgender. Do you believe that currently serving transgender 
troops like Staff Sergeant Ireland are a burden to our 
military?
    Secretary Mattis. Congresswoman, I think that, as we look 
at the enlistment standards, I gave a recommendation that 
troops, patriotic Americans who do not have gender dysphoria, 
should be allowed to serve. I do not--did not recommend that we 
change the clear standards that apply to all in that regard, or 
make a special group. And I would prefer to leave the courts to 
their action at this point, and then see where they stand at 
the end of it, and then look at what I have recommended to the 
President when I can answer you more fully.
    Ms. Speier. Well, Mr. Secretary, you rolled out this new 
policy, and now you are basically saying, ``I am not prepared 
to defend it.''
    Secretary Mattis. Oh, I am prepared to defend it, ma'am. 
But out of respect for the courts, I do not intrude into 
something that--it would be inappropriate for me to say 
something that would somehow impact in a court case that is 
going on. I think this is a rather standard situation, once the 
courts engage.
    Ms. Speier. Were there any nongovernmental individuals or 
organizations involved in the formulation of the 
recommendations by the DOD [Department of Defense] to the 
President?
    Secretary Mattis. It was the best military advice I could 
draw up from civilian overseers and military personnel, both 
officer and senior enlisted.
    Ms. Speier. Mr. Chairman, I would like to ask unanimous 
consent to enter into the record letters from medical groups 
refuting the conclusions of the DOD report on military service 
by transgender individuals in which they say no medically valid 
reasons exist to exclude.
    The Chairman. Without objection, whatever letters the 
gentlelady would like to enter into the record may be included.
    [The information referred to can be found in the Appendix 
beginning on page 125.]
    Ms. Speier. Thank you.
    Mr. Secretary, a Military Times article this week revealed 
that the Defense Manpower Data Center failed to report the 
number of combat troops deployed in Iraq, Syria, and 
Afghanistan last quarter. That website was also stripped of 
deployment data from previous quarters.
    I am very concerned about that. I think that there is no 
combat advantage to obfuscating the number of U.S. service 
members that were in these countries 3 months ago. And 
furthermore, the American public has a right to know.
    Do you intend to restore that information to the website?
    Secretary Mattis. I will look at it, Congresswoman. As you 
know, we keep the Congress fully informed, right down to every 
week we can update you on exactly the numbers in each case. And 
we do maintain some degree of confidentiality over the number 
of troops engaged against enemies in the field. So I will have 
to look at it. But we will not, of course, ever keep that--
those numbers away from Members of Congress for your oversight.
    Ms. Speier. Well, I know, but this has been an ongoing 
website that has provided this information to the public, and 
all of a sudden the last quarter it is not posted and they have 
sweeped away all the data for previous quarters.
    So it would suggest to, I think, the public and to Members 
of this Congress, that you are no longer going to make that 
information available. And I think the public has a right to 
know.
    Secretary Mattis. I see. When I come in, ma'am, I don't 
come in intending to hide things. But I would just ask what 
would you do if you thought the enemy could take advantage of 
that kind of data, seeing trends at certain times of the year, 
and what they can expect in the future.
    But I will certainly look at it. I share your conviction 
that the American people should know everything that doesn't 
give the enemy an advantage----
    Ms. Speier. Thank you. I yield back.
    The Chairman. Mrs. Hartzler.
    Mrs. Hartzler. Thank you very much, Mr. Chairman. And I 
want to certainly commend you and your leadership, all of you, 
to make sure that our force is ready, capable, and able, and 
deployable. And so I appreciate the policies that--and the 
positions that you are advancing.
    I would like to ask--bring up the topic of base security, 
as it relates to rogue and careless drones. What many people 
don't realize is that, under title 18, to interdict a drone, it 
is very--it is illegal to do that, because they are used as an 
aircraft or a protected computer.
    And in the NDAA [National Defense Authorization Act] of 
2017 and 2018, as you know, we did give DOD some new 
authorities to go after them, which I certainly applaud. But 
they are limited to certain areas like nuclear deterrence, 
missile defense, air defense, assistance in protecting the 
President and the Vice President.
    So I am wondering and I am concerned about other DOD 
facilities and, you know, specifically a couple of things in 
Missouri makes me think of Mobility Command, it makes me think 
of also training bases and the potential danger or threat with 
a rogue drone on those missions. So I was wondering how is the 
Department of Defense interpreting the authorities provided by 
the fiscal year 2018 NDAA, and should this authority be 
expanded to all DOD mission sets, or perhaps to other specific 
missions like mobility and training that aren't currently 
included?
    General Dunford. Congresswoman, I will start, and maybe the 
Secretary will add something.
    The Secretary, when the legislation was passed, brought 
together all the service chiefs and leadership to look at this 
issue, both from a material solution perspective, as well as 
from an authorities perspective. And he made it pretty clear 
that if we have a threat to our forces, to our bases, that we 
had the authorization--so we have interpreted it as we have the 
authorization to protect our people.
    There are still some gaps in our material solutions to be 
able to do that. I am satisfied that, particularly for our 
sensitive sites, we have addressed that. But we perhaps haven't 
produced the equipment in the volume that we would want to see 
to be able to protect all of our facilities, and so forth.
    But I have been in a room a couple of times with the 
Secretary, and I feel like our leadership has interpreted the 
law to mean that we can protect our bases and protect our 
people.
    Mrs. Hartzler. So you said there are some gaps, though? 
Would you like to see those addressed in the next NDAA?
    General Dunford. We are addressing now the material 
solution gaps. In other words, making sure we have the right 
amount of equipment out there in the hands of our people across 
all of our bases and stations.
    Mrs. Hartzler. That is great.
    Secretary Mattis. We also have authority gaps, though. 
Congresswoman, you are exactly right about the threat. We see 
what they are doing overseas, we know what is coming to a place 
near us, back here. We do need more authorities, and we will 
outline what those should look like, because you indicate that 
we can protect our nuclear sites. That is accurate. But we have 
a lot of other sensitive situations that are basically left 
outside the authority.
    So we owe to you what we think that authority should look 
like, and make our case.
    Mrs. Hartzler. Great. Thank you for that.
    And the National Defense Strategy--rightfully so--
highlighted the long-term strategic competition with China as 
one of the central challenges to national security. As you 
know, China is very focused, they have multiple lanes of 
effort, from espionage to the military effort to 
counterintelligence to propaganda arm, et cetera. And there are 
multiple lines of efforts in OSD [Office of the Secretary of 
Defense] policy, the Joint Staff, across services and the 
combatant commands that look at these issues.
    Who is the focal point for such coordination across policy, 
across the services, across the commands?
    Secretary Mattis. Inside DOD, it would be the Under 
Secretary of Defense for Policy. However, there is a broader 
issue here, a defend the Nation, a holistic, and that falls 
under Secretary Nielsen of Homeland Defense. And in that case, 
we have confronted a number of vulnerabilities that have not 
been fully addressed, and we are putting together the 
interagency effort to outline the holistic approach to that 
defense.
    Mrs. Hartzler. Very good. I know we only have 28 seconds, 
but China, as you know, is beyond just the Indo-Pacific in 
their influence and their goals. Their activities are present 
in Africa, Europe, Latin America, et cetera. What efforts are 
you aware of being taken by each of the combatant commands in 
the different AORs [areas of responsibility] to counter the 
China challenge?
    General Dunford. Congresswoman we have--in the time 
remaining--we have a global campaign plan for China. Each one 
of the combatant commanders addresses China in the context of 
that global command--global campaign plan.
    Admiral Harris, as the Pacific Command, is the coordinating 
authority for that global campaign plan. But each one of the 
combatant commanders has supporting plans in their respective 
areas of responsibility that address specifically Chinese 
activity and capability in their areas.
    Mrs. Hartzler. Could I have a copy of that, or maybe be 
briefed on that?
    General Dunford. I--we will make sure you get briefed on 
that, Congresswoman.
    Mrs. Hartzler. Thank you.
    The Chairman. Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman. I know that everyone 
on the panel today is very concerned about what happened in 
Niger with the four soldiers that were killed there. And what I 
want to ask you today are about the risks that we are accepting 
by responding to crises or incidents on the continent of 
Africa, and wondered if you could comment on those risks. And 
can we respond to multiple threats around the world, 
particularly when you look at Africa and how large that 
footprint is, under our current defense budget restraints that 
we have?
    Secretary Mattis. Representative, you hit on a key point 
for why our second line of effort--three lines of effort, the 
second one is building allies and partnerships. What we want to 
do is address those kinds of issues, whether it be in the 
Pacific or in Africa Command, in Europe, by, with, and through 
our allies.
    So when we go in--let's just take Africa for an example. I 
actually looked at how many troops we are going to invest 
against how many--in this case, African--troops are we going to 
then be training or bringing in to the fight. And it looks like 
an investment chart right out of corporate America: one 
American equals how many trained and ready troops who can 
defend their own country.
    So our goal is to turn this to the right people, that is 
the people who--whose country it is. And that is the way we go 
about it. We don't try to take on the full mission, we do a 
needs assessment of that specific country. In the case of the 
Sahel area--and you know Boko Haram and the threat that is 
there--in that case the French are leading the effort in--as 
the leading nation. And African nations are gathered around 
France, and we support France and the African nations.
    So you can see how we are doing this by, with, and through 
our allies, so we don't carry the burden.
    Mr. Veasey. When you--if we were to cut the State 
Department budget--and, of course, they work on things like 
governance that are, you know, very key, in my opinion, and in 
the opinion of many others, on making sure that these countries 
know how to govern themselves accordingly, so we don't have to 
spend as much militarily--if we cut back on those particular 
efforts, how much more money would we need to be able to 
invest, and how much more risk would we need to take on the 
continent of Africa under those sort of restraints?
    I would imagine you would need more U.S. military power to 
be able to address--again, just because of the expanse of the 
continent.
    General Dunford. Congressman, just to follow up on what the 
Secretary is saying--and I think this is where you were going 
with your question--you know, we have approximately 1,000 
forces in West Africa. The French have over 4,000, and we are 
working with some 20- to 30,000 partners on the ground. So the 
requirement is for somewhere north of 30,000 forces to actually 
do the job, and our investment is only 1,000.
    So if your question is what would it take if we were doing 
it by ourselves, you know, it would take on a large order of 
magnitude greater than what we are investing right now. That is 
what by, with, and through really means, is a small U.S. 
footprint leveraging local capability to actually do the work 
that needs to be done to address terrorism, extremism in the 
region.
    Secretary Mattis. Congressman, I worked very, very closely 
with my counterpart at State. It was Secretary Tillerson, as 
you know. I am now working with Secretary Sullivan, the Deputy 
Secretary, as nominee Pompeo goes through his hearing today.
    But I can assure you that, for example, when we have a 
small amount of development money given us through this 
committee, we meet with State, we align State and Defense 
development monies so there is an integrated effort. So 
everything we do is done to enable our diplomats to speak with 
more authority and to reinforce the foreign policy of the 
administration largely put together by State Department.
    So they have the lead, we reinforce, and it has been a good 
team, sir, all the way through.
    Mr. Veasey. For the continent, though, is the best strategy 
governance or military right now? Like, what would help those 
countries in Africa? Is it more of a governance issue?
    Secretary Mattis. Most of the challenges they face, 
Congressman, are not militarily solvable. It needs better 
governance. It needs diplomacy. It needs development. And we 
are working with State Department in support of those efforts.
    But it is--you are--I know what you are driving at, and I 
agree with you, that it is a diplomatically led effort.
    Mr. Veasey. All right, thank you.
    Mr. Chairman, I yield back.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. Gentlemen, good 
afternoon--good morning here.
    First question, General Mattis, Secretary Mattis, you have 
a joint program office with the Coast Guard and the Navy right 
now for icebreakers. There is no joint strategy on icebreakers. 
Coast Guard has their own Arctic strategy and the Navy has 
their own Arctic strategy, and I was wondering if it had 
entered your mind to combine those into a joint Arctic 
strategy.
    Secretary Mattis. We work, as you know, very closely. I 
don't hold a meeting with the chairman and the four-stars 
without the Commandant of the Coast Guard in the room. So we 
intend to stay collaborative. We have different authorities, 
different missions, but they need to be integrated in the 
Arctic.
    Certainly we have not prioritized the Arctic right now, due 
to the other situations from Korea and Syria, the situation 
vis-a-vis Russia, South China Sea. But----
    Mr. Hunter. Would Russia be a reason----
    Secretary Mattis [continuing]. I take no issue with----
    Mr. Hunter [continuing]. To increase--wouldn't Russia be--
--
    Secretary Mattis. Pardon?
    Mr. Hunter [continuing]. A reason to increase our presence 
in the Arctic?
    Secretary Mattis. I think what we increase there is what we 
would look at, what type of forces.
    Clearly, search and rescue in the Arctic is a high 
priority. Environmental protection is. Some of these things are 
not fit--are not best done by the U.S. military. But I would 
have no problem supporting Department of Homeland Security 
Coast Guard efforts in the Arctic. We work closely together on 
every other part, from the Caribbean to the Persian Gulf. So it 
is--I am sure it is an area we will work together.
    Mr. Hunter. Thank you. Last question. The funding request 
from everything for the MSP, the Ready Reserve Fleet, basically 
the logistics train that you would use to go to war, you didn't 
request full funding for the MSP ships. That is the Maritime 
Security Program they--you requested the old funding, which is 
over $3.5 million, versus $5 million a ship.
    General McDew is now working on, for the first time, ever, 
looking at if we take casualties with our ships, as they load 
our gear--and I remember when I deployed in 2004 we loaded a 
RORO [roll-on/roll-off] in San Diego with all of our gear, and 
then flew over to Kuwait, and fell in on our stuff. If you 
don't have the gear, you can't go to war. You might have the 
people there, and you might have the first stage, but you won't 
be able to continue that.
    Our Ready Reserve Fleet is falling apart, it is done. It is 
a steam-engine-powered fleet, which is ridiculous. The MSP is 
going to be underfunded now. You might see people dropping out 
of that. So what are your thoughts and your--the grand strategy 
of aligning the effectiveness and the killing end of the 
military with the guys that are going to make it work, which is 
being able to get the gear there to sustain a battle?
    Secretary Mattis. Right. Projecting power, Congressman, you 
are quite right, that is a key area of concern, and we are 
trying to prioritize inside many demands on the budget. But I 
have met with the Military Sealift Command commander, and we 
are going to come up with a way to get out of the situation we 
have inherited. It is going to have to be prioritized.
    I think that the mobility requirements study that comes in 
later this year--I would say probably by October, maybe 
November--is going to actually have a part of it that focuses 
right on what is the problem, not in general terms. What is the 
specific problem? What needs to be moved? What capability do we 
need? And how do we go forward?
    The problem has not been sufficiently defined yet. We see 
all the symptoms of the problem. We need to really get it right 
before we start spending, you know, hundreds of millions of 
dollars on this.
    Mr. Hunter. I can't even tell when my voice is good enough 
for both.
    North Korea boost phase shoot-down. The same system would 
work in Kuwait, shooting down boost phase out of Iran to 
Western Europe or to Southeast Europe. You would have the same 
system, roughly the same geography and trajectories. So just--
can you give us an update on how, instead of waiting until the 
missile is coming down out of space at us, we are shooting at 
it, how we are doing on shooting it as it is low and slow and 
going up into the air?
    Secretary Mattis. Congressman, we are looking at left of 
launch, prior to launch, and we are looking at boost phase. I 
would prefer to do that in private with you, give you that 
brief, because of the current nature of the threat.
    Mr. Hunter. Thank you, gentlemen.
    I yield back, Mr. Chairman.
    The Chairman. Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    Gentlemen, thank you so much for your service, and 
particularly in this very difficult period of time.
    In response to Ms. Tsongas's questions, you dealt with a 
lot of the issues of Syria. And I want to pick up one 
additional one: the horrific use of chemical weapons by the 
Assad regime has prompted the President to threaten military 
action.
    My question, Secretary Mattis, is very specific: What is 
the legal authority, the precise legal authority, of the United 
States Government to engage in military action in response to 
the chemical weapons use by the Assad regime?
    Secretary Mattis. I believe that authority is under article 
2. We have forces in the field, as you know, in Syria. And the 
use of chemical weapons in Syria is not something that we 
should assume that, well, because he didn't use them on us this 
time, he wouldn't use them on us next time.
    So for right now, I will have the lawyers get back to you 
with the broader issue. I am aware of where your question goes, 
sir, but I would just tell you that, you know, that we have got 
to look at the use of chemical weapons, whether it be in 
Salisbury, England, or in Syria, as something that is 
inexcusable and that has got to be addressed.
    And as Russia----
    Mr. Garamendi. So, if I might----
    Secretary Mattis [continuing]. Prevents the United Nations 
from dealing with it, we can sit acquiescent, or we can do 
something about it.
    Mr. Garamendi. So you do not believe you need further 
congressional authority to respond to the chemical weapons 
attack with military kinetic action?
    Secretary Mattis. Under article 2, sir, the President has 
the right to employ the military. There are war powers 
resolutions or other actions that could--or legislative actions 
that cause us to come to you, as you know, with reports. But at 
the same time, I think we have the authority to deal with this.
    Mr. Garamendi. Are you prepared to deliver to this 
committee the precise legal authority in writing that you are 
referring to?
    Secretary Mattis. Well, sir, again, protection of our 
forces, I don't think we have to wait until they are under 
chemical attack, when the weapons are used in the same theater 
we are operating in.
    Mr. Garamendi. I understand that. But I am awaiting a legal 
document from the Department of Defense specifying the exact 
authority and circumstances that cause you to use that 
protection of forces.
    Secretary Mattis. Yes, sir. I will provide it.
    [The information referred to was not available at the time 
of printing.]
    Mr. Garamendi. Thank you very much, I appreciate that. And 
I think it is necessary. Obviously, there would be a debate 
about this.
    The--in your testimony you indicated that there is some $12 
billion for missile defense, that that is an imminent threat to 
the United States. There is also, a week ago--actually, 2 weeks 
ago, from the Department of Homeland Security, an imminent 
threat from Russia hacking into critical infrastructure systems 
in the United States.
    What is the Department of Defense doing to defend against 
those kinds of attacks that could easily lead to a shutdown of 
the grid, or some other critical infrastructure, thereby 
bringing physical, as well as social and economic harm to the 
United States?
    Secretary Mattis. Sir, as you know, we have a fair amount 
of money that is given to our Cyber Command for cyberspace 
operations. And we have a number of mission teams. But these 
are primarily, Congressman, focused on our own defense of the 
Department of Defense and offense against an adversary.
    For the defend the Nation mission that comes under the 
Secretary of Homeland Security, Secretary Nielsen, we are in 
close contact with her. We have the only capability to try and 
defend, whether it be an electrical grid, a financial system, 
something like that.
    And I think that right now we need to get a lot stronger in 
the defense of our critical infrastructure, all aspects of it. 
And I realize that some of that could come under the Department 
of Defense, which is going to take congressional initiative and 
action in order to balance the constitutional safeguards for 
our citizens with the reality that we have got to be able to 
protect them.
    And this is an area that needs a lot of work, I will be the 
first to admit it.
    Mr. Garamendi. If I might just--in a hearing that Ms. 
Stefanik had yesterday it became very, very clear that the 
coordination between the Department of Homeland Security and 
Department of Defense is lacking. I appreciate your attention 
to it.
    Secretary Mattis. Yes, sir.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, I want to follow up on that a little bit. And I 
know, Secretary Mattis, in the National Defense Strategy you 
discussed the need to be strategically predictable, but 
operationally unpredictable. We are spending an increasing 
amount of time on gray zone conflicts.
    Obviously, if we have evidence that somebody used a 
chemical weapon, that is a line that we can see. We know we 
want a predictable response to that, so that that doesn't 
happen again. But with gray zone conflicts, that line sometimes 
doesn't seem to exist.
    And so, Chairman Dunford, as we talk about these gray 
zones, can you discuss the implications of the potential for 
future--proxy war might not be the right term, but certainly 
could work there. And is this going to be the way in the future 
that our adversaries challenge our resolve, as a country, both 
to operate on behalf of ourselves and our allies?
    General Dunford. Congressman, I think the answer to the end 
of the question is yes, it is what we see, particularly with 
nations that we have a competitive advantage in the 
conventional space. They realize they can't take us on 
conventionally, so they find another way.
    To put a finer point on gray zone, I would describe that as 
political influence, economic coercion, use of cyber, use of 
information operations, and then military posture. So there is 
a military dimension to it, but it is clearly a broader problem 
than just a military dimension.
    As we think about it in the military strategy, we think the 
competition that is taking place in that gray zone is really 
the competition for our allies and partners. So we believe that 
the critical thing that they are trying to do in the gray zone, 
in the military space, is undermine the credibility of our 
alliances and partnerships, which, as the Secretary outlined, 
is an important line of effort in the National Defense 
Strategy.
    So what is critical for us to do is overcome in information 
space, overcome in cyber capabilities, and then our military 
posture, the erosion of that relationship that we have with our 
allies. The broader government piece is, in fact what we are 
going to see, and that is going to require the State 
Department, the Treasury Department, the Defense Department all 
to come together to be competitive in what you described as the 
gray zone.
    And as I mentioned, it really does have a political and 
economic and military and an informational aspect.
    Mr. Scott. And so, if I could follow up, it is going to 
take an all-of-government approach on the homeland defense side 
of the gray zone conflicts. What authorities do you have to 
take offensive action in the gray zone?
    General Dunford. I think, Congressman, what you get at is a 
really important point, and that is that we have 
traditionally--and we do today--distinguished between peace and 
war. And so the activities and the authorities that we have in 
place on a day-to-day basis reflect the fact that we are at 
peace.
    And our adversaries don't actually have the same 
restraints. So what they are doing on a day-to-day basis looks 
more like moving towards war than being in peace. And so, from 
a cyber perspective and information operations perspective, we 
are reviewing, and we do review--we are reviewing that issue, 
and we do believe that we are limited in the activities that we 
can perform on a day-to-day basis, and the authorities that we 
have to allow us to be competitive.
    Mr. Scott. This is something that I know, as a Member of 
Congress, we are going to need help from people that understand 
these definitions and operations significantly better than I 
do, and I look forward to your help with the authorities and 
other things that you need to not only defend the homeland, but 
to take action against those who are taking these actions 
against us.
    General Mattis, as--I mentioned the strategic 
predictability and operational unpredictability, as outlined in 
the National Defense Strategy. Can you briefly describe what 
this means for troop rotations and overseas assignments and 
training?
    Secretary Mattis. I can, Congressman. What we will do is 
make certain our allies know that we are reliable and we can 
break through to them, we can get to them, and stand with them 
at the time of need. We will do it by making certain that 
keeping the maintenance of the equipment, the training of the 
troops, and the family--wear and tear on the families is all 
kept in balance.
    The way you do this is we ensure that preparation for great 
power competition drives us, not simply a rotation schedule 
that allows me to tell you 3 years from now which aircraft 
carrier will be where in the world. That is a great way to run 
a shipping line. It is no way to run a navy.
    So during the time when they would be authorized to deploy, 
directed to deploy, they may not deploy out of home waters. 
They may stay there, operating an aircraft carrier down off San 
Diego, operating with the Army at Fort Irwin, overhead cover, 
this sort of thing, as we keep our joint force ready.
    And then, when we send them out, it may be for a shorter 
deployment. It will be three carriers in the South China Sea 
today, and then 2 weeks from now there is only one there, and 
two of them are in the Indian Ocean. They will be home at the 
end of a 90-day deployment. They will not have spent 8 months 
at sea, and we are going to have a force more ready to surge 
and deal with the high-end warfare, as a result, without 
breaking the families, the maintenance cycles, or reducing--we 
will actually enhance the training time.
    Does that give you a----
    Mr. Scott. Yes, sir.
    Secretary Mattis [continuing]. Appreciation for it?
    Mr. Scott. Gentlemen, thank you for your service.
    The Chairman. Ms. Gabbard.
    Ms. Gabbard. Thank you. Thank you, gentlemen, for your 
service.
    You know, the President has indicated recently his 
intention to launch U.S. military attacks against Syria. 
Article 1 of the Constitution gives Congress the sole power to 
declare war. Congress has not done so against the Syrian 
Government.
    Section 3 of the War Powers Resolution requires the 
President to consult with Congress before introducing U.S. 
Armed Forces into situations of hostilities.
    Section 2 of the War Powers Resolution clarifies the 
constitutional powers of the President as Commander in Chief, 
and article 2, which you referenced, Secretary Mattis, to 
introduce forces into hostilities only pursuant to, one, a 
declaration of war; two, specific statutory authorization; or 
three, a national emergency created by an attack upon the U.S., 
its territories, possessions, or Armed Forces.
    Syria has not declared war against the U.S. or threatened 
the U.S. The launch of 59 missiles against Syria by Trump last 
year was illegal, and did not meet any of those criteria in the 
War Powers Resolution.
    The Consolidated Appropriations Act of 2018, which was 
signed into law by President Trump, states that none of the 
funds made available by this Act may be used with respect to 
Syria, in contravention of the War Powers Resolution, including 
for the introduction of U.S. armed military forces into 
hostilities in Syria.
    My question is, will the President uphold the Constitution, 
the War Powers Resolution, and comply with the law that he 
signed by obtaining authorization from Congress before 
launching U.S. military attacks against Syria?
    Secretary Mattis. Congresswoman, we have not yet made any 
decision to launch military attacks into Syria. I think that 
when you look back at President Obama sending the U.S. troops 
into Syria at the time he did, he also had to deal with this 
type of situation, because we are going after a named terrorist 
group that was not actually named in the AUMF [authorization 
for use of military force] that put them in.
    This is a complex area, I will be the first to admit.
    Ms. Gabbard. It is simple, however, what the Constitution 
requires. So while you are correct in saying the President has 
not yet made a decision, my question is will he abide by the 
Constitution and comply with the law?
    Secretary Mattis. Yes, I believe that the President will 
carry out his duties under the Constitution to protect the 
country.
    Ms. Gabbard. What would the objective of an attack on Syria 
be, and how does that serve the interests of the American 
people?
    Secretary Mattis. I don't want to talk about a specific 
attack that is not yet in the offing, knowing that these are 
decisions--this would be pre-decisional. Again, the President 
has not made that decision.
    However, looking at the chemical warfare convention, I 
think it is in the--by far, in the best interest of 
civilization--certainly in the best interest of America--that 
that convention be obeyed by the nations that have signed it. 
And what has happened in Salisbury, England, and now has 
happened in Syria again shows that this is not an idle concern.
    Ms. Gabbard. So if the decision is made, as you have stated 
publicly, you are laying--are all the options on the table for 
the President? If the decision is made to launch a military 
attack against Syria, Russia has already responded, saying that 
they would respond to our U.S. strike. As this action is 
considered, can you justify for the American people how going 
to war with Russia over Syria serves the interests of the 
American people?
    Secretary Mattis. No, Congresswoman, I can't answer that 
question. I am not ready to speculate that that would happen.
    Ms. Gabbard. Would you not say that it is a highly likely 
occurrence, given what Russia has stated directly, that they 
will respond?
    Secretary Mattis. No, Congresswoman, I would not. And there 
is a lot of ways to respond to the violation of the Chemical 
Weapons Convention diplomatically, economically, militarily----
    Ms. Gabbard. Sure.
    Secretary Mattis [continuing]. That, taken in total, would 
represent, I think, what we have to do in this world if we are 
going to turn it over in accordance with international norms 
and international law.
    Ms. Gabbard. One last question. The 2001 AUMF is the 
authorization with which our U.S. forces are in Syria. Today, 
while ISIS--there has been much progress made in the counter-
ISIS campaign, and they are close to being defeated in Syria, 
al-Qaida has grown stronger.
    Brett McGurk stated just over a year ago that al-Nusra is 
now al-Qaida's largest formal affiliate in history. So al-Qaida 
has grown stronger in Syria.
    Secretary Mattis. Mm-hmm.
    Ms. Gabbard. Why is this, and why have our U.S. policies 
not gone after al-Qaida in Syria?
    Secretary Mattis. Well, our policy is in Syria, which is a 
very complex battlespace, Congresswoman, that where they are 
located right now we do not want to go up and do another part 
of Syria. We are doing this by, with, and through our partner 
forces. They do not have the capability to move into that 
region.
    The Chairman. The time of the gentlelady is expired.
    Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    Now, Secretary Mattis and General Dunford, by way of 
background, I was one of some of our House Armed Services 
Committee members who, in 2011, voted against the Budget 
Control Act and its sequestration provisions that 
disproportionately cut national defense spending and so badly 
damaged America's national security.
    Now to the current date. Per the Congressional Budget 
Office, we face an $804 billion deficit this year, $12.5 
trillion in total deficits over the next decade, and a total 
$33.8 trillion gross Federal debt by 2028. Proverbs 22:7 warns 
us that, ``The borrower is the slave of the lender.''
    Similarly, I would submit America's debt slowly but surely 
gives our creditors power over America. For emphasis, China, a 
geopolitical rival and perhaps a foe, is America's largest 
foreign creditor, at $1.2 trillion.
    Here is our problem: If America's creditors simply stop 
loaning America more money, something they have every right to 
do, our Federal Government is immediately, the next day, 
insolvent, and faces an immediate $800 billion shortfall. If 
this $800 billion shortfall is prorated equally across our $1.3 
trillion discretionary budget, that translates into a 
devastating $400 billion cut to national defense, immediately.
    In 2011, when America's gross Federal debt was much less, 
at approximately $15 trillion, then-Chairman of the Joint 
Chiefs of Staff Mike Mullen testified in this very same room 
that ``The most significant threat to our national security is 
our debt.''
    Similarly, in 2017, when America's gross Federal debt was 
roughly $20 trillion, you, Secretary Mattis, confirmed at your 
Senate hearing that ``The greatest threat to our national 
security is our own Federal debt.''
    In the time that remains, will you please help the American 
people understand why you believe America's out-of-control 
deficit and exploding debt are threats to America's national 
security?
    Secretary Mattis. Well, Congressman, I think any nation 
that can't keep its fiscal house in order eventually cannot 
maintain its military power. Hence the connection to the 
Department of Defense that concerns me so much. It is also why 
we put solvency and security as watchwords at the Pentagon, 
because we need solvency first.
    So we are aligned with you. The situation I face is a 
worsening security situation in the world. So then, even with 
that thesis I just mentioned, I come in asking for an awful lot 
of money.
    The point I would make is in 1985 we spent 5.7 percent of 
our GDP on national defense. It was in the 35, 36 percentile 
during World War II. But 1985 was not a war year for us, and we 
were spending 5.7. What we are asking for in 2019 is 3.1 
percent. So we believe America can afford survival, and I 
recognize the competing and very tough decisions on domestic 
spending, on health care, on defense, and I can only tell you 
that we will spend every dollar as wisely as we can.
    I don't have stress, Congressman, I create it. If I find 
someone who is getting artful with the money you have given us, 
that person will have to leave our ranks as we try to buy the 
time, security-wise, for you to put the fiscal situation back 
under proper order.
    Mr. Brooks. General Dunford, do you share that concern 
about our accumulated deficits and total debt at some point 
becoming or currently being a national security threat?
    General Dunford. I do, Congressman. That really gets to my 
opening statement, that--what I said was we needed sufficient 
resources at Department of Defense; we also needed that to be 
sustainable and predictable. And clearly, on the path we are 
on, the sustainability and the predictability is at risk.
    Mr. Brooks. On an entirely different subject matter, 
Secretary Mattis, do you believe that people who are illegally 
in the United States should be allowed to take military service 
opportunities from American citizens and lawful immigrants?
    Secretary Mattis. I am not quite sure--sir, very bluntly, 
we need every qualified patriot we can get our hands on, but we 
do not support illegal activity in our recruiting. So I know at 
times we have had an awful lot of immigrant--legal immigrants, 
children of those families join at a much higher rate than we 
do with native-born, believe it or not. So we would like to see 
the immigration system fixed, so that we have legal immigrants 
coming into the country, because we recruit very well from 
them. They are overrepresented, sir, in our ranks.
    Mr. Brooks. Thank you, Secretary Mattis, General Dunford, 
and Mr. Chairman.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Mr. Secretary, earlier you said in response to a 
colleague's question, you said we have not made any decision to 
launch attacks in Syria. Yesterday at 6:57 a.m. the President 
tweeted, ``Russia vows to shoot down any and all missiles fired 
at Syria. Get ready, Russia, because they will be coming. Nice 
and new''--and he put in quotes--``smart!''
    Can you resolve the disconnect between the answer that you 
gave and the commitment that the President made yesterday?
    Secretary Mattis. Today our President----
    Mr. O'Rourke. I don't know if your microphone is on.
    Secretary Mattis. Today our President did say that he has 
not made a decision. And I will tell you that we are meeting--
when I leave here I go to a meeting where the National Security 
Council will be meeting on this. And we will take forward the 
various options to the President and the----
    Mr. O'Rourke. When the President of the United States 
says----
    Secretary Mattis [continuing]. Intelligence assessment.
    Mr. O'Rourke [continuing]. ``These missiles will be 
coming,'' the President of the United States of America says, 
``These missiles will be coming,'' that sounds to me and to the 
rest of the world like a decision.
    In the answer to another question that was asked for the 
legal justification to fire missiles into Syria in response to 
these chemical weapons attacks, you said that we have troops in 
the field and we are not going to wait for them to be attacked 
before we take action. If we did not have U.S. service members 
in Syria, would you have the legal authorization to launch 
attacks in Syria in response to these chemical weapons attacks?
    Secretary Mattis. Yes, Congressman, I am going to have to 
have my lawyer start taking these questions. I look for the 
legitimate protection of the American people and their 
interests. I am the Secretary of Defense. And I did not pick up 
a law degree on my way to the job. So I need to get some people 
to give me, I think, the specific answers to your question.
    Mr. O'Rourke. Thank you. We have talked today about North 
Korea, about Syria, about ISIS, about Russia, about China, but 
we have not talked about the threat that the country of Mexico 
poses to us.
    The President also announced recently that--these are his 
words--``We are sending the United States military to secure 
our border with Mexico.'' Could you share with me what that 
will cost, what the mission is, how long it will last, since 
the President vowed to keep U.S. service members there until 
his wall is completed?
    Secretary Mattis. Yes, I----
    Mr. O'Rourke. And then I have a follow-up question for 
that.
    Secretary Mattis. I cannot tell you the cost yet, sir. I am 
in close contact, daily contact, with Secretary Nielsen. We are 
in support of Department of Homeland Security, Customs Border 
Enforcement personnel, and right now I have got about 800 
deployed under the governors' authority. We are paying for them 
out of the title 32 funds that the Congress has allocated.
    I believe I will get around--a request for around 700 more 
in the second tranche. Those will mostly be helicopters and 
observation type forces. These forces will not involve 
themselves with the migrants themselves, or have any law 
enforcement duties.
    Mr. O'Rourke. Related question. Can any part of your budget 
be used to construct a wall, a fence, fortifications along the 
U.S.-Mexico border?
    Secretary Mattis. Probably the part where, if I need to 
wall off or, excuse me, put a fence along a bombing range that 
is right next to the border, this is a safety consideration. I 
don't care who they are, they are human beings, I don't want 
them wandering into a bombing range that was active.
    Mr. O'Rourke. In 1997 then-President Clinton sent the 
United States military to the border. A United States Marine 
shot and killed an 18-year-old U.S. citizen named Esequiel 
Hernandez. The tragedy for the Hernandez family, the tragedy 
for that Marine who was put in a position for which he was not 
trained should be something from which we learn.
    I think this is a grave mistake on the part of this 
country. And I would also, given everything else that we are 
talking about, all of our other challenges and threats and 
priorities around the world, I have to think that you also see, 
Mr. Secretary, the opportunity cost of sending the United 
States military to the U.S.-Mexico border at a time that it has 
never been more secure, more safe, where we have record low 
northbound apprehensions, the lowest numbers since 1971.
    The community, El Paso, Texas, that I represent, conjoined 
with Ciudad Juarez forming the largest binational community in 
this hemisphere, is also one of the safest cities in the United 
States of America. I think this is a gross waste of taxpayer 
resources. I think this is a wasted opportunity, in terms of 
what those service members could be doing. And I think it sets 
the stage for another tragedy if we do not carefully manage 
this. And I would urge you to advise the President to withdraw 
this commitment. We do not need another ill-defined, ill-
planned mission for the United States military.
    With that, Mr. Chairman, I yield back.
    The Chairman. Mr. Cook.
    Mr. Cook. Thank you very much, Mr. Chairman. I want to 
thank our panel today for their service and everything else. It 
has been a tough budget year. I was one of the ones that voted 
for the omnibus, I am one of the ones that--I cannot stand the 
Budget Control Act, and one of the big supporters behind the 
audit. I think that is extremely important, so that we don't 
waste money, and get the most cost efficiency.
    I want to switch gears a little bit. And Mr. Secretary, you 
talked about allies. And I want to talk about F-35s. Ever since 
I have been in Congress it has been about the cost, the 
problems with the F-35s. And I think we have come a long ways 
correcting a lot of the problems that we had with them. I am 
all onboard and everything else, but it is not cheap.
    And now we are talking--well, Canada dropped out of the buy 
for that, and there is some of us on this committee and the 
Foreign Affairs Committee that are concerned about Turkey and 
its behavior as an ally, and whether we should sell or continue 
to have Turkey as one of the recipients of the F-35.
    If for some reason they drop out of that program, or we 
prevent them from buying that, is that going to significantly 
increase the costs of something which is extremely important to 
our future, and obviously the conversation today, the budget 
that we are trying to do something about?
    Secretary Mattis. Congressman, we right now look at the F-
35 as a program that we have got to drive down the costs on, 
and that is both the purchase cost but it is also the flight-
hour cost, the sustainment cost, the cost of spare parts. So we 
have a full-court press on this, working with the contractor in 
order to drive it down.
    We do have other allies around the world that are 
considering increasing the number of F-35s they buy, and right 
now I can't tell you that it is going to be equal, you know, if 
some drop and others go in to pick it up. But I will tell you 
that our focus on driving down costs and getting rid of excess 
costs is ongoing. We have had some success already since we got 
in. And between Ellen Lord and my deputy, Pat Shanahan, I have 
got two very capable people of going after this with the 
contractor and getting the best value on this aircraft.
    It is revolutionary. I realize how great it is, but it has 
got to be affordable.
    Mr. Cook. General Dunford, were you going to comment on 
that at all, or----
    General Dunford. No. The only thing I can tell you, 
Congressman, we would have to get back to you, the specific 
implications. Obviously, foreign military sales help hold down 
the cost, but I don't have the data on what the implications 
would be for Turkey. So we owe you an answer on that.
    [The information referred to was not available at the time 
of printing.]
    Mr. Cook. Okay. The last thing I just wanted to address 
said NATO, number of us are on the NATO parliament, and we are 
concerned about our allies. We have some very good allies, in 
terms of meeting their commitment, and there are some that were 
about half in and half out. Do you have any suggestions on how 
we can gently pressure our allies to meet their commitments on 
this?
    Secretary Mattis. And you used the right word, Congressman, 
``commitments.'' Article 3 of the Washington Treaty, the NATO 
Treaty, said every nation will provide enough for their own 
defense and the defense of fellow alliance members.
    Article 5, of course, where we stand together in the face--
a threat against one is a threat against all, and the message 
that President Trump directed me to take to NATO a year ago 
when I first returned to that headquarters, having been--served 
there as a NATO Supreme Commander, was you cannot expect me to 
go in front of the Congress and say we need American parents to 
care more about the freedom of their children than they care 
about the freedom of their children.
    We have 15 nations that are on the right track to meet 
their Wales commitment, a pledge they made. And we want 
national plans. And thanks to Secretary General Stoltenberg, 
Secretary General of NATO, former prime minister of Norway, he 
is pushing very hard that each nation come to the summit this 
year with a national plan showing how they are going to get at 
2 percent of gross domestic product committed to defense.
    We do not have them all there, and the pressure continues. 
And the President, in his usual blunt style, has made it very 
clear that this is where we are going.
    Mr. Cook. Thank you. I yield back.
    The Chairman. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    Secretary Mattis, one of our concerns here, obviously, is 
Russia. And I am following up on my fellow Marine's comments on 
NATO. One of the focuses that we have had is on the EDI, the 
European Defense Initiative.
    Last year's NDAA we asked for a report about what would 
be--actually, we put a report in the NDAA asking specifically 
what kind of resources, tooling, locations--in general, to give 
us more information so we can actually come up with a good EDI 
this coming NDAA. That has not arrived yet, and we are about to 
go back into the NDAA again.
    So I am just wondering, when is that report going to come 
out? You know, we want to be helpful, we want to make sure that 
we are giving you guys everything you need. But we need that 
type of information to actually properly size the budget for 
EDI.
    Secretary.
    Secretary Mattis. I regret that you don't have it yet. I 
need to go back and look at it, sir. There is over 1,700 
reports I am due every year to you all, and I confess that we 
at times have been late on a few.
    Chairman, do you have anything on EDI?
    General Dunford. Congressman, you know, I am not sure about 
that specific report, although, you know, I have looked at the 
details of the $6.5 billion that are in this year's submission. 
And broadly speaking, it addresses the infrastructure, and we 
can share with you the specific locations. It addresses the 
increased exercise program as a result of rotational forces 
that increased. And it is increasing the pre-position equipment 
was the third piece.
    So those are the three pieces that make up the $6.5 
billion, and I think we have a very clear sight picture exactly 
how that is allocated.
    We will take back the requirement to report, which, like 
the Secretary, I am not following a specific report, but I can 
assure you I am following the specific way we plan to spend the 
European Defense Initiative, and we do have a detailed plan to 
lay out.
    Mr. Gallego. Well, thank you, General. You know, for us it 
would be great that we could compare the two to make sure that 
we are rightsizing everything that is going on.
    And just to continue on that kind of vein of thought, are 
we--and we could have two separate questions on this, but are 
you in favor of increasing our forces and adding more pre-
position equipment or, more specifically, putting new basing 
locations in NATO with U.S. forces?
    General, you can start.
    General Dunford. Yes. Did you say, Congressman, 
specifically in NATO?
    Mr. Gallego. In NATO territory, yes.
    General Dunford. We do not have plans at this time to 
increase. We have, with your help over the last 3 years, 
increased to the level that we believe is sustainable----
    Mr. Gallego. General----
    General Dunford [continuing]. And appropriate.
    Mr. Gallego [continuing]. I understand that. Would you be 
in favor of that? Should we give you the right budget? Would 
you be in favor of, you know, putting more positioned U.S. 
military personnel in NATO territory?
    General Dunford. You know, I will be honest with you, 
Congressman. Right now, you know, the Secretary has laid out 
the National Defense Strategy, we pretty much know what the 
forces that will be available over the next several years are, 
and we believe, to meet the--our requirements for assurance and 
deterrence, we have the right U.S. composition in place right 
now, and realizing that that is going to be in the context of 
the other 28 members of NATO.
    Mr. Gallego. Okay. From some of the RAND studies that I 
have read and been involved with, what I have seen is that 
there is a clear picture that I have been told that we have a 
math problem in the Eastern European theater, specifically when 
dealing with Russia and Russian armaments. Do we--you know, do 
you agree with some of these studies, in terms of our math 
problem and how we could fix that?
    Secretary Mattis. The math problem is accurate, sir. 
However, there is more to the power of NATO alliance than 
simply the number of American tanks, as you understand.
    Mr. Gallego. But----
    Secretary Mattis. So what we are trying to do is make 
certain the American military is there in an--support of the 
NATO alliance.
    But at the same time, everyone has got to step up for this 
thing. And right now I think we could always rotate more forces 
in during a period of heightened tensions. But overall, I think 
we have got it about right right now, and we are working with 
the NATO partners to get their forces up on the step, as well.
    Mr. Gallego. I yield back.
    The Chairman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman. Gentlemen, thank you 
all for being here today. I appreciate it.
    We have witnessed Russia tampering in our elections and 
that of our allies. And in open testimony, the Director of 
National Intelligence, the Director of CIA [Central 
Intelligence Agency] have talked about Russia undermining our 
defenses and our foreign policies.
    It has been reported that Russia is trying to undermine our 
energy investments in Europe. Our science committee has 
detailed how Russia has done this. In a declassified report 
from CIA in 1983 that detailed Russia's active measures 
concerning nuclear modernization, missile defense, and the 
report stated--and I quote--one report stated, ``Their campaign 
covers a whole spectrum of activities, from overt efforts to 
create a fear of nuclear war to covert measures including 
forgeries and disinformation.''
    And so my question is, do you believe that Russia is 
carrying out these types of active measures today? What are we 
doing to counter them? And are the agencies involved able to 
coordinate well in those efforts?
    Secretary Mattis. I think that, as you look at the National 
Defense Strategy, Congressman--and this is something that 
President Trump personally approved, I talked with him about it 
before I signed it--and you see Russia now registers as a 
strategic competitor.
    We didn't want that, we were all trying to make a 
partnership of sorts with Russia after the fall of the Berlin 
Wall in the late 1990s, early 2000s. I can remember Russian 
marines training at Camp Lejeune with U.S. Marines for U.N. 
peacekeeping operations. That is in the dim past now, sir, as 
we watch what they have done, from Georgia to Crimea, from the 
Ukraine to Syria.
    And so, when you look at the gray zone issues that were 
brought up by a Member earlier, this is where Russia is putting 
a lot of effort. The deniable--they think deniable--efforts 
that they believe they can undermine our belief in democratic 
processes, elections, as you mentioned, undermine us 
financially.
    As you know, they have a declining economy, a worsening 
demographic. And until they wake up to the fact that they have 
a lot more to gain by working with Europe, by working with 
NATO, by being a responsible nation in the U.N., we are going 
to have to deal with them in all areas as a strategic 
competitor.
    Dr. Wenstrup. So are you comfortable with how we may be 
countering their efforts?
    Secretary Mattis. We are doing better. I will never be 
comfortable with our security. I will always be looking for 
ways to improve.
    Dr. Wenstrup. Do you feel like the agencies have the 
ability to coordinate the efforts to counter what is taking 
place?
    I mean I think you have highlighted very well what is 
taking place. But how are we countering that?
    Secretary Mattis. Right. We have--I believe we do have the 
ability, I think we have the focus. There is a lot going on 
right now, but I don't think I would--I wouldn't tell you we 
are where we need to be, but I know we are going in the right 
direction.
    Dr. Wenstrup. Thank you.
    General Dunford, do you have anything to add to that, or--
--
    General Dunford. No, Congressman. You know, we spoke 
earlier, as the Secretary said, about the gray zone. And that 
is the threat we face.
    The one thing that comes to mind as you were asking about 
are we postured where we need to be, you know, we are in an 
environment, particularly in cyber, where offensive operations 
are going to outpace defensive operations. And so that is one 
of the areas that I think is really being looked at by the 
experts right now at CYBERCOM [U.S. Cyber Command] and 
Department of Homeland Security and so forth is what is the 
right organizational construct, and what is the right level of 
activity every day, so we can have the momentum and the 
offense.
    Dr. Wenstrup. Thank you, I appreciate that response.
    Just a quick question for Mr. Norquist--I think you have 
been eagerly awaiting a question.
    [Laughter.]
    Dr. Wenstrup. As we go through the audit, do you anticipate 
that this will lead to DOD to be able to redirect funds into 
other areas, as we discover where we are spending money and how 
we are spending money?
    Mr. Norquist. So I appreciate the question. The--there are 
three benefits we are going to see from the audit. The first 
and foremost is better data, which will feed better decision 
making. The second is the transparency and accountability that 
goes with it. And the third--and I think it is the third where 
you are going to see that the savings is--how it helps drive 
reform.
    And so, as the Secretary mentioned in his opening 
statement, that crosses a number of offices in the Department, 
but their ability to drive reform benefits from the accuracy of 
the underlying business data.
    Dr. Wenstrup. Thank you very much, and I yield back.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    Mr. Secretary, Mr. Chairman, Mr. Norquist, thank you very 
much for being here.
    Secretary Mattis, last October before the Senate Armed 
Services Committee you stated that, ``It is in our national 
security interest to remain in the JCPOA [Joint Comprehensive 
Plan of Action],'' or Iran nuclear deal. Do you still believe 
that remaining in the JCPOA is within U.S. national security 
interests?
    Secretary Mattis. I think it needs to be fixed, 
Congressman.
    Mr. Moulton. I am asking if it remains in our interest to 
stay within the deal, in our national security interest.
    Secretary Mattis. If it is fixed, yes, sir.
    Mr. Moulton. But not without it being fixed? What do you 
intend to recommend to President Trump, approaching the May 
12th sanctions deadline?
    Secretary Mattis. Right. We are working on what needs to be 
fixed in it. We are also working with our allies, in very close 
consultation with our European allies on this. There are three 
areas--I owe--this is not an area, because it is pre-
decisional, but I want to go into detail here. But if those 
three areas are addressed, then it perhaps can be saved.
    Mr. Moulton. And otherwise, you think we should pull out?
    Secretary Mattis. I am not willing to say that until I see 
how much of it can be saved.
    I mean this is not a--I think it is not an easily binary 
situation----
    Mr. Moulton. And yet the decision----
    Secretary Mattis [continuing]. Depending on our success----
    Mr. Moulton. Right, but Mr. Secretary, the decision is----
    Secretary Mattis [continuing]. With the European allies. If 
we can fix most of it, will that make it sufficient? I don't 
know right now.
    Mr. Moulton. The problem, Mr. Secretary, is the decision to 
stay in or pull out is ultimately a binary decision.
    Secretary Mattis. Right.
    Mr. Moulton. Mr. Chairman, your deputy, General Paul Selva, 
testified last July that, based on the evidence that has been 
presented to the intelligence community, it appears that Iran 
is in compliance with the rules that were laid out in the 
JCPOA. And since that time, the IAEA [International Atomic 
Energy Agency] has continued to affirm Iran's compliance.
    In your assessment, and in the assessment of the 
intelligence community, is Iran still in compliance with the 
terms of the deal?
    General Dunford. Congressman, I will caveat my statement by 
saying I haven't seen a recent report. I am not aware of any 
violations.
    Mr. Moulton. What does the Joint Staff plan to recommend to 
the President about staying in the Iran nuclear deal?
    General Dunford. Yes, Congressman, I can't share that with 
you right now. I mean I think, from my perspective, we want to 
make sure that all of Iran's malign activity is addressed: 
nuclear activity, cyber activity, missile activity, maritime 
threats.
    And so we have a framework right now that addresses the 
nuclear piece. It has been deemed to be unsatisfactory. What we 
need to come out of is a diplomatic and a legal framework 
within which to manage the nuclear threat that Iran poses.
    Mr. Moulton. Mr. Chairman, how do you expect North Korea to 
believe that we will adhere to a deal if we are so willing to 
pull out of a deal that the United States of America signed 
with Iran on the same subject?
    General Dunford. Well, I understand your question, 
Congressman, but it certainly won't be up to me to decide 
whether we pull out of the deal or not. That is ultimately 
going to be a political decision.
    Mr. Moulton. I understand, Mr. Chairman. What I am asking 
you is how do we expect North Korea to believe in a deal, if we 
are so willing to pull out of our previous--our immediate past 
nuclear deal?
    General Dunford. No, I understand it, and I am not trying 
to be argumentative. But you are speculating that we will pull 
out, and then you are asking me to determine what the action 
would be of North Korea.
    Mr. Moulton. Yes, sir.
    General Dunford. I can't do that.
    Mr. Moulton. All right, Mr. Chairman.
    Mr. Secretary, we discussed before the advent of artificial 
intelligence [AI] and its implications for our military, and 
you brought it up in your opening testimony. China has made a 
clear commitment to meet U.S. capability in artificial 
intelligence by 2020, and then exceed it by 2030.
    Who owns U.S. research and development in artificial 
intelligence, bureaucratically?
    Secretary Mattis. Right now it is our new Under Secretary 
of Research and Engineering, Michael Griffin. And I would tell 
you that we are looking at a joint office where we would 
concentrate all of the DOD's efforts, since we have a number of 
AI efforts underway right now. We are looking at pulling them 
all together.
    Mr. Moulton. So, Mr. Secretary, is it just within the DOD? 
Is there any government-wide effort on artificial intelligence, 
or is it just--is the owner essentially the Department of 
Defense?
    Secretary Mattis. I can only speak to my portfolio, and I 
will get back to you with the broader--answering the broader 
question. But in terms of the defense of America, obviously I 
am primary. I know that also the CIA works on this issue.
    [The information referred to was not available at the time 
of printing.]
    Mr. Moulton. Mr. Secretary, a quick question on Syria. When 
I served under you in Iraq, you made it very clear what our 
mission was. In fact, you made it clear what we had to 
accomplish before we came home.
    What do the troops in Syria, the over 2,000 Americans 
risking their lives every day, have to accomplish in Syria 
before they can come home?
    Secretary Mattis. I think both administrations, the last 
one and the current one, said we are going to take ISIS down so 
they do not have a physical caliphate and they are shattered, 
in terms of an aura of invincibility that attracts funding and 
recruiting.
    So that remains the same at this time, Congressman.
    Mr. Moulton. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    The Chairman. Mr. Byrne.
    Mr. Byrne. Mr. Secretary, General, Mr. Norquist, it is good 
to see all of you again, and thank you for your service to our 
country.
    We talked about a lot of different parts of the world 
today, but I would like to shift a little bit, if I could, to 
our own neighborhood, the Western Hemisphere. It is very 
important to all of us, I know it is to you. We will have a 
congressional delegation--I will be a part of it--going to Peru 
this weekend for the Summit of [the] Americas.
    And Mr. Secretary, I know you believe very strongly in soft 
power. But as you well know, soft power alone can't get the job 
done.
    It is no secret that SOUTHCOM [U.S. Southern Command] is 
significantly underresourced to meet the combatant commander's 
requirements. And in his list of requirements, Admiral Tidd has 
expressed a necessity of a littoral combat ship [LCS] in his 
theater because he believes that small surface combatants are 
ideal for several missions, including combating drug 
trafficking, partnership-building, and providing support for 
special forces. Currently the Coast Guard is the only service 
providing maritime security in that region.
    I also believe, in order to meet our requirements and 
provide the necessary support to effectively perform our 
missions, it is imperative the Navy play an active role in 
SOUTHCOM.
    Understanding that we need to invest in our capabilities 
across the globe, what would be your solution to get the most 
capability for low cost in the SOUTHCOM region? And 
specifically within that, how can we provide additional 
necessary resources to SOUTHCOM like the LCS that are ideally 
situated for the mission requirements in that region?
    Secretary Mattis. Right. It has been a prioritization 
issue. You are laying it out quite accurately, as has the 
commander, Admiral Tidd.
    We are looking at the mix of Coast Guard cutters and LCS 
right now. As you know, we also have Coast Guard cutters 
elsewhere in the world. Would those missions be best carried 
out by the Coast Guard or by Navy LCS, shifting more, for 
example, cutters into the Caribbean, into the Latin America 
area? Or do we want to put some of the LCSs into that region? 
We are looking at this issue as we speak. The chairman owes me 
some feedback here in the next couple of weeks as we try to 
sort out the right mix, based on the mission.
    Is it primarily law enforcement? Do they need to have 
people with badges, which would mean Coast Guard cutters? We 
are going to have to shift and go to the Department of Homeland 
Security. Or is it LCSs because of the nature of an evolving 
threat? We don't have the answer yet, sir, but we are working 
it. We will have it sorted out very soon.
    Mr. Byrne. Well, thank you. General, did you want to 
respond to that?
    General Dunford. The one I can tell you, Congressman, in 
the National Defense Strategy the Secretary has directed me to 
do something called dynamic force employment. And what that 
really means is, in those areas where we don't have sufficient 
forces to be forward-posture engaged on a day-to-day basis, to 
find ways to use the force in a different way to support the 
combatant commanders.
    And so that is exactly how we anticipate filling some of 
the gaps down in the U.S. Southern Command.
    Mr. Byrne. My conversations with leaders from some of those 
countries, they actually are seeking that presence, sometimes 
only for the symbolic nature of it. But symbols are important; 
you know that better than I do.
    General Dunford. Congressman, I--there is--I don't think 
either the Secretary or I would disagree with the desire to 
increase our presence down in the United States Southern 
Command.
    I think, as you understand, one of the challenges we have 
right now is our Navy ships--I mean one example I use, I went 
to visit the USS Barry about 18 months ago, and those sailors 
had been underway 70 percent of the time the previous 12 
months. So we really do have a requirements resources mismatch 
here that, again, we will be growing a force over time.
    And Congressman Wittman has left, but he spoke about the 
size of the Navy, and if we--we are about 55 ships or more 
short of the study that Congressman Wittman identified.
    Mr. Byrne. Well, I am a strong supporter--a member of that 
subcommittee--of rebuilding the fleet. I was a strong supporter 
before, but now that my daughter is engaged to a young Navy 
officer who deployed yesterday, I am in the Navy now, and I 
want to make sure that we do everything we possibly can to 
resource you in the appropriate ways so that you can carry out 
this important mission, and at the same time protect those men 
and women that are wearing our uniform.
    And with that, Mr. Chairman, I yield back.
    The Chairman. Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Mr. Secretary, General, Mr. Norquist, thank you for being 
here. And of course, thank you for your service.
    Mr. Secretary, in your statement you speak to the fact that 
the United States remains the world's preeminent maritime 
power, and I, of course, agree with you. You do say that the 
2019 budget provides to fund 10 combat ships and 8 support 
ships. What is the combat ships that you envision being funded, 
the 10 combat ships?
    Secretary Mattis. Yes, there will be two submarines; those 
are Virginia class, Congresswoman; three Aegis destroyers--
these are the DDG-51s that you see often in Pearl Harbor and 
out in the Pacific. There will be a littoral combat ship. There 
is going to be two of the John Lewis-class replenishment 
oilers. They are critical for keeping the fleet at sea, and not 
having to come into port. In the event of hostilities, we don't 
want them coming into ports, we want to keep them outside the 
ports.
    We have also got an expeditionary sea-based ship that is 
funded that is a Lewis [B.] Puller class. And we have also got 
the advance procurement for another Ford-class aircraft 
carrier, and advance procurement for the Columbia class. These 
are the replacement nuclear missile submarines.
    Ms. Hanabusa. The reason I ask is for the period of time 
that I have sat on this committee I have always felt that 
somehow we have had a disconnect in the sense that, instead of 
purchasing based on some kind of future needs, we almost set 
our policy by acquisition.
    In other words, what we buy then sort of sets what we are 
going to do.
    For the time I have been here, DDG-51s were supposed to 
sort of be discontinued. The Zumwalt, the DDG-1000, was the 
ultimate ship. Then, of course, the LCSs were preferred. Then 
they kind of fell from the grace and now they are back again. 
This is a--I am not quite sure how we make these kinds of 
decisions.
    Of course I don't want you to touch the Virginia class, for 
obvious reasons, and that is, of course, Pearl Harbor. So you 
keep on the Virginia class. I think those are great.
    But it is something that bothers me in how we acquire, 
especially with your statement today about the fact that we 
want a more affordable Navy.
    So I understand that we have to be affordable. That is why 
we have Mr. Norquist here. But I want to be sure that we are 
not sort of short-changing and defining what our future is 
going to look like, because these ships are going to be around 
for a very long time, and they are going to define how we 
fight, General.
    So please, can you explain to me how we come up with these 
decisions, in what is the preferred and not preferred and back 
to being preferred again?
    Secretary Mattis. Congresswoman, you bring up very valid 
points. We need to rationalize what we are doing, and yet we 
are doing that at a time of dramatic change in information 
technology, in certain data handling, in hypersonic weapons, 
things that are going to fundamentally change the character of 
the war that we might fight, or deter, if we are successful in 
deterrence.
    So innovation has now become something that we have got to 
unleash in a much more focused way, and we have got to have 
outputs from our innovative efforts that keep us from building 
a ship that, 5 years later, you say, well, that class doesn't 
look so good, after all.
    So it is challenging. I don't think anyone set out to put 
us on the track that you just explained, I think, very 
accurately. But that is the situation that you and I confront 
in our responsibilities, and I am going to have to come back 
and convince you that we have now figured out what is the 
requirement, based on the threat, and what can we afford to do 
about it in a sustainable way.
    And that is where we are going right now. I have got the 
right people onboard, as of about January 5th, and we will get 
this figured out. I can guarantee you that. But it is a very 
dynamic world, and navies are at the cutting edge of this. And 
so they take a lot of hits.
    Ms. Hanabusa. Yes, Mr. Secretary, that is my point. I do 
not want to hear again that we are battling today's war with 
last--the last war's equipment. And then our men and women in 
uniform are the ones that are in jeopardy. And I know I don't 
need to tell either you or the general that, but I think we 
need a great understanding of what we are doing before we 
engage in all of this.
    Thank you, Mr. Chair. I yield back.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman. Thanks, gentlemen, 
for your testimony and your service.
    As you have all mentioned today, we just partnered with you 
and the President in order to provide a desperately needed 
funding boost for our troops to deal with the readiness crisis 
and the erosion of our competitive edge.
    But with less and less of our society serving in the 
military and being veterans, there is a bit of a sometimes 
civil-military disconnect, and we go back to our constituents 
in translating this, and having them understand how critical 
this is.
    This testimony you have today is so important, and I really 
hope that it breaks through the news cycle and the noise that 
is often seen on TV when people are at the dinner table every 
night.
    I am going to take a little bit of a different approach, as 
normal.
    Secretary Mattis, you have a way with words. So could you, 
in just the next little bit of time, not answer to me, but in 
layman's terms to my constituents, the American people, about 
what has happened with readiness and the erosion of our 
capabilities, and why it is so important that we all are 
partnering in order to give our troops everything they need?
    And also, for those who have a patriotic urge, why it would 
be important for them to join those ranks.
    Secretary Mattis. Congresswoman, what happened over these 
years was we were engaged in a form of warfare, irregular 
warfare, that consumed much of our focus and--as it should 
have--but perhaps distracted us from other things going on in 
the world.
    The result has been that we have got troops who are very, 
very good at what they do, but they are not trained for higher-
end warfare to the degree that we want them trained for that. 
We have got ships that have not received the maintenance they 
needed, we have gone through a period when understandable hopes 
for a lower level of expenditure for defense issues guided us.
    And the end result of the war and of the rapid change in 
the world and the changes especially among several countries 
that have decided not to play by the international rules now 
puts us in a position that almost every generation of Americans 
have had to face, that if we are going to keep this experiment 
alive that we call America, we are going to have to once again 
fund our military at a higher level.
    The--what we owe you is the reality of how we see it, and 
we should be able to defend it. For example, readiness today 
does not necessarily equate to readiness 5 years from now in a 
time of rapid change. So we need to define the problems to a 
very keen level of detail, and then bring to you the solutions. 
And we will open it up; if someone has got a better idea, I am 
wide open to it. But we can afford survival, we are not paying 
an inordinate percent of our GDP right now, and I don't want to 
pay one cent more than necessary.
    But we must pay what is necessary. And if we do not, if we 
do not do this, if we decide we are going to save money and 
underfund the military and costs there, the cost of a war 
basically is magnified many times beyond what the cost of peace 
is, even as expensive as the bill I have brought you here 
today.
    Ms. McSally. Thank you, Secretary Mattis. Also, the 
American people are not the only people listening. Our enemies, 
the mullahs, the thugs, the dictators are all listening today, 
listening to you to hear if they can identify some weaknesses 
or vulnerabilities. So I also want to give you the opportunity 
to speak to them, that if they were to choose to take us on, it 
would be an awful mistake that would come at a high, high 
price.
    Secretary Mattis. Well, if that were to happen, if they 
were to make that mistake, Congresswoman, they would regret it. 
We would hit it with overwhelming force. And we would triumph. 
That is not our intent. Our intent is that our diplomats be 
engaged and we solve things the way rational nations should.
    But we have readiness issues. They would not in any way 
stop us from dominating. I think the chairman would probably be 
good to make a few comments on this, ma'am.
    General Dunford. The thing I would say to our adversaries, 
Congresswoman McSally, is that they shouldn't confuse our 
willingness in a democracy to speak about readiness challenges 
as a sign of weakness.
    Ms. McSally. Amen.
    General Dunford. And as I mentioned in my opening 
comments--and I speak with a high degree of confidence about 
this--you know, we can protect the homeland and our way of life 
today. We can meet our alliance commitments. And we have a 
competitive advantage over any potential adversary out there 
today.
    The reason why we have this discussion and debate, and the 
reason why it is so important is we are not only focused on 
today, we are focused on tomorrow, as well. And because of the 
last 15 or 16 years, both of wars in Iraq and Syria, 
Afghanistan, as well as fiscal instability, the competitive 
advantage that we have historically had has eroded. It is not 
gone.
    Ms. McSally. Right.
    General Dunford. It has eroded. And the thing, speaking to 
both constituencies, both the folks back home, as well as our 
adversaries, we never want to send our men and women in a fair 
fight.
    Ms. McSally. Right.
    General Dunford. And the whole dialogue that we are having 
today, it is all about making sure when we send our men and 
women in harm's way, we do so and we make sure they are not in 
a fair fight.
    Ms. McSally. Thank you, gentlemen.
    I yield back.
    The Chairman. Ms. Rosen.
    Ms. Rosen. Thank you, Mr. Chairman. Thank you all for being 
here, and for your thoughtful testimony today.
    I just want to bring up that last week we lost one of our 
own at Nellis Air Force Base, a Thunderbird pilot, Major 
Stephen Del Bagno. It was a great loss to us, and I really 
appreciate that you are going to look into these accidents with 
our aircraft that have been going on. We know what it is 
related to, and I don't want to belabor that, but I want to 
honor his service and thank you for looking into that.
    What I really want to talk about is a little bit Nevada-
specific--actually, the whole world specific. We have a lot of 
challenges ahead of us: people that are our adversaries, with 
the President's tweets about sending bombs, with Russia and 
North Korea having nuclear weapons.
    Can you tell me--you put out a Nuclear Posture Review, so 
can you tell me--you said geopolitical challenges may dictate 
how we are going to respond or have a possible return to 
nuclear testing? We have a Nevada test site. Can you tell me, 
is there any circumstance at all that we would return to above-
ground nuclear testing within the United States of America?
    Secretary Mattis. I cannot imagine one, Congresswoman.
    Ms. Rosen. Thank you. People in my State have been worried 
about that.
    I want to talk a little bit about below-ground testing. We 
do continue to do that. So can you tell me what kind of nuclear 
explosive testing that we may consider doing in the future? And 
how do we make sure these detonations are safe?
    Secretary Mattis. Congresswoman, there I would like to come 
back to you in private.
    Ms. Rosen. Okay.
    Secretary Mattis. I will tell you that we--our primary 
effort right now is to use very advanced computer modeling that 
removes the need to do much of what you--if you read the 
history books----
    Ms. Rosen. Right.
    Secretary Mattis [continuing]. We did back in the 1950s and 
1960s. But in terms of any below-ground, let me come back to 
you in a classified form----
    Ms. Rosen. Thank you.
    Secretary Mattis [continuing]. For you. That should not be 
misinterpreted by anyone that that means that this is in the 
offing. That is not what I am indicating.
    Ms. Rosen. No, thank you, I appreciate it. It is a great 
concern to many Nevadans.
    And so I also want to turn, then, to our influence 
operations and cyber activities. We talked a little bit about 
DOD over artificial intelligence. But really, as these 
traditional methods of warfare--especially cyberattacks--they 
don't fall under traditional means. So really, who is going to 
be the lead in this area, and how do we respond to attacks in 
every area? Everyone seems like they are going out, they are 
doing their thing, but where do we have that confluence?
    Secretary Mattis. Inside the Department of Defense, 
Congresswoman, we have U.S. Cyber Command, and they are 
responsible for defending our networks and attacking the 
adversary's. We also have NSA and Cyber Command, National 
Security [Agency] and Cyber Command, connected.
    We are going to--per the congressional guidance, we are 
going to separate those two, but keep them in a synergistic 
role together. And we need to figure this out. And once we have 
it figured out, we will come back to the Congress. But there 
will be most of America's offense and defensive capability.
    Ms. Rosen. And then, speaking again to security challenges, 
when you do do this and we move to the cloud, what are the 
cloud's implications--if we do public and private partnerships, 
if we move to the cloud, who is going to own some of that 
proprietary information? What if some of those private 
businesses go out of business?
    Who holds the keys to the kingdom on the private side, and 
as it relates to our military readiness in the future, as 
things do move forward and we may drop certain technologies in 
favor of others?
    Secretary Mattis. The movement to the cloud, Congresswoman, 
is to enhance the availability of the information among us. 
Right now we have to also quickly advance our security.
    We have over 400 different basic data centers that we have 
to protect. And we have watched very closely what CIA got, in 
terms of security and service from their movement to the cloud. 
It is a fair and open competition for anyone who wants to--it 
is only 2 years. If you have read something about 10 years in 
the press, that is not the case at all. So it will be a full 
and open competition, not sole source, by the way, to make 
certain we don't fall into just one.
    And I am very confident that we can get a 2-year horizon on 
the--on anyone bidding on it to know with certainty they will 
not be folding. And we will just make certain that their 
performance tells us where we go in the future.
    We just know what we are doing right now has to change, 
ma'am.
    Ms. Rosen. Perfect. Thank you very much.
    The Chairman. Mr. Knight.
    Mr. Knight. Thank you, Mr. Chairman, and I join with 
Congresswoman Rosen in saying that our country mourns Major Del 
Bagno. He came from my district, and we appreciate his service.
    There are certain things that have been said, Mr. 
Secretary. The speed of relevance, I think, is one of the 
things that you used, and I appreciate it very much. It is how 
quickly can we get a platform to our military is the most 
important issue of defending a nation.
    So I believe the audit is very important. But taking that 
information and taking it to the next level might mean saving 
money, but it also might be identifying how we are getting that 
platform to the military faster.
    Do you believe that the audit is going to prove out not 
only that maybe we are--we can have some savings, but we can 
also have some new issues that we can get those platforms 
moving faster?
    Secretary Mattis. Congressman, I have no doubt that the 
data we get from the audit is going to be acted on, whether it 
be by the Secretary of the Navy, the Chief of Staff of the 
Army, CAPE [Cost Assessment and Program Evaluation], the ones 
who really look and give me an independent view of the progress 
or lack of progress of certain high-cost weapons systems, this 
sort of thing. The data itself is going to open opportunities. 
It is data that has never been displayed before.
    And you will also be able to review it, so it is good in 
the sense of oversight by the Congress. You will have either 
more confidence or more questions for me when I come up here 
next, sir.
    Mr. Knight. And in the NDAA 2017 we did a reorg 
[reorganization] of acquisition, technology, and logistics. And 
in that we have developmental test and evaluation. We want to 
make sure that developmental test and evaluation is at the 
forefront of what we are doing today, especially when it comes 
to aerospace and things that we are trying to move to the next 
technology step.
    I would like to take this in the realm of hypersonics. 
Hypersonics, we have been doing in America for 65 years, but we 
have been taking great leaps in advancements over the last 
decade or so. And I think other countries have, too. Having an 
open society, it is easy to steal information and data from us.
    But that being said, hypersonics and developmental test and 
evaluation is extremely important. If we can reach out and 
touch the enemy before they can touch us, it is an advantage 
that everyone wants to have.
    So I would like to have your commitment, Mr. Secretary, 
that developmental test and evaluation is going to stay at the 
top of our kind of priority list when we are talking about 
advancements of technology.
    Secretary Mattis. Congressman, you are reading our mind in 
DOD. Under Secretary for Research and Engineering Mike Griffin, 
formerly NASA [National Aeronautics and Space Administration], 
formerly Lincoln Lab. This is his number one priority. What we 
have to do is get something that DT&E [Developmental Test and 
Evaluation] can test and evaluate, and our goal is to put 
something in the air, not have another study or something like 
this.
    So it is focused, it is going forward, it is our number one 
priority of those innovative technologies, not to the exclusion 
of artificial intelligence, certainly, which will probably 
contribute, or machine learning, this sort of thing, but it is 
number one on Mike Griffin's list of things to do, and we have 
got the right man there by experience and force of personality 
to take it forward.
    Mr. Knight. Thank you, sir.
    And General Dunford, the budget we have passed, I think the 
number one concern is always our troops, from any standpoint. 
But it is the perishable skills, also. It is the time in the 
cockpit, it is the time of sailing, it is the time of doing 
ground exercises with our Marines and our soldiers.
    That, to me, is the part that this budget is now pushing 
back on, and we are saying that we are going to advance those 
perishable skills. Or maybe not advance, but increase the 
amount of time that we have training. Is that a good 
assessment?
    General Dunford. It is, Congressman. And what this will do, 
it will give us the resources necessary to train. It will 
backfill the holes in equipment that would allow us to improve 
the capabilities of individuals. But combined with the budget 
is the Secretary's direction also to redo how we are allocating 
forces to have more time at home station to make sure that 
those high-end skills you discussed are actually developed.
    Mr. Knight. Thank you very much, and I yield back, Mr. 
Chairman.
    The Chairman. Mr. McEachin.
    Mr. McEachin. Thank you, Mr. Chairman.
    Secretary Mattis, as you know, discriminatory barriers have 
historically prevented many patriotic Americans from serving in 
our military. Whenever we have allowed new groups to serve or 
serve in new ways, voices have been raised in protest.
    In the years before President Truman integrated the 
military, many argued that the armed services shouldn't be used 
for ``social experiments,'' and raised fears about the effects 
of such a change would have on readiness and cohesion. And we 
have heard similar arguments more recently, arguments for 
banning gay and lesbian Americans from serving openly, or for 
keeping women out of combat roles.
    In retrospect, I think history has shown that those 
arguments are wrong. Time and time again, those who have fought 
against discriminatory barriers have been vindicated, and the 
military has benefitted from access to an even broader pool of 
talented potential service members. Yet today we are hearing 
the same kind of rhetoric regarding transgender people.
    Mr. Secretary, I have read your memo to the President, and 
I know it lays out a sincere professional judgment. I recognize 
that you do not recommend a blanket policy, but the arguments I 
hear in favor of the current ban are the same as the arguments 
that were made in favor of clearly discriminatory policies in 
the past.
    In light of the historical evidence from racial integration 
to repeal of ``Don't Ask, Don't Tell,'' to the participation of 
women in combat roles, can you please explain why this time is 
different? Why are transgender people different?
    Secretary Mattis. Congressman, as you know, these cases are 
under litigation, so there is a limit to how much I can say. 
That is why I hung on the web what the policy recommendation 
was to the Commander in Chief.
    I would just tell you that that report was endorsed by the 
President as my best military advice for how we keep the 
military focused on its lethality. We welcome those who meet 
the high standards of the military. I think that without gender 
dysphoria it means we are not making a special category of 
people who medically perhaps would not have been allowed in 
with any of the other--any other condition.
    And I think right now the current policy remains in effect, 
because it is under court order to.
    So I will see where the--basically, where the courts come 
out. But I don't want to say more than I have already put out 
publicly to make very clear what data we used, so that they 
knew there was some--that it was not what I would call standard 
rhetoric in there. That was looked at very carefully.
    Mr. McEachin. Well, Mr. Secretary, I have to note it is 
just ironic to me that I note that your decision not to comment 
on matters of the part of the judicial process stand in 
complete contrast to your boss's habit of always commenting, 
seemingly, on matters of--subject to the judicial process.
    But let me ask you this, Mr. Secretary. If the President 
had not suggested that there be a ban on transgender troops, 
would you have ever initiated that memo in the first instance?
    Secretary Mattis. Sir, when I came in I went in front of 
the Senate, and they asked me where I stood on a number of 
issues, and I said, ``Let me make it clear. I am here to solve 
problems in the defense of the country. I don't come in with a 
pre-formed agenda.''
    In this case it was not the President who brought the 
problem to my attention, it was service chiefs who asked me 
questions, how do we deal, and they laid out a number of 
issues. And I said, ``Well, what is the policy?'' And they did 
not have a policy. So I said, ``Let's study it.''
    And then that is what triggered what you eventually read 
from me, sir. It became a recommendation to the President 
because he asked for it, but it already--we were engaged on 
studying this to figure out how to employ the policy I 
inherited. And you can see where I ended up on that. I was 
unable to answer those questions.
    Mr. McEachin. Mr. Secretary, in the little bit of time that 
we have remaining I am going to shift gears on you.
    Last year's NDAA made it our national policy to achieve a 
355-ship battle force as soon as practicable. I understand that 
the annual long-range plan for construction of Navy vessels has 
us reaching that goal some time in 2048. Yet I have read 
statements of both news articles and HASC [House Armed Services 
Committee] testimony that a 355-ship battle force is achievable 
potentially as soon as the 2030s.
    Can you please explain to me how the fiscal year 2019 
budget request meets the ``as soon as practicable'' standard 
when it comes to Navy ships?
    Secretary Mattis. I can, Congressman. This is the balancing 
act, the prioritization that you expect from us. I have got a 
number of competing demands. I am absolutely supportive of 
where we need the Navy to go.
    But when you read 2048, Congressman, I think you and I have 
to keep a certain sanguine view of the people that brought that 
up and say, ``Okay, I understand what you are saying. That is 
on the current trajectory.'' The Congress is the one that 
raises armies and sustains navies. Part of this is the choice 
of Congress and what level of funding do they wish to push 
forward on this. Part of it is me bringing forward the absolute 
requirement at any one point in time.
    So it is not on automatic pilot, and both of us in our 
responsibilities have an impact on where we go and how fast we 
get there.
    Mr. McEachin. Thank you, Mr. Secretary.
    I yield back. Thank you, Mr. Chairman.
    The Chairman. Dr. DesJarlais.
    Dr. DesJarlais. Thank you, Mr. Chairman.
    Mr. Secretary, you touched on this briefly a moment ago, 
but I think it is worth revisiting, due to its importance.
    When we spoke at this hearing last year on the topic of 
hypersonic weapon development, you indicated that you were not 
happy that--where we were or where we needed to be. And thanks 
in large part to your efforts during your time as Secretary of 
Defense, we have seen a major shift in focus and support 
towards hypersonics.
    My State of Tennessee has a vested interest in this issue, 
with all the work that is done at Arnold Air Force Base in 
Tullahoma. What concerns me, though, is the aging 
infrastructure and significant investments required across the 
range and test center enterprise.
    And as you are aware, both class of hypersonic weapons 
systems have significant and strenuous test capability 
requirements, but because we minimally addressed the long-term 
needs of hypersonic development in the past, places like 
Arnold, Holloman, Edwards Air Force Base face enormous 
challenges to maintaining and improving existing systems.
    If we aren't prioritizing our test and evaluation 
facilities, then in a sense we are really putting the cart 
before the horse. And I think you agree and share these 
concerns and sense of urgency. But what would you suggest? How 
do we work together to address this problem and prioritize the 
challenges faced by our testing centers?
    Secretary Mattis. Yes, Congressman, you are hitting on what 
I found was what we call the limiting factor, frankly. It 
wasn't just our organization, it was that we were not set up to 
embrace the required--have the facilities that would embrace 
the whole challenge of hypersonics.
    So in the budget we have addressed this, to a degree. But 
we are going to have to have a complete program, support 
program, for this. This is going to be a major effort.
    Comptroller, do you have anything additional on it?
    Mr. Norquist. Not at this time.
    Secretary Mattis. All right, yes. So just rest assured, 
sir, that we know where we want to go, and this is one of the 
key building blocks to getting us there.
    Dr. DesJarlais. Okay. One final question for both you and 
the chairman.
    Earlier this year Mr. Putin announced that Russia had 
developed a series of new types of strategic offensive arms. Do 
you agree that Russia should honor the terms of the treaty, and 
agree to limit those new arms under New START [Strategic Arms 
Reduction Treaty]?
    Secretary Mattis. Sir, I believe they should. However, I 
will tell you that what he brought up in that video, if that is 
the one you are referring to, Congressman, I studied it closely 
and talked to people on my staff who know these issues very, 
very well. Nothing that President Putin said that day in his, I 
think, election hearing changed my strategic calculus one bit. 
I wish him a good arms race with himself.
    Dr. DesJarlais. Yes. General, did you have anything to add?
    General Dunford. I see it the same way, Congressman.
    Dr. DesJarlais. I just want to thank you all for your 
service. We so appreciate you. And thanks for being here today.
    And I yield back, Mr. Chairman.
    The Chairman. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair.
    Secretary Mattis and General Dunford, this has already been 
touched on, but I want to--I think it is so important that I 
need to do the same.
    When this country was started, debating the possibility of 
African Americans, women, and lesbians and gays serving in the 
military, the same doubts, the same reports and questions were 
posed: How would it impact unit cohesion and effectiveness? 
Would it negatively impact the morale of the military? The 
military would lose its effectiveness. It would put our 
readiness at risk, especially when this Nation started talking 
about allowing women into the military and, most recently, 
opening combat positions to service women. Discussions evolved 
around the impacts of pregnancy and the rise in the number of 
sexual assault and harassments due to so-called more women 
serving.
    This Nation's military is as powerful and effective today 
because of the sacrifice and the service of all its members, 
who proactively volunteer, something this President does not 
know and even went to great lengths to not serve. It is 
frustrating to me that we have not learned our lessons from the 
past, and we are here again, discussing the same unwarranted 
concerns and implementing discriminatory policies in the 
military.
    And as someone who has served in the Marine Corps, a 
brother who has served in the Marine Corps, many nephews--half 
of my nephews have served in the military--many of who have 
gone to Afghanistan and Iraq, I find this extremely troubling 
and upsetting.
    Transgender individuals are already serving in the 
military. And not once during any hearing did I hear military 
leaders citing transgender service members as a threat to our 
military readiness.
    So Secretary Mattis and General Dunford, I hope our 
military will focus on getting the most capable and qualified 
individuals to defend our Nation, regardless of the race, 
gender, and sexual orientation.
    Now I will move on to my question.
    Secretary Mattis and General Dunford, there are many 
officials who believe diplomacy and negotiations are pointless, 
and force is the only way forward. Looking back at the past two 
decades and what the men and women of this Nation have had to 
endure as a result of multiple bloody wars, what would be your 
words of caution to those who are more willing to rush and 
engage in regime change?
    Secretary Mattis. I will just tell you, Congressman, that 
in over 14 months in the most sensitive meetings in the White 
House, at Foggy Bottom, State Department, Langley, and around 
the world with our commanders and allies, I have never found 
this thesis proposed, that negotiations and diplomacy are 
pointless.
    As you can see with what we have going on right now with 
North Korea, where we have a summit meeting coming up, the 
whole point all along was to drive this to a negotiated 
resolution that I am--obviously, we can't see the future, but 
we are all cautiously optimistic we may be on the right path 
for the denuclearization of the Korean Peninsula
    In Syria we are driving toward the Geneva process, and that 
again is the diplomatic outcome.
    So we have not seen this sort of approach, and I would 
reject it if I saw it.
    Mr. Carbajal. Thank you.
    General Dunford.
    General Dunford. Congressman, I guess just to reinforce the 
point you are making, there is no challenge that I can think of 
that we are dealing with right now that isn't--that doesn't 
have the lead of the State Department, and it is not primarily 
a diplomatic or an economic issue.
    There is a military dimension to our challenge in 
Afghanistan, there is a military dimension to our challenge in 
Syria, Iraq, Libya. You can name the crises that we are dealing 
with right now. But in no case, in no case was the Department 
of Defense actually in the lead in a final--in achieving a 
final political solution, which is the end state of all of 
those endeavors.
    Mr. Carbajal. Thank you very much. I think some of the 
tweets that come out of this administration sometimes speak to 
a different tone and are contradictory to what you just stated 
today. But really, really appreciate you. I think many of us in 
this country are so grateful that both of you are--or two of 
you of this administration are there. Thank you very much.
    Mr. Chair, I yield back.
    The Chairman. Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman.
    First of all, Secretary Mattis, thank you, and General 
Dunford and Mr. Norquist, thank you all for being here.
    Second, I noticed in your chart on the back the percent of 
defense to GDP, and I couldn't help but notice there is 3.1 
percent now. You go back to World War II and it was 35.5 
percent. The Korean War, which--I am assuming the 1950 period--
was 11.3 percent, I think. But I think that underscores your 
point about the cost of war is much more expensive than the 
cost of a military that is capable being able to prevent war. 
And I don't want to go back there. So I thank you for that 
chart, Secretary Mattis. I think that is very important for 
people to understand.
    I want to also commend you and the President on the team 
that you have assembled for our national defense. I think that 
is so important. We start with you, we have got our Joint 
Chiefs of Staff, all the members are--your secretaries of your 
services, all three are very, very impressive, very well 
knowledged, and very capable people. Our Deputy Secretary of 
Defense, Shanahan, what a phenomenal guy who brings so much to 
the table.
    And so I just want to thank you and the President for 
bringing a team of that level of talent that is solving our 
Nation's problems.
    Now I want to get into--this is for both you and Chairman 
Dunford. We do not--and the American people certainly do not--
want to see U.S. troops deployed indefinitely in an open-ended 
conflict in Syria. However, as the previous administration 
learned with Iraq, a hasty withdrawal of U.S. military 
personnel and security assistance can have very negative 
consequences, especially if they are on a timeline that is 
timeline-only driven.
    I--unfortunately or fortunately, whatever the case may be--
was there in 2009 during the drawdown, and got to see firsthand 
the effects as a battalion commander on the ground of going 
from [Camp] Taji being 17,000 soldiers, sailors, airmen, and 
Marines, and civilians, to going to probably 1,500 when I left, 
and even lower.
    So under what conditions would it be prudent for the U.S. 
to withdraw or remove our forces from Syria? What are we using 
as a catalyst to say we have achieved this objective, and this 
is when it will happen?
    Secretary Mattis. Basically, Congressman, we want to make 
certain that ISIS has been driven to its knees, you know, that 
they are no longer a concentrated threat with a geographic 
ground that they can use as a safe haven. I think we are well 
on the way there.
    As you can see right now, we have, due to the Turkey 
incursion, had a distracted partner force, and that has thrown 
us off in the last couple of weeks. But we are on the right 
track right now.
    The second point would be what was brought up earlier, and 
that is the diplomatic outcome, that we get Geneva underway. 
That--the U.N. special envoy, Staffan de Mistura, has got that 
responsibility. And so you have got the military security piece 
on the ground, which we are achieving, and then we are going to 
have to see the diplomats, the U.N. step up to address the 
political outcome. But that is where I see us going, sir.
    Mr. Kelly. Thank you, Mr. Secretary. And that is good to 
hear, because it needs to be objective-driven, not time-driven. 
And I really appreciate that. And I know you guys--like I said, 
I commented on the team, because I know we will make the right 
decision.
    Doesn't the State Department fund its stabilization 
activity--also alleviate strain on Syria's neighbors, like 
Israel and Jordan, that must deal immediately with the 
instability on the borders?
    Secretary Mattis. Absolutely, sir.
    Mr. Kelly. And then the final question I kind of just want 
to talk to both of you about is kind of a question, but kind of 
a comment.
    Our State Partnership Programs with the National Guards, 
the 50 National Guards, 54 States and territories that we have, 
those things are extremely effective, if we use. And I just 
encourage both General Dunford and you, Secretary Mattis, to do 
all we can to make sure we help our State Department with using 
those things. Sometimes they can do things that U.S. DOD or we, 
as a nation, can't do. But those at State and individual 
territories sometimes have a little more leverage to work with 
State to get us to some objectives. And if you have a comment 
on that--if you don't, I will yield back.
    Secretary Mattis. I think just that we are aligned with 
you. I think that, again, by, with, and through allies, plus 
there is the person-to-person connection between, you know, the 
guys from Tennessee and the guys from a country, or the guys 
from Montana and the guys from, you know, wherever they are 
serving. And when you start connecting like that, you get a 
more enduring, deeper relationship. And that has a lot to do 
with stability in the world and building trust, sir.
    Mr. Kelly. Well, thank you, Mr. Secretary. And you take 
care of my Mississippi Rifles, which are deploying to CENTCOM 
[U.S. Central Command] next year.
    Thank you, and I yield back.
    The Chairman. Mr. Suozzi.
    Mr. Suozzi. Thank you, Mr. Chairman.
    Gentlemen, thank you for your good and effective service.
    Secretary Mattis, I admire you for so many reasons, one of 
which is your candor. And I just want to bring up two issues 
that are incongruous with your leadership, one of which was 
brought up by Congresswoman Tsongas earlier today about the 
Defense Manpower Data Center scrubbing data regarding troop 
levels in Iraq, Afghanistan, and Syria. And you addressed that 
earlier. I just want to bring up that. You know, it just 
doesn't make any sense that we would not share that 
information.
    And I had written a letter to you back in January about the 
special inspector general's report on Afghan reconstruction, 
which is a report that has been issued for some time now. And 
it always had information regarding population and district 
control. And that information was originally listed as 
classified. In response to my letter, I was told that the 
decision to classify the data was an oversight by NATO Resolute 
Support.
    So I just want to point these two things out that--you 
know, we are watching these things, and it doesn't make sense 
in the context of your leadership.
    I have been digging in on the issue of Pakistan and 
Afghanistan. I read the book by Husain Haqqani about 
Magnificent Delusions. I read Steven Coll's book recently. I 
have been talking to Pakistani officials, certainly American 
officials as well, as to what is going on. And Pakistan claims 
that they have reduced the violence in their own country 
dramatically over the past several years, that they are 
starting to repopulate the ungoverned areas, and that they are 
starting to build a border fence along their border with 
Afghanistan, and that by 2022 they are going to have some 
substantial piece of it done.
    They are claiming that they need to see the same thing 
happen from the other side, from the Afghani side, to try and 
prevent this porous border from--people escaping from 
Afghanistan, going into Pakistan, finding a safe harbor, and 
then coming back into Afghanistan when they want to.
    Is there any discussion about border security from the 
Afghani side regarding this porous border? It is--I understand 
from reading and talking to people and having visited 
Afghanistan how difficult that is to do, and how expensive it 
would be to do. But it seems like it is a legitimate concern 
that if they are going to be doing it on the Pakistani side, we 
need to figure out how the Afghanis can be doing it on the 
Afghani side, as well.
    General Dunford. Congressman, I think I can answer that 
question. A few years ago we had a--what we call the trilateral 
border standard operating procedure between Afghanistan and 
Pakistan. And we, of course, served as the honest broker.
    For the last couple years what we have been trying to do is 
develop an effective bilateral border standard operating 
procedure between Afghanistan and Pakistan. And you have been a 
student of Pakistan, so you followed the fits and starts in 
their relationship, even over the last 2 or 3 years.
    So the short answer is both nations are looking at this 
issue, but not yet effectively have they looked at it in a 
bilateral way that allows them to make the compromises 
necessary to actually put in place effective border control. 
And I think you understand that the historical disagreement 
just about where Pakistan begins and ends and where Afghanistan 
begins and ends is at the root of the problem of establishing 
its bilateral SOP [standard operating procedure].
    There is a process that--the encouraging thing is there is 
a process between senior leaders in Pakistan and Afghanistan, 
both political leaders and military leaders, to work through 
this issue. That didn't exist 18 or 24 months ago. So there has 
been some progress in that regard and I can tell you--I think 
you visited as well--this is one of the things that General 
Nicholson certainly works very closely with both the Afghans 
and the Pakistanis to move forward.
    But again, the short answer is are there detailed plans 
that will be reconciled between Afghanistan and Pakistan? No. 
Is there a process in place right now to address the concerns 
of both Pakistan and Afghanistan, and develop a way ahead? Yes.
    Mr. Suozzi. So what can we do to facilitate that in the 
context of the tensions that are existing between our country 
and Pakistan right now?
    General Dunford. Well, that is a great question, because, 
you know, as you know, we have talked a lot about the military 
dimension of problems here today, and at the end of the day 
what is going to be necessary to have peace and stability in 
Afghanistan is going to be to have a good relationship with 
their neighbor, Pakistan.
    And I think this issue is going to be--have to be addressed 
in the context of reconciliation, and in the context of 
developing an effective relationship between the two countries.
    What can we do? That is what our State Department partners 
have to do, and it certainly--that is something General 
Nicholson is doing at the mil-to-mil relationship, as well. As 
you know, the Pakistani Army plays an outsized role in 
Pakistan.
    Mr. Suozzi. Yes.
    General Dunford. And so our military-to-military engagement 
is very important to be a foundational element of our 
diplomatic efforts.
    Mr. Suozzi. So again, I want to thank you very much. I want 
to continue to try and encourage the whole-of-government 
approach that we hear about all the time. I see the military 
has a very clear strategy in Afghanistan. I am concerned that 
the rest of the whole-of-government is more like a list of 
things that we do, as opposed to an overall strategy.
    But I yield back my time. Thank you very much.
    The Chairman. Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    Mr. Norquist, I don't have a question for you. But since 
the Marines are getting all the attention I just want to say we 
appreciate you being here.
    [Laughter.]
    Mr. Gallagher. Mr. Secretary and General Dunford, the 
President, as you know, has endorsed the need to revise the 
Committee on Foreign Investment in the United States [CFIUS] in 
general, and particularly the FIRRMA [Foreign Investment Risk 
Review Modernization Act] legislation in particular. Can you 
offer any concrete examples of why this legislation and this 
broader effort is important to the Department?
    And, in other words, what are the long-term consequences if 
China is allowed to continue to acquire our advanced 
technologies through investment and joint ventures?
    Secretary Mattis. Congressman, there are technologies we do 
not want to--for defense, for security reasons--to see in 
Chinese hands, American technologies, American businesses.
    We have got to bring CFIUS up to date. I think you saw on 
the 5G effort here some weeks ago that we moved swiftly, even 
in advance of what the process requires, in order to make 
certain that we did not naively watch a business linkup that 
was not in our best interest. But that was a one-shot effort. 
We need to look at the entire penetration of our society and 
what we need to protect, and CFIUS is a key part of this.
    Every democratic nation right now, by the way, that we deal 
with, from Germany to Australia, from Canada to the United 
Kingdom, they are all working this issue. And so this is not 
unique to us, but it is certainly one of our responsibilities.
    Mr. Gallagher. Thank you. And Australia in particular has 
been at the leading edge, in terms of trying to figure out how 
to deal with this level of influence.
    And I don't know, Mr. Chairman, if you had anything to add 
to that.
    General Dunford. The only thing I would say, Congressman, I 
mean, you zero in on--I would just say if someone asked me what 
are our competitive advantages, first and foremost, of course, 
is the quality of our people. But second is the technological 
edge that we have historically enjoyed over the past 20 or 30 
years.
    And this is nothing more and nothing less than putting at 
risk our ability to remain a technological edge over our 
potential adversaries. And the lifting of intellectual property 
in the manner in which China is doing that is actually 
undermining our ability to maintain a technological competitive 
advantage.
    Secretary Mattis. We are going to have to improve on the 
investment risk review process. That would be the specific area 
where the Congress could take some steps, and we would be happy 
to work with you alongside Commerce Department and Treasury 
Department in order to come up with the specific things we need 
to do to protect what we absolutely must hold on to.
    Mr. Gallagher. I appreciate that. In a related question, 
Mr. Secretary, should DOD permit equipment manufactured and 
maintained by companies linked to the Chinese military and 
intelligence services, like Huawei or ZTE, to be part of its 
supply chain?
    Secretary Mattis. I do not think that is wise.
    Mr. Gallagher. And in particular, should it be servicing 
key military installations in the United States or abroad, 
companies like that?
    Secretary Mattis. No.
    Mr. Gallagher. And are you comfortable with the--that the 
Department has the tools it needs to deal with the so-called 
white labeling problem, whereby a company like Huawei sells its 
equipment to a third party who simply rebrands it?
    Secretary Mattis. I think this is an area of needed 
attention to include saying we will not deal with white labels. 
We need to have--we need to know who we are buying from, 
Congressman.
    Mr. Gallagher. Thank you.
    And Mr. Chairman, I don't know if you have any similar 
concerns related to companies like Huawei or ZTE being part of 
a military supply chain.
    General Dunford. I have the same concerns, both here and 
abroad.
    Mr. Gallagher. Thank you. And quickly, with what remains of 
my time, we have seen multiple instances in the past year where 
the services have sought to be more guarded in their 
transparency and accessibility to the media, even at the 
unclassified level, particularly in guidance issued by the Navy 
and Air Force leadership.
    Now, as someone who is new to politics and often spends a 
lot of time dealing with the media, part of that is 
understandable. But I think transparency is needed now, more 
than ever. And I just was wondering, Mr. Secretary, is this 
media engagement posture downstream of guidance that was given 
to DOD at large issued by you or your staff?
    Secretary Mattis. That was issued by me. However, I said I 
want more engagement with the media. I want you to give your 
name. I don't want to read that somebody speaking on the 
condition of anonymity because they weren't authorized to 
speak. I have yet to tell anyone they are not authorized to 
speak. So if they are not willing to say they know about the 
issue and give their name, that would concern me. If they are 
giving background, they should just be a defense official 
giving background information authorized to give it.
    What I don't want is pre-decisional information or 
classified information or any information about upcoming 
military movements or operations, which is the normal ``loose 
lips sink ships'' kind of restriction. Pre-decisional, we do 
not close the President's decision-making maneuver space by 
saying things before the President has made a decision. But 
otherwise, I want more engagement with the military.
    And I don't want to see a--an increase opaqueness about 
what we are doing. We are already remote enough from the 
American people by our size and by our continued focus 
overseas. We need to be more engaged here at home.
    Mr. Gallagher. Thank you. My time has expired.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And to Secretary 
Mattis and General Dunford, thank you for your extraordinary 
service. I wanted to just associate myself very briefly with my 
colleagues who have made supportive comments regarding our 
transgender troops. I think the way we handle this issue 
certainly reflects our values, and it is an important one.
    I also wanted to just ask you for a moment about the 
authorization for the use of military force, or AUMF. As you 
know, the Armed Services Committee, unlike what most people 
think, doesn't take up this matter. It really aligns with 
Foreign Affairs. But to the extent that it would be helpful or 
hurtful for that dialogue, that debate to take place, could you 
respond in some ways?
    Perhaps you are agnostic to it, but on the other hand I am 
wondering where you would err on the side of trying to move 
forward with that.
    I think the concern is really around what kind of a 
comprehensive response we would have. It is not just that we 
would strike at this horrible time of attacks on the people, 
but where are we going with that, and what kind of language in 
an AUMF might be helpful to making certain that we are moving 
in a direction that perhaps doesn't repeat some of our mistakes 
of the past.
    Secretary Mattis. Congresswoman, I believe that what we 
have right now in terms of AUMF is sufficient legal authority.
    Now, why do I say that? Because I can show you where al-
Qaida that becomes al-Qaida in Iraq that becomes ISIS--I can 
show a continued thread all the way through. So, when you are 
up against an adversary, like we see with al-Nusra--al-Qaida in 
Syria that has changed its name yet again--we are up against 
groups that change their names very, very rapidly.
    So as we look at our legal structures, they have got to 
adapt to the reality of that enemy, in terms of associated 
movements. Now I have no reservations about reporting to you. 
We just found another one that we have got to go after, you 
know, the folks found they are ready to attack us, an ally, our 
embassy, whatever. So we would have to make certain that 
timelines were not addressed, other than in reporting 
requirements, and whatever you say on that we would be right 
back in here on time saying number of troops, operations, 
scope, and concept.
    I think geography, you would have to be very careful, 
because this adversary, as you know, uses every border because 
they think we respect the border and so they can get over the 
border and continue what they are doing. We cannot have an AUMF 
that would not take that into account, something which I--is 
one of the reasons we look at AUMF 2001 and 2003 as being 
sufficient.
    We also don't want to go for a new one and then find all of 
our detainee authority has now dissipated, we have got to start 
over in courts of law to try and protect ourselves from people 
that we have in our custody today.
    And so, if you keep the association, if you watch the 
timelines and say we are not going to put--you know, you have 
the power of the purse every year, so you really have the 
timeline authority now. And if we keep the geography, the 
borderlines, from inhibiting our operations and yet you oversee 
us so you are comfortable with what we are doing, then I think 
that is what we are looking for.
    But the spirit of Congress saying you are with us, would be 
very helpful. We think we have that right now with AUMFs. I 
understand and respect those who think that they are not 
sufficient.
    Mrs. Davis. General Dunford.
    General Dunford. You know, Congresswoman, I think I could 
only reinforce what the Secretary said. As I sit here thinking 
about the threat, and we are dealing with threats that are 
transregional threats, they don't--as the Secretary identified, 
they don't respect borders. And the time that some of these 
conflicts take is not predictable.
    And so what I would, I guess, ask for, regardless of the 
specific form, is I think there is three things that is--from a 
military perspective, you want to have. One is the full-
throated support of the American people, you know, through the 
Congress. You would want to have a framework that was flexible 
enough to address the geographical and time issues that the 
Secretary spoke about and that would allow you to actually be 
effective, from a military perspective. Those are--that is the 
criteria. And whatever form that takes politically I would 
support. But you would have to deliver those four things to us.
    Mrs. Davis. Thank you. I think I may have been hearing 
something slightly different coming from you, but I think I 
heard that on a positive way there is--could be something 
possibly that at least is broad enough and yet specific enough, 
I guess, those two things that are important.
    And helpful? Not helpful? Helpful if it is done right? And 
not so politicized. Is that--would sum up--okay, thank you.
    Secretary Mattis. Yes.
    Mrs. Davis. Thank you, Mr. Chairman.
    The Chairman. Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman, and thank you all for 
your service.
    While I fear it came at too high a price, I am very glad 
that we are giving you the resources and the tools to go and 
fight and win when necessary, and to ensure that you are 
supporting our diplomatic efforts appropriately.
    Chairman Dunford, you had made mention in your testimony 
that you saw Iran's malign influence extending through the 
Middle East, and I wanted to make sure that that wasn't an 
exclusive reference, and that we weren't merely viewing Iran as 
a regional hegemon, but as a potential global threat, as well.
    General Dunford. No, Congressman. I think it is fair to say 
that they are a potential global threat, and there is certainly 
some evidence of Hezbollah, as an example, in South America. 
But today we view that largely as a threat in the Middle East.
    I mean where we see Iran's malign influence manifest most 
is in places like Syria and places like Yemen and places like 
Lebanon and Iraq.
    Mr. Gaetz. Yes, and I am very interested in that nexus, 
wherein the Hezbollah activities in Latin America could be 
served to financing the operations that we are having to combat 
in the CENTCOM AOR [area of responsibility].
    Can you speak to this budget request's treatment of the 
Iranian-backed Hezbollah threat in Latin America? Because in 
prior briefings with other DOD officials there has been an 
appropriate focus on the CENTCOM AOR and on what we see going 
on on the Korean Peninsula, but I want to make sure that that 
threat you have just identified is well resourced in our 
strategy----
    General Dunford. Sure. And Congressman, to the theme, one 
of the themes that we have had today is that not all the 
problems can be solved in a military dimension. And when I look 
at transregional groups like Hezbollah, there is really three 
things they need to survive. You know, they need the people, 
the fighters; they need the resources; and then they have got a 
narrative, the message. That is what allows extremists to 
survive.
    And so, we can deal with the physical manifestation of 
Hezbollah in places like Syria or Yemen. We are not currently 
dealing with them right now, except in the diplomatic, economic 
space. But it is going to take a whole-of-government approach 
to deal with an organization like Hezbollah, particularly that 
operates transregionally.
    Mr. Gaetz. How does this budget request that we are 
evaluating at this hearing service that threat from the DOD 
standpoint?
    General Dunford. Yes, I don't--I can't--I will get back to 
you, Congressman, and see if there is a specific way to do 
that, other than the fact that we are increasing our overall 
capabilities in the U.S. military to deal with whatever threat 
we have to deal with.
    Mr. Gaetz. Yes, and I am most interested in determining 
whether or not we are engaged in an adequate train-and-equip 
mission, whether we are engaging in the right, you know, human 
activities from a DOD standpoint, because it is a difficult 
environment.
    So, Secretary Mattis----
    General Dunford. Okay, I better understand your question. I 
would say right now that supporting the independence and 
sovereignty of Iraq is one way to deal with malign influence 
in--Iranian malign influence in the region. Our support for the 
Lebanese Armed Forces is another way we deal with Iranian 
malign influence in the region----
    Mr. Gaetz. I speak specifically to the SOUTHCOM AOR, 
dealing with the threat there.
    General Dunford. Yes----
    Mr. Gaetz. So that is something we certainly can work on. 
And I am eager to see how the enhanced resources will be able 
to be directed to that threat that we face here, in our 
backyard.
    Secretary Mattis, I fear that when we look 50 years out we 
will not win wars with our near-peer adversaries based on our 
airframes alone, that we will require the most technically 
capable munitions and missiles and bombs in the world to be 
able to win. Can you speak to this budget request's treatment 
of our research and development assets and our goals to ensure 
that we are getting a good bang for the buck, but that we also 
have a diverse research and development mission underway?
    Secretary Mattis. Right. Up at Picatinny Arsenal and 
various other locations we are looking at advanced munitions, 
everything from rifle bullets to bombs to precision missiles.
    We have a newly energized, innovative effort, as you know, 
because we have received more money for innovation. I forget 
the specific addition, but it is significant, I will tell you. 
And in there is the necessity for identifying those kind of 
weapons, and not just hypersonics now, but the kind that allow 
us to go to the next level.
    Where will you find them? One of the primary efforts right 
now is in missile defense, for example. How do we take out 
missiles from the air, and do it a lot more cheaply than very 
expensive interceptor kill vehicles? We have got to find a 
cheaper way to do this against a growing threat. We don't want 
to break the budget all on missile defense, for example. So 
that would be one.
    We also have a number of naval weapons, from directed 
energy and others that we are putting money into, so that those 
are at the cutting edge and we are in the lead on those weapons 
systems if we have to employ them.
    So we can give you a more detailed lay-down of the various 
ordnance that we are looking at. Some of them are novel enough, 
they are not high explosive, they are that different. But we 
can give you a more wholesome readout, if you are interested in 
that.
    Mr. Gaetz. Yes.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our witnesses for your testimony today, and 
especially Secretary Mattis and General Dunford. Thank you for 
your service to the Nation.
    So we have this morning discussed the atrocities in Syria, 
we have touched on the controversy surrounding our southern 
border and the threats posed by North Korea at some point 
during these hearings. But one recurring issue that really is 
not defined by geographic location is malicious actors in 
cyberspace.
    Mr. Secretary or General Dunford, how should the Department 
of Defense be imposing higher costs on our adversaries who 
violate norms of state behavior using cyber means, particularly 
when those actions don't rise to the level of armed conflict? 
How does your budget request address the tradeoffs between 
building capacity and capability to counter these threats, and 
what metrics will we use to know if we get the balance right, 
going forward?
    Secretary Mattis. Congressman, this is a growing area. If 
we look at it 10 years ago, we wouldn't even be having this 
conversation. This is a dynamic threat that has grown.
    We do have a 7 percent increase in the budget for our cyber 
efforts, and you are aware that the Congress has directed us to 
look at separating Cyber Command and NSA without losing the 
synergy of those two organizations, as we expand not only the 
defense of our DOD networks and the offense capability, but 
also what we call DTN, defend the Nation, which is led by 
Secretary Kirstjen Nielsen at DHS [Department of Homeland 
Security]. But we at DOD have the bulk of the capability for 
this.
    So what we are doing about it is we are creating offensive 
plans. I won't go into detail about them, but you can imagine 
what they look like. We also are increasing our defenses 
internally.
    The challenge is when we go to the defend the Nation 
effort, we are going to have to have agreements and authorities 
on what DOD does inside our own country, because while we may 
have a lot of the capability, generally speaking we have 
concentrated, you know, obviously, outside the Nation. That has 
been our responsibility.
    So we have got to gather right now a cyber strategy in 
support of DHS that is in Secretary Nielsen's hand, and she has 
that available. That is only the first step, I might add. We 
are going to have to refine it for this when she gets done 
defining the problems we didn't address in what we submitted to 
her. And we will keep working it forward on the DTN effort.
    Internally, we will be going to the cloud. We have a fair 
and open competition going on, and we have examined what CIA 
achieved in terms of availability of data and using data, but 
also security of their systems. And it is very impressive.
    So those are just a couple of things we are doing right 
now, sir.
    Mr. Langevin. Thank you. Well, I am going to be following 
this very closely. I think it is important that we do impose 
costs on those nations that are using cyber tools and, again, 
doing things that don't rise to the level of armed conflict, 
but we need to have a strong offense here to deter them, I 
believe.
    Secretary, the fiscal year 2019 budget request includes 
more than--more RDT&E [research, development, test, and 
evaluation] funding, particularly for prototyping. So I know we 
touched on some of these this morning, but I will again raise 
this.
    So what advances can we expect to see from this increase in 
prototyping, in terms of bringing technologies into the field 
that leverage prior investments or recent commercial technical 
advancements?
    And how does the RDT&E portion of the fiscal year 2019 
budget request reflect investments in technical advancements to 
both enhance current military capabilities and also invest in 
emerging ideas like quantum computing, robotics, and 
hypersonics to build a foundation for future warfighting 
capabilities?
    Secretary Mattis. Right. Congressman, Secretary Carter, my 
predecessor, set up DIUx [Defense Innovation Unit-Experimental] 
out in Silicon Valley for a reason, and we have embraced it and 
actually strengthened it.
    We are looking to prioritize these various efforts due to 
the Congress that broke our acquisition, technology, and 
logistics undersecretariat into two parts. One is acquisition 
and sustainment, the other is research and engineering. We have 
brought in varsity-level players there, and defense test and 
evaluation, and we are going to move things into production, 
prototyping. We are not going to have more papers, we are going 
to move on hypersonics, move on AI.
    What do I mean by move? Joint program officers, not a bunch 
of different organizations all feeling their way forward.
    And you just listed in the list you gave me--just in the 
question, you just listed exactly where we are going. And we 
can give you a brief on this, sir, but I have got a varsity-
level player in--as the Under Secretary of Research and 
Engineering with NASA background, DOD background, Lincoln Labs. 
He has really got what he needs, in terms of experience, to 
drive this forward, not for theory, not for experiments, but 
putting something out for test and moving it into a capability.
    Mr. Langevin. Well, we sure look forward to seeing the 
results of that work. Thank you.
    Mr. Chairman, I yield back.
    Secretary Mattis. Yes, sir.
    The Chairman. Ms. Cheney.
    Ms. Cheney. Thank you, Mr. Chairman, and thank you, all 
three of you, for being here today. I am proud that, as we meet 
today, we have taken the first steps in providing the resources 
necessary to begin the rebuild. I think that there are many of 
us who were very frustrated and opposed a lot of the domestic 
spending in the omnibus, but made the decision that our own 
dysfunction here as an entity, as a Congress, shouldn't be--the 
cost of that shouldn't be borne by our men and women in uniform 
and their families. And so we will continue certainly to help 
fight to make sure we get those resources necessary in the out-
years, as well.
    Mr. Secretary, I have a Syria question for you. We lost 
significant credibility and deterrence capability when we 
failed to enforce the red line with respect to Assad's use of 
chemical weapons in 2013. Could you talk about how we get that 
back?
    Secretary Mattis. Congresswoman Cheney, I think the first 
point about red lines is you don't draw them unless you intend 
to live up to them. And we don't always even have to draw them, 
and we can speak with our actions. And you saw us do that just 
slightly over a year ago, when the Syrian Government, with 
either Russian complicity or incompetence, carried out a sarin 
gas attack, and we took out 17 percent of their air force as a 
caution to them that that was unwise.
    I am not sure they have learned their lesson, but I think 
in this case actions speak louder than words. There are times 
to draw a red line, and there is times to leave some ambiguity 
and speak with your actions. And I think that is what we are 
doing right now to address the question you brought up.
    Ms. Cheney. Thank you, Mr. Secretary. And I think, 
obviously, the concern is that we won't be able to be an 
effective deterrence against the future use of chemical 
weapons, for example, if we fail to take action once again.
    With respect to North Korea, we have seen historically, 
time and time again, as we have discussed, the North Koreans 
follow the same game plan, where they create a crisis, come to 
the table, offer concessions, pocket benefits that we give 
them, and then continue down the path of developing their 
weapons.
    I saw on both Chairman Dunford and Secretary Mattis's 
testimony, I think, the phrase ``cautious optimism'' about 
where we are.
    I wonder, Secretary Mattis, first, if you could talk about 
how we are going to guard against a situation where the North 
Koreans do exactly that again.
    Secretary Mattis. Right. As you know, Congresswoman, right 
now or today nominee Pompeo is going through his hearing for 
confirmation over on the Senate side. And I will tell you that 
in talking with him, he has studied all those past occasions of 
negotiation failed, of documents signed and then not carried 
through. And I think we have someone who will, with the consent 
of the Senate, be in position to guide us in a very mature way 
to not walk into the same trap again.
    Ms. Cheney. And then, Chairman Dunford, could you address 
the issue of the notion that there is significant risk 
involved, as we have also discussed, as you have testified 
before, with the potential for having to take military action 
on the Korean Peninsula?
    I am concerned that we have not seen the same level of 
focus and attention and reporting, frankly, about the risk 
involved in a nuclear-armed North Korea, and the risk involved 
with--you know, even if we creep into a policy of deterrence 
here, instead of complete and verifiable elimination of their 
nuclear capability, would you please address the risks of a 
nuclear-armed North Korea?
    General Dunford. Sure, Congresswoman Cheney. I think, first 
and foremost, I just want to add a point to the earlier 
question, which is nothing has changed in the military 
dimension of the diplomatic and economic pressure campaign. So 
one of the lessons in the past, I think, we have made 
adjustments on our military posture where we have changed 
things that we were doing. We have made no changes in that 
regard.
    And with regard to a nuclear North Korea, I think there is 
two issues. There is a capability piece and then there is a 
capacity piece. And at some point the capabilities that can be 
developed can overcome our defenses, or the numbers of missiles 
that North Korea can overcome our defenses.
    So today I think I can say with confidence that we can 
defend against the capability that North Korea has today, the 
specific capabilities, and the numbers of missiles that they 
can field that can reach the United States. We could never deal 
with--we could never create a defense against a growing serial 
production missile capability by the North Koreans. So the 
North Koreans would be able to hold us at risk, were they to go 
into serial production with the numbers of missiles that would 
exceed our ability to defend.
    And again, the equation can never be you can never afford 
to defend your way out of something that--if people are serious 
about building offensive capability.
    Ms. Cheney. Thank you. I have additional questions, but 
will have to--I have to yield back. Thank you.
    The Chairman. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. Gentlemen, you have 
answered questions that have taken us around the world. I would 
like to come back home regarding the National Guard deployment 
to our southern border at the direction of the President.
    In 2012 there was a GAO [U.S. Government Accountability 
Office] report, and this report was conducted at the direction 
of Congress. And I think it was motivated by--in large part, by 
the number of National Guard deployments by various 
administrations, but more recently at that time by President 
Bush's administration's decision to deploy, I think, 4,000 to 
6,000 guardsmen for almost 2 years at the cost of close to $2 
billion.
    And the GAO report found that--and they were concerned with 
a lack of a comprehensive, long-term strategy for the southern 
border. In fact--and I will read--in the report it said, ``DOD 
officials expressed concerns about the absence of a 
comprehensive strategy for southwest border security, and the 
resulting challenges to identify and plan a DOD role. DHS 
officials expressed concerns that DOD's border assistance is ad 
hoc, and that DOD has other operational requirements.''
    And in light of the President's public comment, where he 
suggested that the National Guard would be deployed until such 
time that a wall is built, I have concerns, and could you 
please address what comprehensive, long-term strategy is either 
present or in development to frame the National Guard's 
involvement on the southern border?
    Secretary Mattis. Congressman, I read that 2012 report a 
little over a year ago, when I was getting ready for the job 
here, and took it on board as I thought my way through what has 
come up more recently.
    I think the priority that President Trump has placed on the 
southern border and Secretary Nielsen's--what she has put 
together for a comprehensive plan is sound. Now, I have not 
read all of it, I have read enough of it to know what I needed 
to do to put these 4,000--up to 4,000 down there until the 
first of October in a non-law-enforcement, no contact with the 
migrants, position to support DHS. They are under the 
Governor's command and control.
    Mr. Brown. If I could just jump in, though, Mr. Secretary, 
I mean, I am assuming that what you just said was probably what 
was in place when President Obama and President Bush asked the 
Guard--directed the Guard to go to the border. The GAO found 
that there was not a comprehensive strategy.
    So I guess my question is, is there a comprehensive 
strategy that clearly defines the role of the DOD, the National 
Guard in these operations, an operation that may be a very long 
time in this scenario?
    Secretary Mattis. What we have going on right now, sir, is 
to back up the Department of Homeland Security, the Customs and 
Border Patrol troops who are down--or Guards who are down are 
not troops. The Guards who are down there, this is the time of 
year when you will see generally an uptick. This is an 
anticipatory backing up so that the Customs and Border Patrol 
can put more troops in the field.
    As far as the larger issue on the strategy, that is rightly 
under Department of Homeland Security, and you would have to--
--
    Mr. Brown. Well, I am going to--let me just jump back in 
here, Mr. Secretary, because the GAO report looked at both the 
DHS and DOD.
    Secretary Mattis. Right.
    Mr. Brown. DHS said it is ad hoc. DOD said, we are 
concerned because there needs to be a comprehensive, long-term 
strategy that outlines the role. This is a potential--a 
deployment that may potentially last for years, given the 
statement of the Commander in Chief that their presence may be 
there until such time that a wall is built.
    So again, I mean, you may not have time to fully answer the 
question today, and I will follow up with a correspondence to 
your office, but I would like to have a little bit more detail 
about a comprehensive, long-term strategy for a DOD role to 
support DHS. Because I assume that you do that in partnership 
with the DHS, but they are not going to do it in a vacuum.
    Secretary Mattis. Right. But right now, Congressman, this 
is not a long-term deployment-- the President says if the wall 
gets built, that is one thing. Does Secretary Nielsen--does she 
need this reinforcement? That is a second point. It is to buy 
time. It is under the defense support to civil authority's 
authority, and we have limited it, both in numbers, and we have 
limited it in location. She has given us priority areas, 
sectors they are called, where they are working.
    So this is a short-term--this is not a long-term strategy. 
This is a buying-time effort.
    Mr. Brown. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Chairman Mac Thornberry, for your 
diligence covering the fiscal year 2019 National Defense 
Authorization Act, and thank you for your extraordinary success 
in rebuilding the American military.
    The spectrum of our current world threats are becoming 
increasingly challenging, from terrorism in Iraq, Syria, 
Afghanistan, and Africa to the radicalism of Iran and North 
Korea and the competition with Russia and China, our military 
has more broader focus than ever before.
    As the Readiness Subcommittee chair, I am particularly 
grateful as a military dad who has had four sons serve in Iraq 
under your leadership--and Egypt and Afghanistan--I appreciate 
the challenges our Department of Defense faces, and I would 
like to thank you both for your service and commitment to our 
country as you manage all the key issues I have identified.
    Additionally, as a veteran myself and a military parent, I 
would like to thank all of you for your support of the budget 
agreement that finally puts our military on the path to 
addressing readiness shortfalls.
    And for each of you, a--I am really very supportive of 
President Trump's initiatives to provide funding for the 
European Deterrence Initiative. I believe that this funding 
goes a long way in deterring Putin's increasingly aggressive 
activities in the region.
    One concern I have is--with the EDI, is our ability to 
transport troops and supporting resources across Europe. Are 
there ongoing efforts within European Command to improve 
mobility throughout the region?
    As to infrastructure, and additionally as to border 
crossings, do you share the concern that I have, if something 
happens in Europe, that we may not be able to effectively 
respond in time?
    And is this a readiness concern? For each of you.
    Secretary Mattis. It is a readiness concern for the U.S. 
military, but for all of NATO's military. Right now you can 
drive hazardous cargo from southern Italy all the way to 
Finland faster than we can move some of our troops across some 
of those borders, due to different bridge capacities, 
authorities, legal restrictions, this sort of thing.
    In one area that we have found we can work with the 
European Union on security in Europe, they are working on what 
is called military mobility across their borders. And that is 
underway right now. It is called PESCO [Permanent Structured 
Cooperation]. It is--the acronym for it. And NATO is working 
closely with the European Union to remove the very obstacles 
that are inhibiting our movement of forces.
    Mr. Wilson. And General, did you have a--about the 
infrastructure? What is the status of improving infrastructure?
    General Dunford. Congressman, that is one of the three 
elements of the EDI for this year, is infrastructure. It is 
infrastructure, pre-position equipment, and exercises.
    Mr. Wilson. Well, I want to thank both of you. And Mr. 
Secretary, as the co-chairman of the European Union Caucus, I 
am certainly going to relay your information immediately, and 
thank them for their efforts to provide particularly expedited 
border crossing.
    And additionally for General Dunford, we have heard that 
the force is strained, as services continue to do more with 
less. What is your assessment of the current state of force? 
What is the greatest strain on the joint force? And how is it 
being mitigated? What is your assessment of the military risk?
    General Dunford. Sure, Congressman. First, I will start 
with the people. I think we are recruiting and retaining high-
quality people.
    And then I will go to the operational tempo, which is 
causing us to be away more than we would like. And we talked 
about rebuilding some of our capabilities, so we need to do 
that.
    And then the third element that it--I would point out is 
material readiness, which this budget really is designed to 
address and build on the efforts of 2017 and 2018 to get after 
some of those material shortfalls, readiness challenges that we 
spoke about.
    Mr. Wilson. And as--I am really grateful--recruiting 
extraordinary people. I want to show you, as I previously 
represented Parris Island. And to see the young people serving 
there, it was just heartwarming. And now I continue to 
represent Fort Jackson, where I--Secretary Mattis, you would be 
so grateful to see these new recruits coming in, and how much 
that means to our country.
    And General, a final question, and that is could you 
provide an unclassified characterization of the annual 
Chairman's Risk Assessment to Congress, discuss the strategic 
risk and military risk, and what is your assessment of each?
    General Dunford. Congressman, I would like to do what I did 
last year, is to come in in a closed session with all the 
Members and outline the risk assessment.
    We asked for your permission to delay it this year, and I 
appreciate the opportunity to do that. And the reason is that I 
finished it in January, but the Secretary wrote a new National 
Defense Strategy, and so the risk assessment that I will come 
back to you with in the fall is going to be specifically 
benchmarked against the National Defense Strategy the Secretary 
has published, as well as the revised National Military 
Strategy.
    Mr. Wilson. Well, thank you. And your service to our 
country is reassuring. Thank you.
    The Chairman. Mr. Panetta.
    Mr. Panetta. Thank you, Mr. Chairman.
    Gentlemen, all three of you, thank you very much for your 
time, for waiting out until you get to the last few 
questioners. So thank you very much.
    Secretary Mattis, I just wanted to direct your attention to 
one of your quotes in last year's NDAA fiscal year 2018: ``It 
is appropriate for the combatant commands to incorporate 
drivers of instability that impact the security environment and 
their areas into their planning.'' You also say, ``I agree that 
the effects of a changing climate, such as increased maritime 
access to the Arctic, rising sea levels, desertification, among 
others impact our security situation.''
    Next, Chairman Dunford, you then give a quote saying, ``It 
is a question, once again, of being forward deployed, forward 
engaged, and be in a position to respond to the kinds of 
natural disasters that I think we see as a second or third-
order effect of climate change.''
    Then subsequent to that there are a number of other 
quotes--the one from Defense Secretary Gates, ODNI [Office of 
the Director of National Intelligence], and so forth. And all 
that leads up to the sense of Congress quote, which says that 
it is a sense of Congress that ``climate change is a direct 
threat to the national security of the United States and is 
impacting stability in areas of the world, both where the 
United States Armed Forces are operating today, and where 
strategic implications for future conflict exist.''
    Presidents Bush and Obama, in their National Defense 
Strategies, recognized climate change as a threat to our 
national security. But unfortunately, this National Defense 
Strategy under President Trump did not.
    A couple questions to you. One, do you agree that--with 
that sense of Congress in last year's NDAA? Would you like to 
see the same sense in this year's NDAA? And if so, why wasn't 
it addressed in our National Defense Strategy?
    Secretary Mattis. Well, I can take that one, Congressman. I 
think that when you see us dealing by, with, and through 
allies, you recognize the local nature of much of what happens 
in the world that eventually impacts America.
    So what we do is we go in and we sometimes call it ``take 
three cups of tea.'' We start by listening when we go in. We 
don't go in and start solving their problems. We want to go and 
listen to what they have got going on. We look at security 
issues to include the--what I would call the physical 
environment. I mean that is part of it, and why are people 
going hungry and turning to violent extremists as the only 
solution, this sort of thing. And we have seen this--that very 
thing happen.
    So we do not sense that we are somehow, by going--by 
talking about the root causes, that we are unable to deal with 
the local conditions as we engage with each of these countries.
    I wanted to trim it down and get everyone focused on three 
things I think 5 to 7 years from now that are still going to be 
focused on, and that is a lethal force so our adversaries take 
note; by, with, and through allies, build more partnerships, 
don't just take the traditional ones, build more; and then, of 
course, the business practices.
    That second one is all about dealing with the real world as 
it exists, and standing with our allies. So I--if I would put 
in all the root causes, I would have made it a pretty long 
document, sir.
    Mr. Panetta. General Dunford.
    General Dunford. Congressman, my position, as I articulated 
earlier, hasn't changed. And actually, the military role is 
dealing with the effects, the outcome of natural disasters. 
That is still something we have the capability to do, and we 
use that, we use our support and humanitarian disaster relief 
to foster those relationships that the Secretary just spoke 
about.
    Mr. Panetta. Great. And gentlemen, would you agree that we 
should be addressing that in the upcoming NDAA, this issue, 
with the same intent, same sense about climate change and how 
it affects our national security?
    Secretary Mattis. Sir, when we look at what the outcome is, 
what we have to deal with, the origins of it, I think, are 
largely issues that are dealt with through diplomacy.
    We need to have foreign policy guided by diplomats and 
buttressed, backed up, supported by militaries. And militaries 
need to stay focused in their lane. That doesn't mean we can't 
address these situations, the outcomes. But I think that the--
it is best addressed by the USAID, Agency for International 
Development people, the State Department, the ones who actually 
set our foreign policy there, so we are working for a purpose, 
and that purpose is established by the President or the State 
Department.
    Mr. Panetta. Okay, thank you. I yield back.
    The Chairman. Chairman Bishop.
    Mr. Bishop. Thank you very much.
    Gentlemen, we are proud of what you do. I was here for your 
opening statements, and in the meantime I have gone to two 
hearings, fixed three amendments, and did a fundraiser, and you 
are still sitting here.
    [Laughter.]
    Mr. Bishop. So obviously, your training in the military has 
given you patience and stamina matched only by Chairman 
Thornberry, as well. So thank you for that.
    Look, I have a quick question. If this has already been 
asked and answered, you can stop me at any time.
    But in light of the National Defense Strategy, what is DOD 
doing differently to counter the destabilizing activities of 
Iran in that region?
    Secretary Mattis. Congressman, we are looking at Iran very 
holistically right now, and we are looking at the nuclear 
weapons program. As you know, the JCPOA is being reviewed. We 
are looking at their counter-maritime effort, where our 5th 
Fleet, U.S. fleet, actually draws together nations from--
between 25 and 35 nations to do counter-mine exercises. So we 
send a--it is not just a naval message, it is also a diplomatic 
message that don't try this, nations from all around the world 
are going to show up and sweep the mines if you try to do it.
    We are working with our partners in the area to counter 
their terrorist activities, and those go from Yemen and Syria, 
their militia there in Lebanon, to Bahrain and the mischief 
they are up to there.
    We are also addressing their cyber efforts, working with 
other partners in the region to make them more resistant. And 
we are dealing with the missile program through foreign 
military sales and integration of our allies in the region and 
their ballistic missile defense capability.
    Mr. Bishop. Close to that, I mean, one of the problems Iran 
is doing is their illicit sales of advanced conventional 
weapons to their partners. What are we doing specifically to 
try and counter those illegal transfers?
    Secretary Mattis. Right. You are absolutely right, 
Congressman. And out here at Bolling Air Force Base--I invite 
you all to come out and see it--is a display that is laying out 
the debris and the evidence of the advanced weapons that Iran 
is shipping out to other countries. They are a threat, 
obviously, to Europe. They are a threat to Saudi Arabia, being 
fired out of Yemen right now. They are a threat to Israel, they 
are a threat to our forces in the area, and our partners.
    So we are exposing this out here at Bolling. We have had 
over 70 nations, ambassadors either to the United Nations or to 
Washington, their defense attaches come out and look at it, and 
we are going to continue to display everything that we can show 
the world, as far as what kind of murderous intent they are up 
to in that region.
    Mr. Bishop. I appreciate those are great answers. One of 
the things that you did very well is coming up with a coalition 
to fight ISIS in both Syria and Iraq. Do we have that same 
commitment, or do we--or why do we not have that same 
commitment in trying to confront the Iranian destabilizing 
efforts in the region?
    Secretary Mattis. Congressman, I think over the years there 
have been efforts to try to guide Iran back to a more 
responsible stance. Those have been probably unavailing, if we 
were to sum it up in one word.
    But, as a result, with ISIS we were all focused on 
destroying it. I think there was a lot of effort over the years 
to see if Iran would want to cease being, at least in terms of 
its leadership, a revolutionary cause and join the responsible 
nations. From all indications, they have declined that option.
    And so we are probably going to have to deal with them in 
terms of diplomatic and economic and security issues that are 
going to have to be addressed.
    Mr. Bishop. Gentlemen, thank you. Thank you for your 
service and for your answers. I appreciate it.
    I yield back.
    The Chairman. Mrs. Murphy.
    Mrs. Murphy. Thank you, Mr. Chairman. It looks like I am 
the last woman standing on this side. But thank you all for 
being here today, and for your patience.
    You know, as you know, the National Defense Strategy 
concludes that the inter-state strategic competition is--not 
terrorism--is the main, primary concern in the U.S.--in U.S. 
national security. And while I agree the Department must focus 
more on countering the growing threats from Russia and China, I 
represent a district in Central Florida that was significantly 
impacted by terrorism.
    In June 2016, a gunman who swore allegiance to ISIS walked 
into a Pulse nightclub in Orlando, and killed and wounded over 
100 people. It was the deadliest terrorist attack in the United 
States since September 11th. Unfortunately, the Pulse nightclub 
shooting serves as a tragic reminder that the violence--that 
violence motivated by ideological extremism is an enduring 
threat to our security at home and abroad.
    How do you think the Department should posture itself to 
continue to be able to protect the homeland against imminent 
threats from terrorism, while also addressing this transition 
to an inter-state, strategic competition in the long term?
    Secretary Mattis. You are hitting at the very heart of what 
we had to balance as we changed to a dynamic threat envelope, 
as we saw it expanding in the great power competition.
    What we decided was we had to have a problem statement. The 
problem statement is, Congresswoman, that we are going to have 
to maintain an effective and safe nuclear deterrent so those 
weapons are never used, a decisive conventional force that has 
irregular warfare capability. And therein lies the capability 
that goes to the heart of your concern. Because if we don't go 
after this adversary overseas, if we give them safe havens, 
allow them to recruit, allow them to raise funds, then we are 
going to see it in your district and more here at home. We do 
this by, with, and through allies.
    For example, every week the chairman reports to me how many 
American troops do we have in the Sahel, where the French have 
4,000. We are supporting them as they help the African nations 
fight Boko Haram and this sort of thing, which is an al-Qaida 
affiliate.
    We are going to continue with that sort of by, with, and 
through our allies, whether it be in the Philippines or in 
Afghanistan, around the world, as we keep this adversary off 
balance. We recognize that violent extremists haven't suddenly 
decided to become responsible actors and cease their murder.
    Mrs. Murphy. Thank you. And, you know, to that end, when 
you talk about by, with, and through, there is a huge component 
of that that requires diplomacy and the role of diplomats. And 
you just said, just a few questions back, that you believe 
diplomats should handle diplomacy buttressed by military 
capabilities.
    You are often quoted having said that if you don't fund the 
State Department more fully, then you will need to buy more 
ammunition, ultimately. And the more that we put into the State 
Department's diplomacy, hopefully the less we will have to put 
into our military budget. And yet we have seen a significant 
increase in defense funding at the same time as a dramatic 
attrition in the State Department.
    What policies do you think Congress should pursue to 
prevent the dissipation of American soft power, as well as sort 
of the erosion of this concept that diplomats can lead with a 
military that supports when they are so sorely underfunded?
    Secretary Mattis. Ma'am, I am probably the wrong person to 
talk with about that, because I just don't have any visibility 
or--I don't deal with that issue. I have got a pretty full 
portfolio, as you understand.
    However, I will tell you that my first stop in every 
foreign country I go into is our ambassador, often--right now 
it has been a charge d'affaires. And these foreign service 
officers that I see out there, the ambassadors and the foreign 
service officers of 10, 15, 20 years experience filling these 
leadership positions, they are clearly at the top of their 
game, they are varsity players. And I think right now we are 
very well represented.
    Now, that is not to address the details of your question. I 
just don't feel confident to do so in an authoritative way.
    Mrs. Murphy. Well, I agree with you, that the career civil 
servants that are on the front lines in our embassies are very 
qualified.
    I think my concern a bit, too, is that some of the 
leadership changes over at the State Department, as well as 
resources. As you know----
    Secretary Mattis. Yes.
    Mrs. Murphy [continuing]. Resources enable organizations to 
move forward. And so it--while you don't have purview over 
that, certainly, as you have stated, it has a significant 
impact on your mission and how you carry out your mission.
    Let me just move to one other thing before I run out of 
time. You know, earlier this year my colleagues and I were 
really shocked to learn that Dr. Victor Cha was removed from 
consideration as ambassador to South Korea after he shared his 
objection to the bloody nose strategy against North Korea with 
administration officials. I felt Dr. Cha was [an] extremely 
qualified candidate for this position, and it is unimaginable 
that the Trump administration removed Dr. Cha from 
consideration because of his opposition to such a strike.
    Secretary Mattis, earlier this year you identified North 
Korea as an international threat and said, you know, ``Our 
response to this threat remains diplomacy-led, backed up with 
military options available to ensure that our diplomats are 
understood to be speaking from a position of strength.''
    As you know, the administration still hasn't appointed a 
U.S. ambassador to South Korea, and we are over 16 months into 
this Presidency. How does the lack of an ambassador to South 
Korea complicate our bilateral security relationship with the 
Republic of Korea [ROK], particularly at a time when war with 
North Korea remains a dangerous possibility?
    Secretary Mattis. I have not seen that yet, Congresswoman. 
I have been to Korea, as you know, and our charge there seems 
to have it--you know, he is connected to everyone, he has full 
access--as you know, the ROK is a uniquely willing and capable 
ally, too. So it is probably a lot to do with their willingness 
to deal with him.
    But I would tell you, too, that you see the summit that is 
coming up now, based on the pressure campaign. As President 
Moon of the Republic of Korea put it, he believes the pressure 
campaign is what has brought North Korea to the table. And so 
we are now seeing a degree of willingness to engage--again, 
only cautious optimism, but the diplomacy is clearly in the 
lead.
    Mrs. Murphy. Great. Thank you, Secretary Mattis and Mr. 
Chairman.
    The Chairman. Mr. Turner.
    Mr. Turner. Mr. Secretary, in your opening comments you 
stated about the importance of our allies. And I want to thank 
you for your work to both assure our allies and to work closely 
with our allies.
    I chaired the Air and Land Subcommittee, and I also have 
the--I am the head of the U.S. delegation to the NATO 
Parliamentary Assembly. And I can tell you that your 
leadership, as I am certain you are aware, makes a big 
difference with respect to our allies, both your 
professionalism, your history, your prior work.
    I have two questions for you about the F-35, and with 
respect to our allies. Last night I had dinner with the 
Minister of Defense from the Netherlands at the--with the 
ambassador. And they spoke, again, very highly of the time that 
they had spent with you. Thank you for the attention that you--
with all the things that you have, the attention that you do 
give our allies, because you do give them those assurances.
    We spoke about the F-35 and our allied partners, our NATO 
partners, more specifically, who are participating in that.
    We shared the concern about--as we go to the next phase of 
the F-35 on dual-capable aircraft, that we need our allies to 
participate in the F-35 program fully, so that our NATO 
mission, maintaining NATO as a nuclear mission, is realized.
    We are all concerned about the Belgians' upcoming decision, 
and I wanted you to speak for a moment about the importance of 
our allied partners, especially on the dual-capable aircraft 
side, because we don't want that mission to diminish at all.
    And then, also, if you could speak about the issue with 
Turkey and the Russian air missile defense system--of course 
being another F-35 partner--I think we are all concerned about 
what we should be doing, perhaps more, to try to diminish the 
military cooperation between Turkey and Russia, and ensure that 
the United States has a strong partnership with Turkey on a 
military basis.
    Secretary Mattis. Congressman, on the dual-capable aircraft 
in Europe, NATO is a nuclear-armed military alliance, and that 
means that NATO nations have got to be--they have to have in 
their inventory dual-capable aircraft that are capable of 
carrying the nuclear weapons, because the deterrent only works 
if it can be employed. And hopefully never to be employed, but 
the need is for dual-capable aircraft. The F-35 will be dual-
capable, hence why we support allowing our allies to buy that 
superb aircraft.
    So it is necessary. And I think, by and large, it is fully 
embraced, this mission is fully embraced. The Nuclear Posture 
Review, when I brought it forward at a Brussels ministerial, 
Congressman, was fully accepted. I didn't run into any 
pushback, I think partly because we took them onboard early and 
allowed them to have reviews of it and give input for it, 
knowing the leadership role the Americans have, but it is an 
alliance of democratic partners.
    On Turkey and Russia----
    Mr. Turner. Mr. Secretary, before you get to Turkey,
    I just--I do hope that you underscore with our allies the 
importance of their participation in the F-35 to maintain that 
dual-capable mission, because I think there may be some 
misunderstanding as to the--their options of participating in 
that mission, separate from the F-35. And I think we are--we 
have it fairly clear that it both affects ours and their 
participation.
    Secretary Mattis. Well, thank you. And I am on my way to 
Brussels in a month. I will make certain I do that in person. I 
appreciate that.
    On Turkey purchasing the Russian missile defense system, 
Turkey is a NATO ally. Once we bring a system like that in, we 
know right away it is incompatible with the rest of the NATO 
defenses, by its very nature.
    Furthermore, there are two NATO nations that provide 
missile defense to Turkey now using NATO-approved systems, two 
other nations.
    So now what you are talking about doing is putting into the 
same area incompatible missile defense systems, and this is 
hardly something that is in NATO's best interest. So we do not 
recommend it. We have been engaging with Turkey on this to 
include providing them foreign military sales options that 
would permit them to have NATO-compatible systems.
    Mr. Turner. Thank you, Mr. Secretary.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman, and thank you for your 
service and for your attendance today.
    General Mattis, I look forward to receiving the two reports 
that we called for last year in the NDAA on space reform.
    But as you know, we--from our previous conversation, you 
are acutely aware that we find ourselves now in a situation 
where our two primary strategic competitors, Russia and China, 
have become our peers in space, and our--and in fact, 
challenging our superiority in that warfighting domain.
    As you also know, this committee and this House called for 
the establishment of a space corps to more aggressively pursue 
that problem. And last month the President announced his 
support for a space force.
    Now my question. While we are still waiting on those 
reports, do you have a viable alternative to the space force 
the President has called for, and that this committee has 
called for?
    Secretary Mattis. So we have to define this problem, not 
just the space focus of a force, but also from acquisition to 
employment, from coordination to innovation for future, all 
those things that go with it.
    If a space force is the right thing to do, I have no 
reservations about it. But I don't want to stand up in DOD, 
which is an enormous bureaucracy and has many sub-
bureaucracies, another bureaucracy, as if that will be the 
solution.
    If it is the solution, then we will go there. But I believe 
right now what we are looking at is a warfighting domain. And 
when I look at the Pacific domain, or I look at the cyber 
domain, I look for combatant commanders of those. I don't set 
up a Pacific army in the sense--a new military force. It draws 
from all the joint force.
    So I am open on this. I will tell you I did not recognize 
the degree of the problem when I went through confirmation. And 
what you and your colleague have done have brought it to our 
attention. It is a primary focus of the Deputy Secretary of 
Defense, Pat Shanahan, my deputy, and we are going to solve 
this to your satisfaction.
    I don't know right now what all that solution looks like, 
but we are not waiting, either. As we break out the pieces, we 
are solving each one of them, and we will sort this out. It is 
not an ideological opposition here, but when we have got an 
Army, Navy, Air Force, Marine Corps now, putting them together 
in the joint force is challenging and makes us the best in the 
world, and we are good at it.
    Do we want to set up another force--and we have to make 
certain it solves the problem before we put out the money for 
an entirely new military, from recruiting to training, and 
everything else. Might be the right thing to do, though.
    Mr. Rogers. Right. And I have--I share your confidence in 
Deputy Secretary Shanahan. We think he is the right guy to 
pursue this.
    General Dunford, in your professional military judgment, 
can you tell us--explain to us why you believe that we need a 
lower-yield submarine launch ballistic missile when we already 
have a lower-yield gravity bomb?
    General Dunford. I can do that, Congressman. Deterrence 
really is all about making sure the adversary knows that you 
have a credible response that is going to impose a cost that is 
greater than whatever they do. And while we might like to 
reduce our nuclear capabilities, the fact is that Russia 
specifically has grown those over time.
    They have thousands of what we would call nonstrategic 
nuclear weapons. They have a mind that, maybe if they used 
those nonstrategic nuclear weapons, we are at the point where 
we would have to either risk the homeland or we would concede 
that they have escalated to the point where they achieved their 
political objectives.
    In my judgment, the Nuclear Posture Review and the 
recommendation to have a low-yield--the option increases our 
deterrence vis-a-vis Russia, because it convinces them that we 
do have credible, capable responses. No matter what they do, 
they are going to be met with a credible, capable response, and 
there is no circumstances under which they will do something 
where the cost that they will pay won't be greater than 
whatever they hope to gain.
    Mr. Rogers. Great. Well, General, we also continue to hear 
calls to de-alert our ICBMs [intercontinental ballistic 
missiles] and give up our responsiveness of the nuclear forces. 
Do you believe that would be a wise path for us to pursue?
    General Dunford. I don't, Congressman. And that particular 
issue--as you know, you follow it well--it has been looked at 
in several posture reviews. In fact, the determination has been 
made that it is actually more stabilizing to leave them on 
alert so that that is where they are, so that if you--because 
in a crisis, if you then alerted them, you would by definition 
perhaps create unstable conditions.
    Mr. Rogers. Great. Thank you both. Thank you all for your 
service.
    I yield back.
    The Chairman. Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman. And thank you, 
gentlemen, for being here today.
    On August 21st of 2017 many of us championed and welcomed 
this administration's change in strategy and focus to win in 
Afghanistan and create a safe and secure Afghanistan.
    General Dunford, last summer in your fiscal year 2018 
posture testimony you stated, ``In Afghanistan fiscal year 2018 
investments will reinforce improvements in the Afghan national 
defense and security forces.'' Today you stated, ``We are 
working toward a sustainable approach to stabilizing the Afghan 
Government and denying terrorists sanctuary.''
    General Votel recently testified before this committee in 
February, and he assessed, ``The ANSF [Afghan National Security 
Forces] does not have the ability to prevent the insurgency 
from maintaining a rural presence, and occasionally threatening 
a population center or critical ground lines of 
communication.'' Supporting this, the latest SIGAR [Special 
Inspector General for Afghanistan Reconstruction] report stated 
in the most recent assessment that the Afghan Government's 
control of districts is lowest, while the insurgency's control 
is the highest, since December of 2015.
    General Dunford, we would expect to see the Afghan 
Government's control increase, while the insurgencies' control 
decrease. When do you see the ANSF turning the corner against 
the insurgents and other terrorists?
    General Dunford. Congressman, thanks for that question. I 
was just in Afghanistan, I spent 5 days there about 3 weeks 
ago. We visited all of our positions and spent time with 
General Nicholson to talk about, in detail, how he was 
implementing a South Asia strategy, and specifically the 
military dimension of the South Asia strategy that Secretary 
Mattis directed.
    A couple of challenges we have had. Number one, we have 
suffered significant Afghan casualties. Number two, the 
cooperation across the Afghan police, Afghan Army, intelligence 
organizations hasn't been quite what it has--what it needed to 
be. And number three, they were short capabilities: aviation 
capability, intelligence capability, surface fires capability.
    What we have done, I believe, is taken a look exactly at 
what the Afghans need to gain momentum and retain momentum 
against the adversary. Our advisors are the right advisors. 
They are carefully hand-selected, with previous combat 
experience. So they are the right people to be providing 
advice. They are at the right level.
    You remember before they were up at the corps level, a 
general officer level, and they now have the capability to go 
down to the tactical level. That is significant for two 
reasons. One is it enhances the leadership development of the 
Afghan forces, but more importantly it helps deliver our fires 
at the right time and the right place, and helps them to learn 
how to deliver their fires at the right time and the right 
place.
    And the other thing I was encouraged about by my visit was 
that the cross--what we call cross-pillar coordination--that is 
the police, the army, and the security forces--many 
demonstrations of that in January and February and March this 
year. I just would tell you that we just now are about 6, 7 
weeks into this new organizational construct, and I would 
expect to see different results this summer.
    And I will close, knowing that we are short of time, by 
just saying this: We are not doing--you know, the people would 
say we are just doing more of the same. I would argue that, 
until 2013, we did the fighting. From 2013, when at a peak, we 
had about 140,000 forces. We focused for the next 3 years on 
decreasing our forces to the point we only had 8,000 forces in 
2017.
    This is going to be the first season where we have had a 
fully resourced plan to support the Afghans in conducting 
counterinsurgency operations inside of Afghanistan. By no means 
is the military dimension of the problem sufficient to achieve 
strategic success, but I do believe right now that the military 
dimension--the problem has been adequately addressed.
    I am confident that we have the right organizational 
construct, we have the right people, and we have the right 
capabilities in place to address the specific issues that we 
identified in doing a failure analysis over the last few years. 
We drew from those lessons learned the specific issues that had 
to be addressed when we deployed the force for 2018.
    Mr. Banks. Okay, thank you. With the less than a minute 
that I have left, again, Secretary Mattis, many of us support 
this administration's new approach. We have, since August 21st 
of 2017. But we have heard far too little from the Pentagon 
about the success of that strategy. The American people deserve 
to know that we are turning the corner, we are making progress.
    What can we do--what can you do to better inform the 
American people that we are making progress in the months to 
come to show them that we are doing everything that we can to 
win in Afghanistan?
    Secretary Mattis. Congressman, I register your point loud 
and clear. We owe that kind of explanation to the American 
people. I think what we need to do is deliver results, as well. 
And as the results come with this new organization, now that we 
have a strategy, not just to leave, but to actually win, and we 
are at a position now to actually give the kind of progress 
reports that you are looking for.
    But it is a good point. I have not looked at it. Let me 
look at it. Okay? And----
    Mr. Banks. My----
    Secretary Mattis. Thank you.
    Mr. Banks [continuing]. Time has expired.
    The Chairman. Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman. And thank you, each of 
you, for being here this afternoon, and for your service.
    Secretary Mattis, in your written statement you said that 
modernizing the Nation's nuclear deterrent delivery systems, 
including our nuclear command and control, is the Department's 
top priority.
    And General Dunford, you similarly said that the nuclear 
modernization is the highest priority mission of the joint 
force, and there is no margin remaining in the modernization 
schedule, and we must deliver these critical nuclear 
modernization programs on the established timelines.
    So just to elaborate a little bit, both of you, why do you 
think the nuclear programs are the top priority?
    Secretary Mattis. Congressman, these weapons, if they are 
used, bring a tragedy beyond anyone's ability to explain it. 
There is--we have got to maintain the prohibition on these 
weapons. It is costly, it is a lot less costly than if there 
was a slip into a nuclear war, sir.
    Mr. Hice. Okay. General Dunford.
    General Dunford. Congressman, as the Secretary has made 
clear to us that deterring a nuclear war is job one inside the 
Department of Defense, and to deter nuclear war we have to have 
credible capabilities. The adversary has to know--again, back 
to the--that we would respond in a way that would impose a cost 
much greater than whatever they would do. If they struck us, 
they would be met with overwhelming force.
    We have had a successful deterrent framework in place to 
deter nuclear war for decades. Unfortunately, we stopped making 
investments in our nuclear enterprise back in the 1990s. We 
should have started modernizing back then, in the late 1990s.
    As we have seen, as much as we might like to emphasize 
nuclear weapons, our adversaries have, in fact, modernized 
nuclear weapons, and they have created a capable, modern 
nuclear enterprise.
    And with regard to the Russians, they have certainly opened 
that up, and have a lot--large number of nonstrategic nuclear 
weapons, as well as nuclear weapons.
    So I think, at the end of the day, it does reflect a 
relatively small percentage of the Department of Defense. When 
you look at job one, deter nuclear weapons, the force that we 
have and the command and control systems we have to have in 
place have to be credible enough to make sure the adversary 
knows that we do have the ability to respond and set the same 
deterrent framework that has been in place for decades.
    Mr. Hice. So I am assuming from that answer that you would 
agree with General Hyten from STRATCOM [U.S. Strategic 
Command], his statement that we need to go faster on our 
nuclear modernization programs.
    General Dunford. Absolutely. And I think that the good 
thing is now we have the Nuclear Posture Review roadmap laid 
out. In fact, just on one element of it, nuclear command and 
control, I am responsible to come back to the Secretary very 
soon on nuclear command and control to make recommendations how 
we implement the modernization element of that.
    And of course, as you know, in this year's budget, in 2019, 
we have made investments across the entire triad as a result--
and it is all analytically based in that Nuclear Posture 
Review.
    Mr. Hice. General Mattis, you would agree with that, as 
well?
    Secretary Mattis. I do, sir, and I appreciate the 25 
percent budget increase that Congress provided for--this would 
all just be words, if you hadn't provided the resources. Thank 
you.
    Mr. Hice. Well taken. Let me ask my final question. Do--and 
really, Secretary Mattis, this is for you. Do you think that 
de-alerting our nuclear forces is a good idea?
    Secretary Mattis. I cannot find any positive aspect of it, 
sir. As you know, the weapons, the ICBMs are targeted into the 
open waters. We have reduced any sense that they are on hair-
trigger alert, as well, because we don't have to use them or 
lose them. It is not that sort of an issue.
    What we want is a deterrent. In other words, someone who 
wants to attack us would have to take them all out. That cannot 
be done with 1 or 10 or even 100 nuclear weapons. And that 
sobers anyone who thinks they are going to take us on.
    So the ICBM force, the submarines, the bombers, it is the 
right way to keep the deterrence intact.
    Mr. Hice. So to ask a similar question a little different 
way, are you worried that having parts of our nuclear forces on 
alert is dangerous?
    Secretary Mattis. No, sir.
    Mr. Hice. Thank you very much, and I appreciate you all 
being here, and I yield back.
    The Chairman. Mr. Secretary, we have been joined by some 
good citizens from the Amarillo, Texas, Chamber of Commerce, 
whom I stood up about 45 minutes ago.
    [Laughter.]
    The Chairman. At least a couple of them are involved in 
helping provide our nuclear deterrence. On behalf of them and 
all of us, I want to thank you both for being here for 4 hours 
and answering our questions, and for your service to the 
country.
    The hearing stands adjourned.
    [Whereupon, at 2:03 p.m., the committee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             April 12, 2018

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 12, 2018

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
   

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 12, 2018

=======================================================================

      

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 12, 2018

=======================================================================

      

                    QUESTION SUBMITTED BY MR. TURNER

    Mr. Turner. You mentioned that you now recognize that when 
considering space as a warfighting domain, we should also be looking at 
it in the full spectrum of ``acquisition to employment, from 
coordination to innovation for the future, and all the things that go 
with it''. Given our immediate issues with great power competition 
against Russia and China, do we have the luxury of waiting for the 
DSD's final report in August or are there steps that Congress should be 
taking prior to the report?
    Secretary Mattis. I appreciate Congress's continued focus and 
attention on the Department's approach to the space domain. I do not 
believe that Congress needs to take any additional actions at this 
time. The Deputy Secretary of Defense is fully engaged in his review of 
the organizational and management structure of the national security 
space components of the Department of Defense, as required by Section 
1601(c) of the National Defense Authorization Act for Fiscal Year 2018, 
and will provide recommendations back to Congress by August 1, 2018. 
While the Deputy's review is still underway, the Department is not 
sitting still. The Department is acting on the guidance laid out in the 
President's recent National Strategy for Space and the 2018 National 
Defense Strategy to convert strategy into immediate, near-term, and 
long-term action. The Department specifically is harmonizing its space 
activities to ensure U.S. leadership, preeminence, and freedom of 
action in space for decades to come. The Air Force is reorganizing its 
Space and Missile Center in response to the Deputy's focus on 
accelerating the speed of space acquisition. The Fiscal Year 2019 
President's Budget request, which included approximately $13 billion 
for Defense space programs, constitutes over a 9 percent increase above 
last year's request. The President's Budget request also included more 
than $65 billion across the Future Years Defense Plan, reflecting a 14 
percent growth above the previous five-year planning period. Our words 
and actions, backed by the increased funding requests, will amplify the 
mission assurance of the Department's space-based capabilities against 
the growing threats from our competitors and adversaries. It will also 
leverage commercial innovation and our international partnerships to 
accelerate development and deployment of new capabilities, strengthen 
lethality and readiness of the total force, and enhance the nation's 
overall deterrence and warfighting power.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. Media reports indicate that U.S. and North Korean 
officials have discussed ``denuclearization'' in the buildup to a 
summit between President Trump and Kim Jong Un. While this news is 
encouraging, it's also unclear, because we hope ``denuclearization'' 
means that the North Koreans will give up their nuclear weapons in 
exchange for the lifting of sanctions, while the North Koreans seem to 
think ``denuclearization'' means they'd give up their weapons if we 
abandoned our defense relationship with South Korea. I understand that 
these details pertain to ongoing negotiations, but I think it's 
important for this to be public: What does the President mean and 
envision when he says denuclearization? Does he understand that his 
definition and expectations likely diverge greatly from the North 
Koreans'?
    Secretary Mattis. Denuclearization means the complete, verifiable, 
and irreversible abandonment by North Korea of its nuclear weapons 
programs and existing nuclear and delivery programs.
    Ms. Speier. Media reports indicate that U.S. and North Korean 
officials have discussed ``denuclearization'' in the buildup to a 
summit between President Trump and Kim Jong Un. While this news is 
encouraging, it's also unclear, because we hope ``denuclearization'' 
means that the North Koreans will give up their nuclear weapons in 
exchange for the lifting of sanctions, while the North Koreans seem to 
think ``denuclearization'' means they'd give up their weapons if we 
abandoned our defense relationship with South Korea. I understand that 
these details pertain to ongoing negotiations, but I think it's 
important for this to be public: What does the President mean and 
envision when he says denuclearization? Does he understand that his 
definition and expectations likely diverge greatly from the North 
Koreans'?
    General Dunford. I defer to the administration to characterize the 
President's remarks.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. HARTZLER
    Mrs. Hartzler. The FY18 National Defense Authorization Act (NDAA) 
Senate report included language directing the Department ``to ensure 
that appropriate training on religious liberty is conducted at all 
levels of command on the requirements of the law. . . .'' The specific 
committee recommendation was ``to develop curriculum and implement 
training concerning religious liberty in accordance with the law.'' Has 
DOD, in conjunction with each of the services, developed ``a 
comprehensive training program'' for commanders, chaplains, and judge 
advocates? How has DOD implemented this recommendation? Please provide 
an update on DOD's, and each of the branches, ``intentional strategy 
for developing and implementing a comprehensive training program on 
religious liberty issues for military leadership and commanders.''
    Senator Ernst Religious Liberty Report Language FY18 S. 1519, 
National Defense Authorization Act for Fiscal Year 2018 Bill: https://
www.gpo.gov/fdsys/pkg/BILLS-115s1519pcs/pdf/BILLS-115s1519pcs.pdf 
Report: https://www.gpo.gov/fdsys/pkg/CRPT-115srpt125/pdf/CRPT-
115srpt125.pdf
    Secretary Mattis. The training will assist the military services in 
ensuring that the right to the free exercise of religion of all service 
members, as well as the right to exercise no religion at all, is 
protected. Each chaplain corps integrates religious freedom training 
into its training for chaplains on the broader topics of facilitation 
of religious ministry and religious accommodation for all faith groups. 
This training occurs at the basic and advanced course at each of the 
service chaplain schools. Judge advocates from each of the services 
receive religious accommodation and expression training at their basic 
courses, mid-career courses, and senior leader courses. Additionally, 
commanders receive religious accommodation and expression training at 
pre-command courses, and receive advice from their judge advocates and 
chaplains throughout the course of their commands. Religious liberty 
training in each of the services is continually refined to address the 
free exercise in the context of military service.

                                  <all>
</pre></body></html>
